No. 20-601
In the

Supreme Court of the United States
__________________
DANIEL CAMERON, ATTORNEY GENERAL, ON BEHALF OF
THE COMMONWEALTH OF KENTUCKY,
Petitioner,
v.
EMW WOMEN’S SURGICAL CENTER, P.S.C., ON BEHALF
OF ITSELF, ITS STAFF, AND ITS PATIENTS, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit

__________________

JOINT APPENDIX
__________________
ANDREW BECK
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2633
abeck@aclu.org
Counsel for Respondents

MATTHEW F. KUHN
Counsel of Record
Principal Deputy
Solicitor General
OFFICE OF THE KENTUCKY
ATTORNEY GENERAL
700 Capital Avenue
Suite 118
Frankfort, KY 40601
(502) 696-5300
Matt.Kuhn@ky.gov
Counsel for Petitioner

JUNE 14, 2021
PETITION FOR WRIT OF CERTIORARI FILED OCTOBER 30, 2020
PETITION FOR WRIT OF CERTIORARI GRANTED MARCH 29, 2021

i
JOINT APPENDIX
TABLE OF CONTENTS
Relevant Docket Entries United States District
Court for the Western District of Kentucky
(Louisville), No. 3:18-cv-00224-JHM-RSE . . . JA 1
Relevant Docket Entries United States Court of
Appeals for the Sixth Circuit,
No. 19-5516 . . . . . . . . . . . . . . . . . . . . . . . . . . JA 19
Stipulation and Order of Dismissal Upon
Conditions of Andrew G. Beshear in the United
States District Court for the Western District of
Kentucky Louisville Division
(May 21, 2018). . . . . . . . . . . . . . . . . . . . . . . . JA 28
Memorandum Opinion Incorporating Findings of
Fact and Conclusions of Law
(May 10, 2019). . . . . . . . . . . . . . . . . . . . . . . . JA 33
Judgment and Permanent Injunction in the United
States District Court Western District of
Kentucky Louisville Division
(May 10, 2019). . . . . . . . . . . . . . . . . . . . . . . . JA 68
Motion to Withdraw as Counsel in the United
States Court of Appeals for the Sixth Circuit
(December 9, 2019) . . . . . . . . . . . . . . . . . . . . JA 70
Order Granting Motion to Withdraw as Counsel in
the United States Court of Appeals for the Sixth
Circuit
(December 11, 2019) . . . . . . . . . . . . . . . . . . . JA 72

ii
Appearance of Counsel Matthew F. Kuhn in the
United States Court of Appeals for the Sixth
Circuit
(December 30, 2019) . . . . . . . . . . . . . . . . . . . JA 74
Appearance of Counsel Brett R. Nolan in the United
States Court of Appeals for the Sixth Circuit
(January 23, 2020) . . . . . . . . . . . . . . . . . . . . JA 76
Appearance of Counsel M. Stephen Pitt in the
United States Court of Appeals for the Sixth
Circuit (January 23, 2020) . . . . . . . . . . . . . . JA 78
Appearance of Counsel S. Chad Meredith in the
United States Court of Appeals for the Sixth
Circuit (January 23, 2020) . . . . . . . . . . . . . . JA 80
Appearance of Counsel Daniel Cameron in the
United States Court of Appeals for the Sixth
Circuit (January 28, 2020) . . . . . . . . . . . . . . JA 82
Opinion in the United States Court of Appeals for
the Sixth Circuit
(June 2, 2020) . . . . . . . . . . . . . . . . . . . . . . . . JA 84
Motion to Intervene & Motion to Expedite Review
by Attorney General Daniel Cameron, on Behalf
of the Commonwealth of Kentucky in the United
States Court of Appeals for the Sixth Circuit
(June 11, 2020) . . . . . . . . . . . . . . . . . . . . . . JA 152
Notice of Intent to Oppose in the United States
Court of Appeals for the Sixth Circuit
(June 12, 2020) . . . . . . . . . . . . . . . . . . . . . . JA 170

iii
Plaintiffs-Appellees’ Opposition to Motion to
Intervene by Attorney General Daniel Cameron
in the United States Court of Appeals for the
Sixth Circuit (June 15, 2020) . . . . . . . . . . . JA 174
Reply in Support of Motion to Intervene by
Attorney General Daniel Cameron, on Behalf of
the Commonwealth of Kentucky in the United
States Court of Appeals for the Sixth Circuit
(June 16, 2020) . . . . . . . . . . . . . . . . . . . . . . JA 197
Petition for Rehearing En Banc by Attorney
General Cameron, on behalf of the
Commonwealth of Kentucky in the United
States Court of Appeals for the Sixth Circuit
(June 16, 2020) . . . . . . . . . . . . . . . . . . . . . . JA 210
Order in the United States Court of Appeals for the
Sixth Circuit
(June 24, 2020) . . . . . . . . . . . . . . . . . . . . . . JA 228
Petition for Rehearing En Banc of Order Denying
Intervention by Attorney General Cameron, on
behalf of the Commonwealth of Kentucky in the
United States Court of Appeals for the Sixth
Circuit
(July 7, 2020). . . . . . . . . . . . . . . . . . . . . . . . JA 252
Order in the United States Court of Appeals for the
Sixth Circuit
(July 16, 2020). . . . . . . . . . . . . . . . . . . . . . App. 270
Mandate in the United States Court of Appeals for
the Sixth Circuit
(August 3, 2020) . . . . . . . . . . . . . . . . . . . . App. 273

JA 1
RELEVANT DOCKET ENTRIES
United States District Court
for the Western District of Kentucky (Louisville)
No. 3:18-cv-00224-JHM-RSE
EMW Women’s Surgical Center, P.S.C., et al. v.
Meier, et al.
Date Filed
04/10/2018

#
1

Docket Text
COMPLAINT against Andrew G.
Beshear, Scott Brinkman,
Michael S. Rodman, Thomas B.
Wine Filing fee $ 400, receipt
number 0644-2621358., filed by
EMW Women’s Surgical Center,
P.S.C., Ashlee Bergin, Tanya
Franklin, M.D.. (Attachments: # 1
Cover Sheet, # 2 Cover Sheet
Addendum, # 3 Exhibit A - HB
454) (DJT) (Entered: 4/1/2018)
***

04/11/2018

6

MOTION for Temporary
Restraining Order and
Preliminary Injunction by
Plaintiffs Ashlee Bergin, EMW
Women’s Surgical Center, P.S.C.,
Tanya Franklin, MD
(Attachments: # 1 Memorandum
in Support Memorandum in
Support of TRO/PI Motion, # 2
Exhibit Exhibit 1- Bergin
Declaration, # 3 Exhibit Exhibit

JA 2
2- Davis Declaration, # 4
Proposed Order Proposed Order)
(Cubbage, Amy) (Entered:
04/11/2018)
***
04/11/2018

10

TEXT ORDER by Chief Judge
Joseph H. McKinley, Jr. on
4/11/2018: The Court will conduct
a telephonic hearing on Plaintiffs’
motion for temporary restraining
order [DN 6] on Thursday, April
12, 2018, at 11:30 AM CDT.
Counsel shall connect to the
conference by dialing toll free
1-877-873-8017 and entering
access code 6833907#.
This Notice of Electronic Filing
is the Official ORDER for this
entry. No document is attached.
cc: Counsel of record, Chad
Meredith: chad.meredith@ky.gov,
Talcott Camp: tcamp@aclu.org
(EAS) (Entered: 04/11/2018)
***

04/12/2018

23

COURT PROCEEDINGS held
before Chief Judge Joseph H.
McKinley, Jr.: Telephone
Conference held on 4/12/2018.
(Court Reporter April Dowell.)
(EAS) (Entered: 04/13/2018)

JA 3
04/12/2018

24

JOINT CONSENT ORDER by
Chief Judge Joseph H. McKinley,
Jr. on 4/12/18: Defendant’s brief
in opposition to Motion due by
5/2/2018. Plaintiffs’ reply in
further support of their motion
shall be due 5/17/2018. On
5/22/2018, the parties shall
exchange lists containing all
witnesses who will testify at the
6/5/2018, preliminary injunction
hearing. Evidentiary Hearing set
for 6/5/2018 at 9:00 AM in
Louisville Courtroom before Chief
Judge Joseph H. McKinley Jr..cc:
counsel (DJT) (Entered:
04/13/2018)
***

05/08/2018

41

ORDER for proceedings held
before Magistrate Judge Dave
Whalin: Telephone Conference
held on 5/4/2018. Defendants’
deadline for filing a response to
Plaintiffs’ motion for preliminary
injunctive relief is extended to
5/8/2018, and Plaintiffs’ deadline
to reply is extended to 5/22/2018.
Discovery due by 8/15/2018.
Dispositive Motions due by
9/28/2018. Preliminary Junction
hearing remains set for 6/5/2018
at 9:00 AM in Louisville
Courtroom before Chief Judge

JA 4

05/08/2018

42

05/08/2018

43

Joseph H. McKinley Jr.. cc:
counsel (JM)
(Entered: 05/08/2018)
RESPONSE to Motion re 6
MOTION for Temporary
Restraining Order and
Preliminary Injunction, MOTION
for Preliminary Injunction filed
by Andrew G. Beshear. (Buckner,
La Tasha) (Entered: 05/08/2018)
RESPONSE to Motion re 6
MOTION for Temporary
Restraining Order and
Preliminary Injunction filed by
Scott Brinkman. (Attachments:
# 1 Exhibit A-HB 454, # 2 Exhibit
B–Dermish Tr., # 3 Exhibit
C-PPFA Guidelines, # 4 Exhibit
D-Biggio Declaration, # 5 Exhibit
E-Berry Tr., # 6 Exhibit
F-Silverthorn Tr., # 7 Proposed
Order) (Pitt, M.)
(Entered: 05/08/2018)
***

05/11/2018

46

Proposed Agreed Order/
Stipulation by Andrew G.
Beshear. (Buckner, La Tasha)
(Entered: 05/11/2018)
***

JA 5
05/16/2018

49

ANSWER to 1 Complaint, with
Jury Demand by Scott Brinkman.
(Pitt, M.) (Entered: 05/16/2018)
***

05/21/2018

51

05/22/2018

54

05/29/2018

56

STIPULATION AND ORDER OF
D I S M I S S A L
U P O N
CONDITIONS OF ANDREW G.
BESHEAR by Chief Judge Joseph
H. McKinley, Jr. on 5/21/2018:
Pursuant to Fed. R. Civ. P.
41(a)(2) Defendant Beshear is
hereby dismissed without
prejudice. cc: counsel (JM)
(Entered: 05/21/2018)
***
REPLY to Response to Motion re
6 MOTION for Temporary
Restraining Order and
Preliminary Injunction filed by
Ashlee Bergin, EMW Women’s
Surgical Center, P.S.C., Tanya
Franklin, MD. (Attachments: # 1
Exhibit 1, # 2 Exhibit 2, # 3
Exhibit 3) (Cubbage, Amy)
(Entered: 05/22/2018)
***
ORDER for proceedings held
before Chief Judge Joseph H.
McKinley, Jr.: Telephone
Conference held on 5/24/2018.
The evidentiary hearing
scheduled for 6/5/2018, is vacated.

JA 6

06/13/2018

58

10/31/2018

79

The parties shall continue to
abide by the terms of the Consent
Order 24 suspending enforcement
of the Act until the trial on the
merits. Trial set for 11/13/2018 at
10:00 AM in Louisville Courtroom
before Chief Judge Joseph H.
McKinley Jr.. The parties shall
confer and submit a proposed
litigation plan to the Court no
later than 6/8/2018. cc: counsel,
SH (JM) (Entered: 05/29/2018)
***
ORDER by Chief Judge Joseph H.
McKinley, Jr. on 6/13/2018: The
Court ADOPTS the joint
litigation plan (DN 57 ); This
matter remains on the Court’s
trial docket for 11/13/2018, at
10:00 AM EST, U.S. Courthouse,
Louisville, Kentucky. cc: counsel
(JM) (Entered: 06/13/2018)
***
ORDER from proceedings held
before Chief Judge Joseph H.
McKinley, Jr.; Pretrial
Conference held on 10/31/2018:
The telephonic final pretrial
conference sched ul e d f or
11/2/2018, at 2:00 PM is vacated.
Should the bench trial not be
completed by 11/16/2018, the
Court will resume trial on

JA 7

11/02/2018

83

November 19, 2018, if necessary.
Defendants Andrew G. Beshear
and Michael S. Rodman have
been dismissed from this action.
Adam W. Meier, Secretary of
Kentuckys Cabinet for Health
and Family Services is hereby
substituted for Defendant Scott
Brinkman. The Clerk is directed
to modify the case caption in
CM/ECF as follows to reflect the
remaining properly named
Defendants: EMW Womens
Surgical Center, P.S.C., et al. v.
Meier, et al. By separate order,
the Court will enter the
protective order offered by the
Plaintiffs. However, a designation
of confidential or attorneys eyes
only shall not necessarily mean
the information will be sealed by
the Court from the public record.
(Court Reporter Terri Turner.) cc:
Counsel (DJT) (Entered:
10/31/2018)
***
PRETRIAL MEMORANDUM by
Adam W. Meier. (Attachments: #
1 Exhibit 1 - Levatino Expert
Report, # 2 Exhibit 2 - Thorp
Expert Report, # 3 Exhibit 3 Bramer Expert Report, # 4
Exhibit 4 - Malloy Expert Report,

JA 8
# 5 Exhibit 5 - Curlin Deposition
Transcript, # 6 Exhibit 6 - Snead
Deposition Transcript, # 7 Exhibit
7 - Planned Parenthood’s
Standards, # 8 Exhibit 8 - Berry
Opening Expert Report) (Pitt, M.)
(Entered: 11/02/2018)
***
11/02/2018

85

11/03/2018

86

PRETRIAL MEMORANDUM by
Ashlee Bergin, EMW Women’s
Surgical Center, P.S.C., Tanya
Franklin, MD. (Attachments: # 1
Exhibit A - Defendants’
Objections and Responses to
Plaintiffs’ First Discover) (Beck,
Andrew) (Main Document 85
replaced on 11/5/2018) (JM).
(Attachment 1 replaced on
11/5/2018) (JM). (Entered:
11/02/2018)
MOTION to Strike and
Substitute 85 Pretrial
Memorandum. Document or Part
to be Stricken and/or Substituted:
Pretrial Memorandum by
Plaintiffs Ashlee Bergin, EMW
Women’s Surgical Center, P.S.C.,
Tanya
Franklin,
MD
(Attachments: # 1 Exhibit Exhibit
1-- Corrected Pretrial
Memorandum, # 2 Exhibit
Exhibit 1A-- Exhibit A to

JA 9

12/17/2018

102

12/17/2018

103

Corrected Pretrial Memorandum
(Defendant’s Objections and
Responses to Discovery), # 3
Proposed Order Proposed Order)
(Cubbage, Amy) (Entered:
11/03/2018)
***
FILING
OF OFFICIAL
TRANSCRIPT of Bench Trial
held on 11/15/18 - afternoon
session - before Judge Joseph H.
McKinley. Court Reporter April
R. Dowell, Telephone number
502-625-3779. Transcript may be
viewed at the court public
terminal or purchased through
the Court Reporter before the
deadline for Release of Transcript
Restriction. After that date it may
be obtained through PACER.
Redaction Request due 1/7/2019.
Redacted Transcript Deadline set
for 1/17/2019. Release of
Transcript Restriction set for
3/18/2019. (Dowell, April)
(Entered: 12/17/2018)
FILING
OF OFFICIAL
TRANSCRIPT of Bench Trial,
Volume 4, held on 11/16/18,
before Judge Joseph H. McKinley.
Court Reporter April R. Dowell,
Telephone number 502-625-3779.
Transcript may be viewed at the

JA 10

12/27/2018

104

court public terminal or
purchased through the Court
Reporter before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction
Request due 1/7/2019. Redacted
Transcript Deadline set for
1/17/2019. Release of Transcript
Restriction set for 3/18/2019.
(Dowell, April) (Entered:
12/17/2018)
FILING
OF OFFICIAL
TRANSCRIPT of Bench Trial,
Volume 5-B, held on 11/19/18,
before Judge Joseph H. McKinley.
Court Reporter April R. Dowell,
Telephone number 502-625-3779.
Transcript may be viewed at the
court public terminal or
purchased through the Court
Reporter before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction
Request due 1/7/2019. Redacted
Transcript Deadline set for
1/17/2019. Release of Transcript
Restriction set for 3/18/2019.
(Dowell, April) (Entered:
12/17/2018)
***

JA 11
12/19/2018

12/19/2018

106 F I L I N G O F O F F I C I A L
TRANSCRIPT of Bench Trial
(Volume 1) held on 11/13/2018,
before Judge Joseph H. McKinley,
Jr. Court Reporter Dena Legg,
Telephone number 502-625-3778.
Transcript may be viewed at the
court public terminal or
purchased through the Court
Reporter before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction
Request due 1/9/2019. Redacted
Transcript Deadline set for
1/22/2019. Release of Transcript
Restriction set for 3/19/2019. (DL)
(Entered: 12/19/2018)
107 F I L I N G O F O F F I C I A L
TRANSCRIPT of Bench Trial
(Volume 2) held on 11/14/2018,
before Judge Joseph H. McKinley,
Jr. Court Reporter Dena Legg,
Telephone number 502-625-3778.
Transcript may be viewed at the
court public terminal or
purchased through the Court
Reporter before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction
Request due 1/9/2019. Redacted
Transcript Deadline set for

JA 12

12/19/2018

12/19/2018

1/22/2019. Release of Transcript
Restriction set for 3/19/2019. (DL)
(Entered: 12/19/2018)
108 F I L I N G O F O F F I C I A L
TRANSCRIPT of Bench Trial
(Volume 3-A) held on 11/15/2018,
before Judge Joseph H. McKinley,
Jr. Court Reporter Dena Legg,
Telephone number 502-625-3778.
Transcript may be viewed at the
court public terminal or
purchased through the Court
Reporter before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction
Request due 1/9/2019. Redacted
Transcript Deadline set for
1/22/2019. Release of Transcript
Restriction set for 3/19/2019. (DL)
(Entered: 12/19/2018)
109 F I L I N G O F O F F I C I A L
TRANSCRIPT of Bench Trial
(Volume 5-A) held on 11/19/2018,
before Judge Joseph H. McKinley,
Jr. Court Reporter Dena Legg,
Telephone number 502-625-3778.
Transcript may be viewed at the
court public terminal or
purchased through the Court
Reporter before the deadline for
Release of Transcript Restriction.
After that date it may be obtained

JA 13

01/09/2019

01/28/2019

02/25/2019

through PACER. Redaction
Request due 1/9/2019. Redacted
Transcript Deadline set for
1/22/2019. Release of Transcript
Restriction set for 3/19/2019. (DL)
(Entered: 12/19/2018)
***
111 EXHIBIT INVENTORY (re Bench
Trial held 11/13/2018) (JM)
(Entered: 01/10/2019)
112 NOTICE of Filing of Deposition of
William Kim Brady by Adam W.
Meier re 104 Transcript - Court
Official,, (Attachments: # 1
Exhibit Deposition of Dr. William
Kim Brady, # 2 Exhibit
Deposition Exhibit 1, # 3 Exhibit
Deposition Exhibit 2, # 4 Exhibit
Deposition Exhibit 3, # 5 Exhibit
Deposition Exhibit 4, # 6 Exhibit
Deposition Exhibit 5, # 7 Exhibit
Deposition Exhibit 6, # 8 Exhibit
Deposition Exhibit 7, # 9 Exhibit
Deposition Exhibit 8, # 10 Exhibit
Deposition Exhibit 9, # 11 Exhibit
Deposition Exhibit 10) (York,
Catherine) (Entered: 01/28/2019)
***
118 B R I E F P o s t - T r i a l B r i e f
(Attachments: # 1 Exhibit
Certificate of Service) by Ashlee
Bergin, EMW Women’s Surgical

JA 14

02/25/2019

119

03/27/2019

121

03/27/2019

122

03/27/2019

123

03/27/2019

124

Center, P.S.C., Tanya Franklin,
MD. (Kolbi-Molinas, Alexa)
(Entered: 02/25/2019)
BRIEF Post-Trial Brief by Adam
W. Meier. (Pitt, M.) (Entered:
02/25/2019)
***
BRIEF / Plaintiffs’ Post-Trial
Reply Memorandum by Ashlee
Bergin, EMW Women’s Surgical
Center, P.S.C., Tanya Franklin,
MD. (Kolbi-Molinas, Alexa)
(Entered: 03/27/2019)
NOTICE of Filing Plaintiffs’
Proposed Findings of Fact &
Conclusions of Law by Ashlee
Bergin, EMW Women’s Surgical
Center, P.S.C., Tanya Franklin,
MD (Attachments: # 1 Proposed
Findings of Facts and
Conclusions
of
Law)
(Kolbi-Molinas, Alexa) (Entered:
03/27/2019)
BRIEF Secretary Meier’s
Post-Trial Reply Brief by Adam
W. Meier. (Pitt, M.) (Entered:
03/27/2019)
Proposed Findings of Fact by
Adam W. Meier. (Pitt, M.)
(Entered: 03/27/2019)
***

JA 15
05/10/2019

05/10/2019

126 MEMORANDUM OPINION
INCORPORATING FINDINGS
OF FACT AND CONCLUSIONS
OF LAW by Judge Joseph H.
McKinley, Jr on 5/8/2019: H.B.
454 is facially unconstitutional
for the foregoing reasons.
Accordingly, the court declares
the Act void and will permanently
enjoin the Commonwealth from
enforcing the Act. cc: counsel (JM)
(Entered: 05/10/2019)
127 JUDGMENT is entered in favor
of Plaintiffs. The Court declares
that H.B. 454 violates the
Fourteenth Amendment rights of
Plaintiffs patients and, as such, is
VOID. Defendants and their
officers, agents, and employees,
and those persons in active
concert or participation with
Defendants who receive actual
notice of this Order, are
PERMANENTLY ENJOINED
from enforcing H.B. 454 by
criminal
proceeding,
a d m i n i s t r at i ve a c t i o n o r
proceeding, or any other means;
penalizing any person for failure
to comply with H.B. 454 by
criminal
proceeding,
a d m i n i s t r at i ve a c t i o n o r
proceeding, or any other means;

JA 16

05/15/2019

05/28/2019

and applying, imposing, or
requiring compliance with,
implementing, or carrying out in
any way any part of H.B. 454.
This action is DISMISSED with
prejudice. cc: counsel (JM)
(Entered: 05/10/2019)
128 NOTICE OF APPEAL as to 127
Judgment,,, 126 Memorandum &
Opinion, by Adam W. Meier.
Filing fee $ 505, receipt number
0644-2866053. ( P i t t , M.)
(Entered: 05/15/2019)
***
132 F I L I N G O F O F F I C I A L
TRANSCRIPT of Telephonic
Pretrial Conference held on
10/31/2018, before Judge Joseph
H. McKinley, Jr. Court Reporter
Terri Turner, Telephone number
270-415-6417. Transcript may be
viewed at the court public
terminal or purchased through
the Court Reporter before the
deadline for Release of Transcript
Restriction. After that date it may
be obtained through PACER.
Redaction Request due 6/18/2019.
Redacted Transcript Deadline set
for 6/28/2019. Release of
Transcript Restriction set for
8/26/2019. (TT) (Entered:
05/28/2019)

JA 17
05/28/2019

05/30/2019

133 F I L I N G O F O F F I C I A L
TRANSCRIPT of Telephonic
Hearing held on 11/6/2018, before
Judge Regina S. Edwards. Court
Reporter Terri Turner, Telephone
number 270-415-6417. Transcript
may be viewed at the court public
terminal or purchased through
the Court Reporter before the
deadline for Release of Transcript
Restriction. After that date it may
be obtained through PACER.
Redaction Request due 6/18/2019.
Redacted Transcript Deadline set
for 6/28/2019. Release of
Transcript Restriction set for
8/26/2019. (TT) (Entered:
05/28/2019)
***
135 F I L I N G O F O F F I C I A L
TRANSCRIPT of Telephonic
Status Hearing held on 04/12/18,
before Judge Joseph H. McKinley.
Court Reporter April R. Dowell,
Telephone number 502-625-3779.
Transcript may be viewed at the
court public terminal or
purchased through the Court
Reporter before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction
Request due 6/20/2019. Redacted

JA 18
Transcript Deadline set for
7/1/2019. Release of Transcript
Restriction set for 8/28/2019.
(Dowell, April) (Entered:
05/30/2019)
***

JA 19
RELEVANT DOCKET ENTRIES
United States Court of Appeals
for the Sixth Circuit
No. 19-5516
EMW Women’s Surgical Center, et al. v. Eric
Friedlander, et al.
Date Filed

#

Docket Text

05/15/2019

1

Civil Case Docketed. Notice filed
by Appellant Adam Meier.
Transcript needed: y. (AEG)
[Entered: 05/15/2019 02:26 PM]
***

07/11/2019

17

CORRECTED APPELLANT
BRIEF filed by Mr. Mark Stephen
Pitt for Adam Meier. Certificate of
Service:07/11/2019. Argument
Request: requested. [19-5516]
(MSP) [Entered: 07/11/2019 01:13
PM]
***

09/09/2019

23

APPELLEE BRIEF filed by Ms.
Alexa Kolbi-Molinas for Ashlee
Bergin, EMW Women’s Surgical
Center, P.S.C. and Tanya
Franklin, MD Certificate of
Service:09/09/2019. Argument

JA 20
Request: requested. [19-5516]
(AK) [Entered: 09/09/2019 06:21
PM]
***
10/07/2019

35

REPLY BRIEF filed by Attorney
Mr. Mark Stephen Pitt for
Appellant Adam Meier Certificate
of Service:10/07/2019. [19-5516]
(MSP) [Entered: 10/07/2019 09:32
PM]
***

12/09/2019

37

MOTION filed by Mr. Mark
Stephen Pitt for Adam Meier for
M. Stephen Pitt, S. Chad
Meredith, Matthew F. Kuhn,
Brett R. Nolan to withdraw as
counsel for Adam Meier, in his
official capacity as Secretary of
the Cabinet for Health and
Family Services. Certificate of
Service: 12/09/2019. [19-5516]
(MSP) [Entered: 12/09/2019 09:25
AM]

12/11/2019

38

ORDER filed granting Appellant’s
motion for M. Stephen Pitt, S.
Chad Meredith, Matthew F. Kuhn
and Brett R. Nolan to withdraw
as counsel [37]. Entered by order
of the court. (RB) [Entered:

JA 21
12/11/2019 02:58 PM]
12/16/2019

39

ORAL ARGUMENT
SCHEDULED for 9:00 a.m.
(Eastern Time) on Wednesday,
January 29, 2020. (JRH) [Entered:
12/16/2019 09:55 AM]
***

12/30/2019

41

APPEARANCE filed for Appellant
Adam Meier by Matthew F. Kuhn.
Certificate of Service: 12/30/2019.
[19- 5516] (MFK) [Entered:
12/30/2019 03:41 PM]

12/30/2019

42

Oral argument acknowledgment
filed by Attorney Mr. Matthew
Franklin Kuhn for Appellant
Adam Meier. Certificate of
Service: 12/30/2019. [19-5516]
(MFK) [Entered: 12/30/2019 03:55
PM]
***

01/23/2020

45

APPEARANCE filed for Appellant
Eric Friedlander by Brett R.
Nolan. Certificate of Service:
01/23/2020. [19-5516] (BRN)
[Entered: 01/23/2020 01:47 PM]

JA 22
01/23/2020

46

APPEARANCE filed for Appellant
Eric Friedlander by M. Stephen
Pitt. Certificate of Service:
01/23/2020. [19-5516] (MSP)
[Entered: 01/23/2020 01:51 PM]

01/23/2020

47

APPEARANCE filed for Appellant
Eric Friedlander by S. Chad
Meredith. Certificate of Service:
01/23/2020. [19-5516] (SCM)
[Entered: 01/23/2020 01:57 PM]

01/28/2020

48

APPEARANCE filed for Appellant
Eric Friedlander by Daniel
Cameron. Certificate of Service:
01/28/2020. [19-5516] (DJC)
[Entered: 01/28/2020 11:12 AM]

01/29/2020

49

CAUSE ARGUED by Mr.
Matthew Franklin Kuhn for
Appellant Eric Friedlander and
Mr. Andrew Beck for Appellees
EMW Women’s Surgical Center,
P.S.C., Tanya Franklin, MD and
Ashlee Bergin before Merritt,
Circuit Judge; Clay, Circuit Judge
and Bush, Circuit Judge. (LTK)
[Entered: 01/29/2020 11:57 AM]
***

JA 23
06/02/2020

53

OPINION and JUDGMENT filed:
AFFIRM E D . D e c i s i o n for
publication. Gilbert S. Merritt,
Eric L. Clay (AUTHORING), and
John K. Bush (DISSENTING),
Circuit Judges. (CL) [Entered:
06/02/2020 12:51 PM]

06/11/2020

54

MOTION filed by Mr. Matthew
Franklin Kuhn for Eric
Friedlander for Daniel Cameron,
S. Chad Meredith, Matthew F.
Kuhn, Brett R. Nolan to withdraw
as counsel for Eric Friedlander, in
his official capacity as Acting
Secretary of Kentucky’s Cabinet
for Health and Family Services.
Certificate of Service: 06/11/2020.
[19-5516] (MFK) [Entered:
06/11/2020 11:48 AM]

06/11/2020

55

APPEARANCE filed for Proposed
Intervenor Daniel J. Cameron by
Barry L. Dunn. Certificate of
Service: 06/11/2020. [19-5516]
(BLD) [Entered: 06/11/2020 06:41
PM]

JA 24
06/11/2020

56

MOTION to INTERVENE filed by
Barry L. Dunn for Attorney
General Daniel Cameron, on
Behalf of the Commonwealth of
Kentucky. Certificate of Service:
06/11/2020. [19-5516] (BLD)
[Entered: 06/11/2020 07:28 PM]

06/12/2020

57

NOTIFICATION filed by Ms.
Heather Lynn Gatnarek for
Ashlee Bergin, EMW Women’s
Surgical Center, P.S.C. and Tanya
Franklin, MD regarding intent to
oppose motion to intervene.
Certificate of Service: 06/12/2020.
[19-5516] --[Edited 06/12/2020 by
AEG] (HLG) [Entered: 06/12/2020
01:48 PM]

06/15/2020

58

RESPONSE in opposition filed
regarding a motion to intervene,
[56]; previously. Response from
Attorney Mr. Andrew Beck for
Appellees Ashlee Bergin, EMW
Women’s Surgical Center, P.S.C.
and Tanya Franklin, MD
Certificate of Service:06/15/2020.
[ 1 9 - 5 5 1 6 ] ( A B ) [ En t e r e d :
06/15/2020 08:01 AM]

06/16/2020

59

REPLY filed by Mr. Barry Lee
Dunn for Daniel J. Cameron
regarding Motion to Intervene

JA 25
(Docket 56) Certificate of Service:
06/16/2020. [19-5516] (BLD)
[Entered: 06/16/2020 02:07 PM]
06/16/2020

60

TENDERED petition for
rehearing en banc. Received from
Attorney Mr. Barry Lee Dunn for
Proposed Intervenor Daniel J.
Cameron. (BLH) [Entered:
06/16/2020 04:05 PM]

06/24/2020

61

ORDER filed: DENYING motion
to intervene [56] and
DISMISSING the tendered
petition for rehearing en banc.
Decision not for publication.
Gilbert S. Merritt, Eric L. Clay,
and
John
K.
Bush
(DISSENTING), Circuit Judges.
(CL) [Entered: 06/24/2020 02:40
PM]
***

07/07/2020

63

NOTICE OF DOCKETING
ERROR, ENTRY REMOVED.
Name of Document: PETITION
for en banc rehearing filed by Mr.
Barry Lee Dunn for Daniel J.
Cameron.. Type of Error: not
granted leave to file; not party.
(BLH) [Entered: 07/08/2020 03:24
PM]

JA 26
07/07/2020

64

TENDERED petition for en banc
rehearing. Received from Attorney
Mr. Barry Lee Dunn for Proposed
Intervenor Daniel J. Cameron.
Not party. (BLH) [Entered:
07/08/2020 03:26 PM]

07/16/2020

65

ORDER filed: Upon consideration
of the petition for rehearing en
banc tendered by the Proposed
Intervenor Daniel J. Cameron, It
is ORDERED that the petition is
rejected for filing. Gilbert S.
Merritt, Eric L. Clay, and John K.
Bush, Circuit Judges (BLH)
[Entered: 07/16/2020 08:37 AM]

07/16/2020

66

MANDATE ISSUED with no costs
taxed. (AEG) [Entered: 08/03/2020
09:17 AM]

11/04/2020

67

ORDER filed GRANTING motion
to withdraw as counsel [54] filed
by Mr. Matthew Franklin Kuhn,
Mr. Daniel Cameron, Mr. S. Chad
Meredith and Mr. Brett R. Nolan.
Gilbert S. Merritt, Eric L. Clay,
and John K. Bush, Circuit Judges.
(AEG) [Entered: 11/04/2020 05:43
PM]

11/10/2020

68

U.S. Supreme Court notice filed
regarding a petition for a writ of
certiorari filed by Appellant

JA 27
Daniel Cameron. Supreme Court
Case No:20-601, 10/30/2020. (CL)
[Entered: 11/10/2020 02:54 PM]
***
03/29/2021

70

U.S. Supreme Court letter filed:
The petition for a writ of certiorari
[68] is granted limited to Question
1 presented by the petition.
Supreme Court Case No: 20-601,
03/29/2021. (CL) [Entered:
03/29/2021 03:39 PM]

JA 28
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
KENTUCKY
LOUISVILLE DIVISION
Case No.: 3:18-cv-00224-JHM
[Filed May 21, 2018]
_______________________________________
EMW WOMEN’S SURGICAL CENTER, )
P.S.C., et al.,
)
)
Plaintiffs,
)
v.
)
)
ANDREW G. BESHEAR, et al.,
)
)
Defendants.
)
_______________________________________)
STIPULATION AND ORDER OF
DISMISSAL UPON CONDITIONS OF
ANDREW G. BESHEAR
Plaintiffs EMW Women’s Surgical Center, P.S.C.,
Ashlee Bergin, M.D., M.P.H, and Tanya Franklin,
M.D., M.S.P.H., and Defendant Andrew G. Beshear,
hereby enter into the following stipulations and
agreements concerning the disposition of the
above-captioned matter, which the Court hereby
Orders:
1. Defendant Beshear hereby stipulates to service
of process upon him.

JA 29
2. Pursuant to Fed. R. Civ. P. 41(a)(2) Defendant
Beshear is hereby dismissed without prejudice.
3. Conditions of Dismissal:
a. This Order shall not be considered in any way
to be an admission or concession by Defendant Beshear
that he is a proper party to this action, or has any
power or enforcement authority relating to HB 454
(2018). Defendant Beshear generally reserves all
rights, claims, and defenses that may be available to
him, and specifically reserves all rights, claims, and
defenses relating to whether he is a proper party in
this action and in any appeals arising out of this action.
b. The dismissal of Defendant Beshear without
prejudice is conditioned upon, and subject to the
agreement of, Defendant Beshear and all personnel
employed by or associated with the Office of the
Attorney General of the Commonwealth of Kentucky to
not bring any future enforcement, action of any kind
with respect to Plaintiffs arising from HB 454 (2018) or
the facts alleged in Plaintiffs’ Complaint until this
Court enters a final judgment in the matter disposing
of all of the claims, and the exhaustion of any and all
appeals that may arise in this action.
c. The conditions set forth in paragraph 3(a) are
subject to this Court’s plenary jurisdiction to enforce
the conditions herein.
d. Defendant Beshear, in his official capacity as
Attorney General of the Commonwealth of Kentucky,
agrees that any final judgment in this action
concerning the constitutionality of HB 454 (2018) will
be binding on the Office of the Attorney General,

JA 30
subject to any modification, reversal or vacation of the
judgment on appeal; however, nothing in this Order
prevents the Office of the Attorney General of the
Commonwealth of Kentucky from investigating or
taking action on any other complaint, which does not
arise from or is not related to HB 454 (2018) or the
facts alleged in Plaintiffs’ Complaint.
e. In light of the current procedural posture of
this action and the dismissal without prejudice, neither
Plaintiffs nor Defendant Beshear are “prevailing
parties” under 42 U.S.C. § 1988, and therefore neither
are responsible for attorney’s fees or costs with respect
to each other. This provision is not an adjudication of
any later claim or petition under 42 U.S.C. § 1988
should Defendant Beshear later be determined by this
Court or another court of competent jurisdiction to be
a party.
4. Nothing in this Order shall be deemed to affect
or adjudicate the pending claims against the remaining
Defendants.
IT IS SO ORDERED.
s/ Joseph H. McKinley Jr. [seal]____
Joseph H McKinley, Jr., Chief Judge
United States District Court
May 21, 2018

JA 31
Have seen and agreed:
s/Amy D. Cubbage (with permission)
Amy D. Cubbage, Interim Legal Director
ACLU of Kentucky
401 West Main Street, Suite 1200
Louisville, Kentucky 40202
(502) 583-7400
acubbage@ackersonlegal.com
Heather L. Gatnarek
Legal Fellow
ACLU of Kentucky
315 Guthrie Street, Suite 300
Louisville, KY 40202
(502) 581-9746
heather@aclu-ky.org
Andrew Beck*
Talcott Camp*
Elizabeth Watson*
American Civil Liberties Union Foundation
125 Broad Street, 18th Floor
New York, New York 10004
(212) 549-2633
abeck@aclu.org
tcamp@aclu.org
ewatson@aclu.org
*admitted pro hac vice
Counsel for Plaintiffs

JA 32
s/La Tasha Buckner
La Tasha Buckner
Office of the Attorney General
700 Capitol Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
latasha.buckner@ky.gov
Counsel for Defendant Andrew G. Beshear

JA 33
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO: 3:18-CV-00224-JHM
[Filed: May 10, 2019]
__________________________________________
EMW WOMEN’S SURGICAL CENTER,
)
P.S.C., et al.
)
)
PLAINTIFFS
)
)
V.
)
)
ADAM W. MEIER et al.
)
)
DEFENDANTS
)
__________________________________________)
MEMORANDUM OPINION INCORPORATING FINDINGS
OF FACT AND CONCLUSIONS OF LAW
This matter came before the court for a bench trial
that commended on November 13, 2018 and concluded
on November 19, 2018. The court has reviewed the
parties’ post-trial briefs and the evidence at trial, and
its findings of facts and conclusions of law are set forth
below.

JA 34
I.

BACKGROUND

A. Procedural History
Plaintiffs, a Kentucky abortion facility and its two
board-certified obstetrician-gynecologists (“OB-GYN”)
Drs. Ashlee Bergin and Tanya Franklin, challenge
the constitutionality of a recently enacted Kentucky
abortion law. The law at issue regulates secondtrimester abortion procedures and is included in House
Bill 454 (“H.B. 454” or “the Act”). Plaintiffs allege that
the Act’s requirement that Kentucky physicians
perform a fetal-demise procedure prior to performing
the evacuation phase of a standard Dilation and
Evacuation (“D&E”) abortion—the principal secondtrimester abortion method nationally—is a substantial
obstacle to a woman’s right to choose a lawful previability second-trimester abortion. As such, Plaintiffs
argue H.B. 454 is unconstitutional. More specifically,
the individual Plaintiffs assert that, if the Act goes into
effect, they will stop performing standard D&E
abortions altogether due to ethical and legal concerns
regarding compliance with the law, thereby rendering
abortions unavailable in the Commonwealth of
Kentucky starting at 15.0 weeks from the date of a
woman’s last menstrual period (“LMP”).1
Defendants respond that the Act has neither
the purpose nor the effect of placing an undue burden
on a woman seeking a second-trimester abortion.
Rather, the Defendants contend that H.B. 454
appropriately advances the Commonwealth’s interests
1

Unless otherwise indicated, all references to weeks of pregnancy
are LMP.

JA 35
while leaving open alternative means of obtaining an
abortion—specifically, by receiving an additional
medical procedure to cause fetal-demise prior to the
evacuation phase of a standard D&E. The proposed
alternative methods for physicians to induce
fetal-demise are threefold: (1) digoxin injection;
(2) potassium chloride injection; and (3) umbilical cord
transection. The Commonwealth maintains that these
procedures are safe, available, and reliable methods
for causing fetal-demise. Thus, the Commonwealth
claims that H.B. 454 does not operate as an undue
burden on a woman’s right to a second-trimester
pre-viability abortion and is thus a constitutional
abortion regulation.
On the day the Act was signed, Plaintiffs filed this
lawsuit challenging it as a violation of Plaintiffs’
patients’ Fourteenth Amendment rights to privacy and
bodily integrity. [DN 1 ¶¶ 46–49]. Thereafter, Plaintiffs
filed a Motion for a Temporary Restraining Order and
Preliminary Injunction and the Court convened a
telephonic hearing on the Motion. [DN 6]. During the
telephonic hearing, the parties agreed to the entry of a
consent order suspending enforcement of the Act until
the Court ruled on Plaintiffs’ motion for preliminary
injunctive relief. [DN 24]. The Court later issued an
order requiring the parties to continue abiding by the
terms of the consent order until the trial on the merits.
[DN 56].
B. The Act
H.B. 454 states in relevant part:

JA 36
No person shall intentionally perform or . . .
attempt to perform . . . an abortion on a
pregnant woman that will result in the bodily
dismemberment, crushing, or human vivisection
of the unborn child when the probable postfertilization age of the unborn child is eleven
(11) weeks or greater, except in the case of a
medical emergency.
Act, § 1(2)(a)-(b). “Bodily dismemberment, crushing, or
human vivisection” is further defined by H.B.454 as
any
procedure in which a person, with the purpose of
causing the death of an unborn child,
dismembers the living unborn child and extracts
portions, pieces, or limbs of the unborn child
from the uterus through the use of clamps,
grasping forceps, tongs, scissors, or a similar
instrument that . . . slices, crushes, or grasps . . .
any portion, piece, or limb of the unborn child’s
body to cut or separate the portion, piece, or
limb from the body.
Id. § 2(18). A “medical emergency” exception is
provided for under this framework. Such an emergency
is defined as a condition that “so complicates the
medical condition of a pregnant female as to
necessitate the immediate abortion of her pregnancy to
avert her death or for which a delay will create serious
risk of substantial and irreversible impairment of a
major bodily function[.]” K.R.S. § 311.720(9); see Act
§ 1(1)(b). A physician found to be in violation of the Act
commits a Class D felony, subjecting him or her
to punishment of up to five years’ imprisonment,

JA 37
KRS § 532.060(2)(d), and can also expose clinics and
physicians to adverse licensing and disciplinary action.
See KRS § 311.565; KRS § 311.606.
The parties do not dispute that after approximately
15 weeks of pregnancy and before a fetus is viable, the
most common second-trimester abortion procedure
nationwide is a standard D&E without first inducing
fetal-demise. It is also undisputed that the Act
prohibits the standard D&E abortion unless fetaldemise occurs before any fetal tissue is removed from
the woman.
II.

DISCUSSION

Plaintiffs seek a permanent injunction of H.B. 454.
In determining whether a permanent injunction should
issue, four considerations are relevant: (1) whether
plaintiff showed actual success on the merits;
(2) whether the movant will suffer irreparable injury
unless the injunction issues; (3) whether issuance of
the injunction would cause substantial harm to others;
and (4) whether the public interest would be served by
issuance of the injunction. Jolivette v. Husted, 694 F.3d
760, 765 (6th Cir. 2012) (outlining the permanent
injunction factors). The plaintiff bears the burden of
persuasion as to each of these four showings. The court
will address each showing but first addresses a
justiciability question raised by the Commonwealth.
A. Standing
As a preliminary matter, the Commonwealth
asserts that EMW lacks standing to challenge the
constitutionality of H.B. 454. Ordinarily, a party
cannot claim standing to vindicate constitutional rights

JA 38
of some third party, in this case the patients of EMW.
Singleton v. Wulff, 428 U.S. 106, 114 (1976). However,
this general rule has exceptions. Without engaging in
a lengthy analysis about the relationship between
EMW and its patients, it is enough to state that it is
well-established that it is “appropriate to allow a
physician to assert the rights of women patients as
against governmental interference with the abortion
decision . . . .” Id. at 118; see also Planned Parenthood
Ass’n of Cincinnati, Inc. v. City of Cincinnati, 822 F.2d
1390, 1396 (6th Cir. 1987) (holding that Planned
Parenthood and its Medical Director had standing to
assert the third-party rights of their patients because
the patients’ rights are “inextricably bound up with the
activity the . . . clinic desires to pursue and seemingly
would not be asserted as effectively by the third parties
who actually possess those rights”) (internal quotation
marks omitted); Northland Family Planning Clinic,
Inc. v. Cox, 487 F.3d 323, 328 (6th Cir. 2007)
(adjudicating physicians’ and clinics’ claims on behalf
of their abortion patients); Women’s Med. Prof. Corp. v.
Voinovich, 130 F. 3d 187, 191–92 n.3 (6th Cir. 1997)
(same).
B. Permanent Injunction – Success on the
Merits
To be entitled to permanent injunctive relief,
Plaintiffs must first show they succeeded on the merits
of their constitutional challenge to the Act.

JA 39
1. Legal Framework
a. The Undue Burden Test
In the nearly half century since Roe v. Wade
recognized the Fourteenth Amendment right to decide
whether or not to terminate a pregnancy, the Supreme
Court has addressed abortion regulations on several
occasions. This court’s decision is controlled by the
precepts articulated in those opinions. Specifically,
three basic principles arising from Planned Parenthood
of Southeastern Pa. v. Casey guide this court. 505 U.S.
833 (1992). In that case, the Supreme Court affirmed
the essential holding of Roe. Id. at 846.
First is a recognition of the right of the woman
to choose to have an abortion before viability and
to obtain it without undue interference from the
State. Before viability, the State’s interests are
not strong enough to support a prohibition of
abortion or the imposition of a substantial
obstacle to the woman’s effective right to elect
the procedure. Second is a confirmation of the
State’s power to restrict abortions after fetal
viability, if the law contains exceptions for
pregnancies which endanger the woman’s life or
health. And third is the principle that the State
has legitimate interests from the outset of the
pregnancy in protecting the health of the woman
and the life of the fetus that may become a child.
Id. In this case the Court turns its focus to the first and
third principles.

JA 40
According to this framework, before viability, a
state may not forbid elective abortion entirely. See
Gonzales v. Carhart, 550 U.S. 124, 146 (2007) (quoting
Casey, 505 U.S. at 879); see also Stenberg v. Carhart,
530 U.S. 914, 921 (2000). Further, a state “may not
impose upon this right an undue burden, which exists
if a regulation’s ‘purpose or effect is to place a
substantial obstacle in the path of a woman seeking an
abortion before the fetus attains viability.’” Gonzales,
550 U.S. at 146 (quoting Casey, 505 U.S. at 878). But a
state is not left with no power to regulate. Rather,
“[r]egulations which do no more than create a
structural mechanism by which the State . . . may
express profound respect for the life of the unborn are
permitted, if they are not a substantial obstacle to the
woman’s exercise of the right to choose.” Id. (quoting
Casey, 505 U.S. at 877) (internal quotation marks
omitted).
In 2016 the Supreme Court elaborated on
pre-viability regulations. See Whole Woman’s Health v.
Hellerstedt, 136 S. Ct. 2292 (2016). The Court
reiterated that “a statute which, while furthering [a]
valid state interest, has the effect of placing a
substantial obstacle in the path of a woman’s choice
cannot be considered a permissible means of serving its
legitimate ends.” Id. at 2309 (quoting Casey, 505 U.S.
877) (internal quotation marks omitted). Specifically,
Casey “requires that courts consider the burdens a law
imposes on abortion access together with the benefits
those laws confer.” Id. The determination of whether a
state regulation is a substantial obstacle—and
therefore an undue burden—must be assessed in
relation to the benefits that the regulation provides. Id.

JA 41
Where a regulation’s burdens exceed its benefits, the
regulation constitutes a substantial obstacle to a
woman’s choice and cannot withstand constitutional
challenge. Id.
b. Second-Trimester Abortion Jurisprudence
Plaintiffs rely heavily on two Supreme Court cases
in which the Court reviewed laws intended to ban
Dilation and Extraction (“D&X”) abortions, otherwise
known as partial-birth abortions. See Stenberg v.
Carhart, 530 U.S. 914 (2000); Gonzales v. Carhart, 550
U.S. 124 (2007). Both cases are instructive. Nebraska’s
statute in Stenberg was found to be unconstitutional
because the language of the law was such that it
prohibited not only D&X abortions, but also could be
read to ban the standard D&E abortion. See Stenberg,
530 U.S. at 930 (“[I]t ‘imposes an undue burden on a
woman’s ability’ to choose a D&E abortion, thereby
unduly burdening the right to choose abortion itself.”)
(quoting Planned Parenthood of Southeastern Pa. v.
Casey, 505 U.S. 833, 874 (1992)). In striking down the
Nebraska law, the Court elaborated that using the
challenged law,
some present prosecutors and future Attorneys
General may choose to pursue physicians who
use [the standard] D&E procedures, the most
commonly used method for performing
previability second trimester abortions. All those
who perform abortion procedures using that
method must fear prosecution, conviction, and
imprisonment. The result is an undue burden
upon a woman’s right to make an abortion
decision.

JA 42
Id. at 945–46. Seven years later, the Supreme Court
upheld a federal statute specifically aimed at D&X
abortion procedures because the more narrowly-written
law “allows, among other means, a commonly used and
generally accepted method, so it does not construct a
substantial obstacle to the abortion right.” Gonzales,
550 U.S. at 165. The “other means” and “generally
accepted method” the Supreme Court refers to is the
standard D&E procedure without fetal-demise.
At least ten states other than Kentucky have
enacted fetal-demise laws similar to the H.B. 454. In
many of those states, similar challenges to that here
have been raised.2 In Alabama, the Eleventh Circuit
upheld a permanent injunction granted by the district
court enjoining Alabama from enforcing a similar
fetal-demise law. See West Ala. Women’s Ctr. v. Miller,
299 F. Supp. 3d 1244 (M.D. Ala. 2017), aff’d, West Ala.
Women’s Ctr. v. Williamson, 900 F.3d 1310 (11th Cir.
2018). The district court concluded that the law at
issue imposed an undue burden on women seeking
pre-viability D&E abortions and was thus
unconstitutional. Id.
In Arkansas, a federal district court issued a
preliminary injunction to enjoin a similar fetal-demise
law. The court found that if the law were to go into
effect, the fraction of women for whom the law is
relevant would immediately lose the right to obtain a

2

There have been no legal challenges raised to the fetal-demise
laws in Mississippi and West Virginia. The North Dakota clinic’s
lawyers are waiting for a decision from the Eighth Circuit on the
challenge to similar legislation in Arkansas.

JA 43
pre-viability abortion anywhere in the state after 14
weeks. Hopkins v. Jegley, 267 F. Supp. 3d 1024 (E.D.
Ark. 2017). Arkansas appealed the district court’s
grant of the preliminary injunction to the Eighth
Circuit which heard oral arguments on December 13,
2018.
The Kansas Court of Appeals affirmed a district
court’s grant of a temporary injunction that enjoined
fetal-demise legislation like that at issue here. Hodes
& Nauser MDs, P.A. v. Schmidt, 368 P.3d 667 (Kan. Ct.
App. 2016) (en banc). The Court of Appeals concluded
that, “[g]iven the additional risk, inconvenience,
discomfort, and potential pain associated with these
[fetal-demise] alternatives, some of which are virtually
untested, . . . banning the standard D&E, a safe
method used in about 95% of second-trimester
abortions, is an undue burden on the right to abortion.”
Id. at 678.
In Ohio, a federal district court issued a temporary
restraining order, pending an evidentiary hearing on
the motion for a preliminary injunction, as to
fetal-demise legislation. Planned Parenthood S.W. Ohio
Region v. Yost, No. 1:19-CV-00118 (S.D. Ohio March 26,
2019) (DN 34). In issuing that order, the court stated
that the “weight of legal authority favors” the
plaintiffs. Id. at 8. That court held an evidentiary
hearing as to the preliminary injunction beginning
April 10, 2019. On April 18, 2019, the federal district
court granted in part a motion for preliminary
injunction finding that the plaintiffs were likely to
succeed on the merits. Planned Parenthood S.W. Ohio
Region v. Yost, 2019 WL 1758488, at *16 (S.D. Ohio

JA 44
Apr. 18, 2019). The court concluded that the
fetal-demise legislation burdened a large fraction of
women seeking pre-viability, second trimester
abortions and was likely unconstitutional as written.
Id.
In Louisiana, a similar suit has been filed over
House Bill 1081 and other abortion regulations passed
by the Louisiana legislature. June Med. Servs. LLC v.
Gee, No. 3:16-CV-0444 (M.D. La. July 1, 2016).
An Oklahoma state district court enjoined
enforcement of fetal-demise legislation in 2015. Nova
Health Sys. v. Pruitt, No. CV-2015-1838 (Okla. Cty.
Dist. Ct. Oct. 28, 2015). The court considered the
Supreme Court’s precedents in Stenberg and Gonzales
and stated that those opinions weighed the state’s
asserted interests but still found the previous ban on
D&E abortions to be unconstitutional. Id. slip op. at
7–8. The court ruled that the state’s asserted interests
were legitimate but likely did not justify the law’s
burden on a woman’s right to terminate a pre-viability
pregnancy. Id. slip op. at 8. Accordingly, the court
granted a temporary injunction preventing the law
from taking effect. Id. slip op. at 12.
Finally, in Texas, a federal district court held a
bench trial and issued a permanent injunction
foreclosing enforcement of a law that imposed civil and
criminal penalties on physicians who performed
standard D&E abortions without first ensuring
fetal-demise. Whole Woman’s Health v. Paxton, 280 F.
Supp. 3d 938 (W.D. Tex. 2017). That court assumed,
without finding, that the interests asserted by
Texas were legitimate but also that “requiring a

JA 45
woman to undergo an unwanted, risky, invasive, and
experimental procedure in exchange for exercising her
right to choose an abortion” constituted a substantial
burden. Id. at 953. Consequently, the court concluded
the law was facially unconstitutional and declared it
void. Id. at 954. The State appealed that decision to the
Fifth Circuit which heard oral arguments on November
5, 2018. On March 13, 2019, the Fifth Circuit panel
issued a stay, explaining that the court would not
resolve the appeal until the Supreme Court disposes of
a Louisiana abortion case concerning admitting
privileges before it on writ of certiorari. Whole Woman’s
Health v. Paxton, No. 17-51060 (5th Cir. 2019) (Doc.
No. 00514871170).
In Paxton, the court aptly summarized a district
court’s role when faced with such a decision: “Once the
Supreme Court has defined the boundaries of a
constitutional right, a district court may not redefine
those boundaries. Further the role of the district court
is to preserve a right, not to search for a way to evade
or lessen the right.” Paxton, 280 F. Supp. 3d at 945. As
such, the Stenberg and Gonzales decisions control, and
the evolving fetal-demise litigation in the lower courts
inform this constitutional challenge. Just as the law at
issue in Paxton, H.B. 454 “has the undisputed effect of
banning the standard D&E procedure when performed
before fetal demise,” because of the extensive burdens
that accompany the law. Id. The Supreme Court’s
determination that “laws with the effect of banning the
standard D&E procedure result in an undue burden
upon a woman’s right to have an abortion and are
therefore unconstitutional” is binding. Id.

JA 46
2. The Interests of the Commonwealth of
Kentucky
One requirement that Casey and its progeny
establish for pre-viability regulations is that a state
regulation of the abortion procedure must be
substantiated by a legitimate or valid purpose. The
Commonwealth argues that H.B. 454 protects the
ethics, integrity, and reputation of the medical
community and expresses respect for the dignity of
human life—interests, it notes, advanced by the federal
law upheld in Gonzales. [DN 119 at 4]. Plaintiffs do not
dispute the legitimacy of those interests. [DN 118 at 30
n.32].
Indeed, the Supreme Court said in no uncertain
terms that “the government ‘has an interest in
protecting the integrity and ethics of the medical
profession.’” Gonzales v. Carhart, 550 U.S. 124, 157
(2007) (quoting Washington v. Glucksberg, 521 U.S.
702, 731 (1997)). The Court also reaffirmed that “the
State, from the inception of the pregnancy, maintains
its own regulatory interest in protecting the life of the
fetus that may become a child[.]” Id. at 158.
But the fact that the Act furthers legitimate state
interests does not end this constitutional inquiry. Even
though the act may further a legitimate state interest,
a pre-viability abortion restriction must still survive
the undue burden test. See Whole Woman’s Health v.
Hellerstedt, 136 S. Ct. 2292, 2309 (“[A] statute which,
while furthering [the interest in potential life or some
other] valid interest, has the effect of placing a
substantial obstacle in the path of a woman’s choice
cannot be considered a permissible means of serving its

JA 47
legitimate ends.”) (citing Planned Parenthood of
Southeastern Pa. v. Casey, 505 U.S. 833, 877 (1992));
W. Ala. Women’s Ctr. v. Williamson, 900 F.3d 1310,
1320–21 (11th Cir. 2018). The court now considers the
burden imposed on women.
3. Burden on Women
Plaintiffs outline in detail all of the burdens
attendant to the proposed fetal-demise procedures. As
a summation of all the problems with the proposed
fetal-demise procedures, Plaintiffs offered the
testimony of Dr. Franklin, one of the named Plaintiffs.
Dr. Franklin explained that because of the burdens the
Act would impose, both ethically and legally, she and
her colleague Dr. Bergin will stop performing standard
D&E abortions if the Act goes into effect. Such a
decision by these doctors would render abortions
unavailable within the state of Kentucky to women
who are 15 weeks pregnant.
The Commonwealth, in contrast, says the Act does
not impose the burdens articulated by Plaintiffs
because there are three methods by which abortion
providers can safely and reliably cause fetal-demise
before performing a D&E procedure: (1) digoxin
injection; (2) potassium chloride injection; and
(3) umbilical cord transection. It is necessary to discuss
each of the Commonwealth’s proposed methods of
fetal-demise to explain why each is an unusable
workaround.
a. Digoxin Injections
The Commonwealth’s first proposed method is the
use of digoxin injections—the least technically

JA 48
challenging but also the least reliable. To inject
digoxin, physicians begin by using an ultrasound
machine to visualize the woman’s uterus and the fetus.
The physician then inserts a long surgical needle
through the patient’s skin, abdomen, and uterine
muscle, to inject digoxin into the fetus. Although such
injections are not terribly difficult to perform, as it can
also be administered into the amniotic fluid, it is still
not a feasible option for fetal-demise for several
reasons.
First, and most importantly, digoxin injections are
not reliable for inducing fetal-demise. When injected
into the fetus or amniotic fluid, digoxin has a failure
rate ranging between 5% and 20%. Tr. Vol. I 62:5–13
[DN 106]; Tr. Vol. II 53:6–54:18 [DN 107]; Tr. Vol. IV
41:10–13 [DN 103]. If the first dose of digoxin fails to
cause fetal-demise, the Act would require an abortion
provider to either inject a second dose or try an
alternative method of fetal-demise. There is no medical
literature on the proper dosage for a second digoxin
injection or the potential risks associated with another
injection. Tr. Vol. I. 66:16–67:2 [DN 106]; Tr. Vol. II
56:8–21 [DN 107]; Tr. Vol. III-B 102:5–19 [DN 102]. As
such, successive digoxin injections would subject a
patient seeking a D&E to an experimental medical
procedure. Tr. Vol. I 67:3–9 [DN 106].
Second, a variety of factors affect whether a
provider is actually able to inject digoxin into the fetus
or amniotic fluid—placental positioning, fetal
positioning, obesity, and the presence of uterine
fibroids or cesarean-section scars can make such
injections more difficult, if not impossible, to

JA 49
administer. Tr. Vol. I 58:21–59:13 [DN 106]; Tr. Vol. II
39:1–19 [DN 107]; Tr. Vol. III-B 103:12–15, 104:3–13
[DN 102]; Tr. Vol. IV 99:17–24 [DN 103]. Further,
digoxin cannot be administered to women with known
contraindications. Tr. Vol. I 59:24–61:22 [DN 106].
Third, digoxin injections are essentially
experimental for women before 18 weeks of pregnancy,
and about 50% of second-trimester abortions in
Kentucky are performed before 18 weeks of pregnancy.
See PX 128 (summarizing data of EMW’s
second-trimester abortion procedures); Tr. Vol. II
56:22–24 [DN 107]. The vast majority of studies on
digoxin injections focus on pregnancies at or after 18
weeks. Only a few studies include cases of women at 17
weeks of pregnancy and no study has been done on the
efficacy, dosage, or safety of digoxin injections before 17
weeks of pregnancy. Tr. Vol. I 67:25–68:9 [DN 106]; Tr.
Vol. IV 114:23–115:3 [DN 103]. Consequently,
requiring digoxin use before 18 weeks would force
patients to undergo an experimental and potentially
harmful medical procedure without any associated
benefits.
Fourth, digoxin injections subject patients to
increased health risks. The parties’ experts agreed that
digoxin injections are associated with heightened risks
of infection, extra mural delivery, vomiting, and
hospitalization, compared to standard D&E alone. The
best studies submitted to the judicial record support
this conclusion about the relative safety of digoxin
injections. The court finds that even when
administered successfully after 18 weeks, digoxin

JA 50
injections carry the abovementioned significant, added
health risks to the standard D&E procedure.
Finally, additional logistical and emotional burdens
are associated with a digoxin injection. Digoxin works
slowly—sometimes taking up to 24-hours if effective—
requiring physicians to administer the injection the day
before the scheduled D&E. As such, mandating a
digoxin injection prolongs the length of a D&E abortion
from one day to two, requiring a woman to pay
additional costs—child care, transportation, overnight
travel, and others—to have the procedure. This burden,
of having to make multiple trips for the procedure, is
especially pronounced for low-income women. Although
Plaintiffs do not keep financial records for D&E
abortion patients, the court heard testimony about the
poverty levels in Kentucky, Tr. Vol. III-A 27:13–29:16
[DN 108], and the poverty rates among abortion
patients nationally. Id. 33:20–35:3. The court is willing
to draw the conclusion that many of the women
receiving abortions at EMW are low-income and will
suffer adverse economic consequences if the D&E
procedure is prolonged to two days. Id. 35:12–25.
Additionally, there are emotional burdens associated
with digoxin injections. Any needle procedure,
particularly one with a large needle and no correlative
medical benefit, will cause emotional distress for some
patients. Tr. Vol. I 120:16–121:4 [DN 106].
Because of the unreliability of the procedure,
unknown risks associated with second doses, unknown
risks for women before 18 weeks of pregnancy, additive
risk of complications, increased travel burden, and the
pain and invasiveness of the procedure, the court finds

JA 51
that a digoxin injection is not a feasible method of
inducing fetal-demise before performing the evacuation
phase of a D&E abortion. The court concludes that in
all instances the procedure would create a substantial
obstacle to a woman’s right to an abortion.
b. Potassium Chloride Injections
The Commonwealth’s second proposed fetal-demise
method is the intra-fetal or intra-cardiac injection of
potassium chloride. Like digoxin injections, physicians
administering potassium chloride injections begin by
using an ultrasound machine to visualize the patient’s
uterus and fetus. The physician then inserts a long
surgical needle through the woman’s skin, abdomen,
and uterine muscle, and then into either the fetus or,
more specifically, the fetal heart. When the injection is
administered directly to the fetal heart, fetal-demise is
achieved almost immediately. However, based on the
evidence, the court finds that potassium chloride
injections are not a feasible method of causing
fetal-demise before standard D&E procedures for
several reasons.
First, and most importantly, injecting potassium
chloride requires great technical skill and is an
extremely challenging procedure to perform. Tr. Vol. I
228:18–231:12 [DN 106]. A provider’s goal is to inject
the substance directly into the fetal heart, which at
approximately 15–16 weeks is about the size of a dime.
Even around 20–22 weeks, the fetal heart remains very
small, about the size of a quarter. Id. at 212:6–12; see
also id. at 88:1–3; Tr. Vol. IV 23:13–18, 317:17–20 [DN
103]. It is undisputed that Plaintiffs have not been
trained to perform this procedure. Tr. Vol. II 39:20–25

JA 52
[DN 107]; Bergin Depo., 120:1–12, 121:4–13 [PX 420].
Intra-fetal and intra-cardiac potassium chloride
injections are not taught in OB-GYN residencies or in
family-planning fellowships, such as the ones Plaintiffs
completed. Tr. Vol. I 88:4–13 [DN 106]; Tr. Vol. II
39:20–40:12, 40:2–22 [DN 107]; Tr. Vol. III-B 111:7–9
[DN 102]; Tr. Vol. IV 107:5–7, 314:18–315:17 [DN 103].
In fact, these injections are generally only taught in
subspecialist fellowship programs, such as
maternal-fetal medicine (“MFM”) and reproductive
endocrinology and infertility fellowships. Tr. Vol. I
88:14–89:5, 226:24–227:17 [DN 106]; Tr. Vol. II 40:1–12
[DN 107]; Tr. Vol. IV 259:21–260:12 [DN103]. These
fellows go through several years of highly supervised
and specialized training. The injection is typically used
by such subspecialists for selective reduction of
pregnancies in women with multiple gestations. Tr.
Vol. I 88:24–89:5 [DN 106].
It would be impossible for Plaintiffs to receive this
specialized training within Kentucky because no
hospital in the Commonwealth offers this type of
training. Tr. Vol. II 110:19–111:4 [DN 107]. Even if this
subspecialist training were available in Kentucky, the
Plaintiff’s expert, Dr. Lynn Simpson, credibly testified
that it could take years to see enough patients and
perform enough supervised injections to be competent
to perform the procedure. Tr. Vol. I 244:25–245:22 [DN
106]; Tr. Vol. IV 315:18–316:17 [DN103]. Based on the
length of time it would take to learn the procedure
and the lack of training available within the
Commonwealth, the court finds that Plaintiffs have no
practical way to learn how to perform this procedure
safely.

JA 53
Second, as with digoxin, potassium chloride
injections are not a feasible method because they
cannot be completed on every woman seeking a
standard D&E. Obesity, fetal and uterine position,
cesarean-section scar tissue, and uterine fibroids may
complicate or even prevent completely the
administration of the injections in many women. Tr.
Vol. I 94:7–12, 222:6–223:15 [DN 106]; Tr. Vol. IV
317:21–319:9 [DN 103]. Further, as conceded by the
Commonwealth’s expert, a correctly-administered
potassium chloride injection cannot be relied upon to
cause fetal-demise in every single case. Tr. Vol. IV
96:4–11 [DN 103].
Finally, again, like digoxin, potassium chloride
injections carry serious health risks to the woman.
Such injections increase the risk of uterine or other
internal organ perforation as well as the risk of
infection. Tr. Vol. I 94:13–95:1, 232:20–234:10 [DN
106]; see e.g., Tr. Vol. III-B 114:21–116:3 [DN 102]. An
additional risk associated with this procedure is the
potential harmful effect on the woman’s heart—
because potassium chloride has harmful effects on the
heart, inadvertently injecting it into the woman’s
circulation can cause cardiac arrest, though there is
only a single documented case. See e.g., Tr. Vol. I
95:2–16 (discussing PX 19) [DN 106]. These risks
would only be exacerbated by untrained physicians
performing the potassium chloride procedure.
As with digoxin injection, potassium chloride
injection is an unnecessary and potentially harmful
medical procedure with no counterbalancing medical
benefit for the woman. This procedure is technically

JA 54
very challenging and carries with it serious health
risks for the woman. Additionally, there is no practical
way for Plaintiffs to receive adequate training so that
they may perform these injections competently. This
being the case, the court finds potassium chloride
injection to be an unworkable method for physicians
attempting to induce fetal-demise before performing
the evacuation phase of a standard D&E abortion in
Kentucky. To the extent such an injection could or
would be used, the court finds that, like a digoxin
injection, the procedure would create a substantial
obstacle to a woman’s right to an abortion based on the
significant health risks associated therewith.
c. Umbilical Cord Transection
The Commonwealth’s final proposed method of
fetal-demise is umbilical cord transection. To perform
this procedure, the provider dilates the woman’s cervix
enough to allow the passage of instruments to transect
the cord. Once the cervix is dilated, the physician uses
an ultrasound for guidance and punctures the amniotic
membrane, causing the amniotic fluid to drain from the
uterus. Then, the physician inserts an instrument into
the uterus, locates, and grasps the cord and, with
another instrument, cuts the cord. Tr. Vol. I
105:2–108:9 [DN 106]; Tr. Vol. II 46:14–47:10 [DN 107].
At this stage in the second-trimester, the umbilical
cord is about the width of a piece of yarn. Tr. Vol. I
105:20–24 [DN 106]. The physician then waits for the
fetal heartbeat to stop, which generally occurs within
10 minutes. The physician then may perform the
evacuation phase of the standard D&E. Several factors

JA 55
render this procedure an unworkable method for
inducing fetal-demise.
First, several aspects of the procedure make cord
transection a technically difficult procedure—lack of
visualization following the rupture of the amniotic sac,
the shrinking size of the uterus, and the small size of
the umbilical cord. As to the lack of visualization,
before the amniotic sac is punctured, the physician can
easily visualize the fetus and umbilical cord due to the
contrast on the ultrasound between those components
and the amniotic fluid. However, once a physician
ruptures the amniotic sac and the fluid begins to drain,
they can no longer rely on an ultrasound image to
visualize the different components of the fetus and
guide the instruments to the cord—the provider
essentially performs the transection blind. Tr. Vol. I
106:8–14 [DN 106]; Tr. Vol. II 47:4–7, 50:14–25 [DN
107]. Also, because of the rupturing of the amniotic sac,
the uterus begins to contract bringing the fetus and the
umbilical cord together, no longer separated by the
buoyant amniotic fluid. Thus, the physician must
identify, reach, and cut the cord with a surgical
instrument without visualization or space between
different types of tissue. This poses another hurdle for
the provider because if they cut fetal tissue instead of,
or in addition to the cord, they have arguably violated
the Act. Tr. Vol. 1 106:24–107:6 [DN 106]; Tr. Vol. II
47:23–48:9 [DN 107]. Finally, the blind procedure and
close nature of all the uterine materials make locating
the umbilical cord, roughly the width of a piece of yard,
technically very difficult. Tr. Vol. I 105:20–24 [DN 106].

JA 56
Second, cord transection is not a feasible method for
fetal-demise because it is essentially an experimental
procedure that carries no medical benefits to the
patient. The Commonwealth claims that cord
transection is a viable, safe option to cause fetal-demise
based on a single study—a retrospective case series
without any control group. Tr. Vol. I 109:22–112:7 [DN
106]. In addition to providing a low level of evidence,
the study only looked at umbilical cord transections
performed by two providers at a single location. Tr. Vol.
III-B 118:10–119:11 [DN 102]. The study does not
provide the type or quality of evidence that warrants
reaching generalized conclusions about the feasibility
or reliability of umbilical cord transection, particularly
in light of the serious risks that are outlined below. Id.
at 119:12–16.
Umbilical cord transection carries serious health
risks, including blood loss, infection, and uterine
injury. A physician may have to make multiple passes
into the uterus while attempting to locate the umbilical
cord. In doing so, each pass increases the risk of
infection and uterine damage. Tr. Vol I 107:7–108:2
[DN 106]; Tr. Vol. II 51:7–10 [DN 107]. As performing
cord transection involves blindly searching for the
umbilical cord, the risk of these complications would be
in addition to the risks inherent to the standard D&E
alone. Additionally, while locating and transecting the
cord, then waiting for the fetal heart to stop, the uterus
will be contracting and the placenta will begin to
separate and bleeding will occur. Tr. Vol. I 107:15–21
[DN 106]; Tr. Vol. II 47:1–22, 51:4–7 [DN 107].

JA 57
For the reasons set out above, the court finds that
umbilical cord transection as a method of fetal-demise
prior to the evacuation phase of a standard D&E would
impose a substantial obstacle to a woman’s right to
pre-viability abortion.
4. Balancing of Benefits and Burdens –
Application of the Undue Burden Test
As stated above, to determine whether a law
regulating abortion constitutes an undue burden on the
right to terminate a pregnancy pre-viability, the court
must balance the state’s interests underlying a law
against the obstacles imposed by the law to women’s
access to abortion. Where a regulation’s burdens exceed
its benefits, the regulation constitutes a substantial
obstacle to a woman’s choice—such a regulation cannot
withstand constitutional challenge. See Whole Woman’s
Health v. Hellerstedt, 136 S. Ct. 2292, 2309 (2016).
Having just outlined the burdens associated with
the Act, it is necessary to further discuss one of the
Commonwealth’s asserted interests and correlative
benefit. The Commonwealth asserts that its interest in
fetal dignity is bolstered because, according to its
expert witness, the fetuses subjected to standard D&E
abortions can feel pain.
The court heard testimony from competing experts,
Dr. Colleen Malloy for the Commonwealth and Dr.
Steven Ralston for the Plaintiffs. Dr. Malloy is
employed as a neonatologist at Northwestern
University. Importantly, Dr. Malloy has never
performed a procedure on a pregnant woman or a fetus.
Tr. Vol. IV 201:6–14 [DN 103]. Dr. Malloy testified that

JA 58
a fetus can certainly feel pain by 22 weeks and possibly
as early as 15 weeks. Id. at 150:16–19, 159:13–22. Dr.
Malloy described the onset of fetal pain as a dimmer
switch turning on gradually over the course of the
fetus’s development. Id. at 150:23–151:21. In other
words, she explained, though developing neural
elements necessary for pain perception may be
immature, they are not inactive. Dr. Malloy testified
that two organizations share her opinion with respect
to fetal pain—the American Academy of Pro-Life
Obstetricians and Gynecologists and the Christian
Medical and Dental Association. Id. 159:23–160:4.
Dr. Ralston, a well-credentialed MFM who chairs
the OB-GYN Department at the University of
Pennsylvania, testified that the overwhelming medical
consensus is contrary to that of Dr. Malloy—that fetal
pain perception is impossible before 24 weeks. Id. at
270:11–285:9. Dr. Ralston expressly testified that Dr.
Malloy’s opinion “is a minority outlier opinion.” Id. at
274:13–22. In support of this conclusion, Dr. Ralston
cited several organizations that share his opinion,
including the Royal College of Obstetricians and
Gynecologists and the American College of
Obstetricians and Gynecologists, two reputable medical
organizations. Id. at 310:4–311:118. Dr. Ralston
explained that this consensus is based on the
understanding in the scientific community that fetal
pain perception requires consciousness, which in turn
requires two elements absent in a fetus before 24
weeks: intact connections from the periphery to the
thalamus and then to the cortex, and a sufficiently
developed cerebral cortex. Id. at 270:11–285:12,
310:4–312:9, 340:5–15. Dr. Ralston testified that the

JA 59
existence of a developed cortex and intact
neurocircuitry—the above listed connections—are
necessary for any degree of pain perception, thus
refuting Dr. Malloy’s dimmer switch theory. Further,
Dr. Ralston testified that evidence suggests pain
perception is unlikely at any point during pregnancy
due to factors that preclude consciousness in utero. Id.
at 285:15–297:3, 340:5–23.
Based on Dr. Ralston’s credible testimony, the
extensive studies cited therein, and the consensus of
the vast majority of the medical community, the court
concludes that it is very unlikely that a fetus can feel
pain before 24 weeks. Because H.B. 454 concerns
second-trimester abortions performed between 15 and
21.6 weeks, fetal pain is not a concern. The
Commonwealth’s argument that H.B. 454 provides a
benefit of preventing fetal pain from the standard D&E
abortion fails.
Still yet, the Commonwealth asserted two interests
advanced by the Act that were recognized as legitimate
in Gonzales—protecting the ethics, integrity, and
reputation of the medical community and expressing
respect for the dignity of human life even in the
absence of fetal pain. However, Kentucky cannot
pursue these interests in a way that completely denies
women the constitutionally protected right to
terminate a pregnancy before the fetus is viable. Here,
the Commonwealth avers that its interests are
sufficiently strong to justify the burdens the Act would
impose on Kentucky women because they would retain
the ability to terminate pregnancy at or after 15 weeks
by first undergoing a fetal-demise procedure. However,

JA 60
the Commonwealth’s argument is premised on the idea
that it is feasible for Plaintiffs to safely and reliably
utilize the three proposed fetal-demise methods
examined above. For the reasons discussed above—the
methods’ associated risks, technical difficulty, untested
nature, time and cost associated with performing them,
and the lack of training opportunities—the court
concludes on the current record that the proposed
fetal-demise methods are not feasible for inducing
fetal-demise before standard D&E at EMW. See W. Ala.
Women’s Ctr. v. Williamson, 900 F.3d 1310, 1327 (11th
Cir. 2018) (concluding that based on the findings the
proposed fetal-demise methods place a substantial
obstacle in the path of a woman’s right to a
pre-viability abortion). Consequently, if the court were
to allow the Act to go into effect, Kentucky women
would lose their right to pre-viability abortion access at
or after 15 weeks. The Supreme Court specifically
addressed such a scenario and held that “[b]efore
viability, the State’s interests are not strong enough to
support a prohibition of abortion or the imposition of a
substantial obstacle to the woman’s effective right to
elect the procedure.” Planned Parenthood of
Southeastern Pa. v. Casey, 505 U.S. 833, 846 (1992).
Consequently, the Commonwealth’s interests, while
legitimate, are not sufficient to justify such a
substantial obstacle to the constitutionally protect
right to terminate a pregnancy before viability.
5. Intent Requirement
The scienter requirement does not save the Act from
its constitutional shortcomings. The Commonwealth
contends that the intent requirement in H.B. 454

JA 61
shields from liability physicians who unintentionally
cut fetal tissue when attempting to comply with the
Act. Specifically, the Commonwealth argues that
because of this intent requirement, “there can be no
criminal penalties when a physician performs a D&E
procedure under a good-faith, but mistaken, belief that
fetal demise has occurred.” [DN 119 at 35]. But this
assurance leaves the provider at the mercy of a
prosecutor’s discretion. The provider would face this
risk every time they performed a fetal-demise
procedure, particularly umbilical cord transection.
Given that a prosecution and conviction could impose
upon a physician a criminal sentence of up to five years
imprisonment and other potential disciplinary and
licensing action, it is unsurprising that Dr. Franklin
testified that she would stop performing D&E abortions
after 15 weeks if the Act went into effect. This
deterrence of physicians, like Dr. Franklin, from
providing D&E abortions thereby denies Kentucky
women access to pre-viability abortions.
6. Large Fraction Test
To prevail on the facial challenge to H.B. 454,
Plaintiffs must demonstrate that “in a large fraction of
cases in which [the provision at issue] is relevant, it
will operate as a substantial obstacle to a woman’s
choice to undergo an abortion.” Planned Parenthood of
Southeastern Pa. v. Casey, 505 U.S. 833, 895 (1992). In
the large-fraction test, the court uses as the
denominator those cases in which the law at issue is
relevant which is a narrower class than “pregnant
women” or “the class of women seeking abortions.”
Whole Woman’s Health v. Hellerstedt, 136 S. Ct. 2292,

JA 62
2320 (2016) (quoting Casey, 505 U.S. at 894–95). As
such, the court rejects the Commonwealth’s argument
that the denominator should be all women seeking
abortions, not just women seeking a D&E abortion.
The court makes the following findings of fact
regarding the fraction of women effected by the Act.
EMW is the sole licensed outpatient abortion facility
located in Kentucky. Each year, EMW provides more
than 3,000 abortions. PX 120. During 2016, 17.47% of
those abortions were performed by the standard D&E
procedure. PX 120; PX 129. Standard D&E accounts for
over 99% of second-trimester abortions in Kentucky.
Tr. Vol. II 21:21–23:6 [DN 107]; PX 120. The
only alternatives to D&E—induction of labor or
hysterotomy—are rare and must be performed in a
hospital setting. Tr. Vol. I 36:1–38:22 [DN 106]. A
strong majority of standard D&Es currently occur from
15.0 to 17.0 weeks LMP. PX 128. Of the 537 D&Es
reported by EMW Louisville in 2016, 57.9% took place
during these earliest weeks of the second-trimester. Id.
The court determines that H.B. 454 is relevant for
all Kentucky women who select standard D&E through
the second-trimester and that the Act causes an undue
burden for a large fraction of these women. In
Kentucky in 2016, 537 women had a standard D&E. PX
129. H.B.454 would unduly burden 100% of these
women because, if the Act goes into effect, standard
D&E abortions will no longer be performed in the
Commonwealth due to ethical and legal concerns
regarding compliance with the law.
The Commonwealth argues that if the court uses
as the denominator only the women seeking a

JA 63
second-trimester D&E abortion, the Act still does not
affect a large fraction of women because not all women
who seek a D&E abortion will find the Act to be a
substantial obstacle. The Commonwealth claims that
because not all women will suffer the complications
associated with the fetal-demise procedures, the large
fraction test is not met. [DN 119 at 40–41]. However,
the court finds that under the Act, all women seeking
a second-trimester abortion at and after 15 weeks
would have to endure a medically unnecessary and
invasive procedure that may increase the duration of
an otherwise one-day standard D&E abortion. Further,
the court heard testimony that the individual providers
will no longer continue to offer standard D&Es if the
Act goes into effect. That is a substantial obstacle and
it affects all such women.
Because the Act affects all second-trimester D&E
abortion procedures in Kentucky, the relevant class of
women here consists of all women in Kentucky who are
15 to 21.6 weeks pregnant and seek an outpatient
second-trimester D&E abortion. Plaintiffs successfully
demonstrated that H.B. 454 would operate as an undue
burden for a large fraction of women for whom the
provision is an actual, rather than irrelevant,
restriction.
7. Out-of-State Abortion Clinics
The Commonwealth made an argument at trial that
the existence of out-of-state abortion clinics would
provide a workaround if EMW were to stop performing
D&E abortions. This argument is frivolous and can be
addressed succinctly. The Commonwealth cannot enact
unconstitutional laws and expect other states to

JA 64
compensate for its constitutional infirmity. Jackson v.
Women’s Health Org. v. Currier, 760 F.3d 448, 457
(5th Cir. 2014) (“[A] state cannot lean on its sovereign
neighbors to provide protection of its citizens’ federal
constitutional rights”), cert. denied, 136 S. Ct. 2536
(2016); see also EMW Women’s Surgical Ctr., P.S.C. v.
Glisson, No. 3:17-CV-00189, 2018 WL 6444391, at *26
(W.D. Ky. Sept. 28, 2018) (stating that “the availability
of abortion services in other states does not cure the
infirmities presently imposed by Kentucky law”).
Therefore, the availability of the standard D&E
procedure in neighboring states is irrelevant and in no
way affects this constitutional challenge.
For the foregoing reasons, Plaintiffs successfully
showed that H.B. 454 operates as an undue burden on
a woman’s right to a second-trimester pre-viability
abortion—an unconstitutional enactment under
current precedent. As such, Plaintiffs satisfied the first
of the four requirements for a permanent injunction.
C. Permanent Injunction – Irreparable Harm
As discussed above, Plaintiffs successfully showed
the Act will operate as a substantial obstacle to a
woman’s right to an abortion before the fetus
reached viability—a violation of a woman’s Fourteenth
Amendment rights to privacy and bodily integrity. “[I]f
it is found that a constitutional right is being
threatened or impaired, a finding of irreparable injury
is mandated.” Am. Civil Liberties Union of Ky. V.
McCreary Cty., 354 F.3d 438, 445 (6th Cir. 2003). Thus,
enforcement of H.B. 454 will cause immediate and
irreparable harm to Plaintiffs’ patients’ constitutional
rights as a matter of law. See Whole Women’s Health v.

JA 65
Paxton, 264 F. Supp. 3d 813, 824 (W.D. Tex. 2017)
(“The court concludes that Plaintiffs have established
that absent a temporary restraining order they will
suffer irreparable harm by being unable to access the
most commonly used and safest previability-secondtrimester-abortion procedure[.]”); Hopkins v. Jegley,
267 F. Supp. 3d 1024, 1068–69 (E.D. Ark. 2017)
(concluding that enforcement of the D&E mandate
would inflict irreparable harm on the plaintiff and his
patients “as there is no adequate remedy at law”).
If a permanent injunction does not issue, the
fraction of women for whom H.B. 454 is relevant would
immediately suffer irreparable harm by losing the right
to obtain a pre-viability abortion anywhere in the
Commonwealth of Kentucky after 15 weeks. As such,
the second requirement for a permanent injunction is
satisfied.
D. Permanent Injunction – Remaining Factors
Having shown success on the merits and irreparable
harm to the clinic’s patients, Plaintiffs must also show
that the requested injunction would not cause
substantial harm to others and that the public interest
would be served by issuance of the injunction. Jolivette
v. Husted, 694 F.3d 760, 765 (6th Cir. 2012). Plaintiffs
do so easily. As to the harm to others, if an injunction
does not issue, Kentucky women would lose the right to
obtain a pre-viability abortion anywhere in the
Commonwealth beginning at 15 weeks. If an injunction
does issue, an unconstitutional law passed by Kentucky
legislators will not go into effect. Accordingly,
substantial harm to others will not result if the
injunction issues. Finally, as to the public interest, it is

JA 66
well-established that the public has no interest in the
enforcement of an unconstitutional law. See, e.g., G &
V Lounge, Inc. v. Michigan Liquor Control Comm’n, 23
F.3d 1071, 1079 (6th Cir. 1994); see also Am. Freedom
Def. Initiative v. Suburban Mobility Auth. For Reg’l
Transp., 698 F.3d 885, 896 (6th Cir. 2012) (“The public
interest is promoted by the robust enforcement of
constitutional rights[.]”).
III.

CONCLUSION

In reaching this decision, the court was guided by
Supreme Court precedent and lower courts’ opinions
resolving challenges to similar legislation. As
appropriately stated by the Eleventh Circuit, “[i]n our
judicial system, there is only one Supreme Court, and
we are not it. As one of the ‘inferior Courts,’ we follow
its decisions.’” W. Ala. Women’s Ctr. v. Williamson, 900
F.3d 1310, 1329 (11th Cir. 2018) (citing U.S. Const. art.
III § 1).
The Supreme Court’s holdings in Stenberg and
Gonzales direct a single result—the Commonwealth’s
interests in protecting the reputation of the medical
community and expressing respect for fetal life, while
legitimate, are insufficient to allow a law that would
act as a de facto ban on a woman’s right to an abortion
after 15 weeks to go into effect. The Commonwealth’s
legitimate interests do not allow the imposition of an
additional required medical procedure—an invasive
and risky procedure without medical necessity or
benefit to the woman—prior to the standard D&E
abortion. Here, Kentucky’s legitimate interests must
give way to the woman’s right. The Act, like the one at
issue in Paxton, “does more than create a structural

JA 67
mechanism by which the [Commonwealth] expresses
profound respect for the unborn. The Act intervenes in
the medical process of abortion prior to viability in an
unduly burdensome manner.” 280 F. Supp. 3d 938, 954
(W.D. Tex. 2017).
Because H.B. 454 “has the effect of placing a
substantial obstacle in the path of a woman’s
choice [, it] cannot be considered a permissible means
of serving its legitimate ends.” Planned Parenthood v.
Casey, 505 U.S. 833, 877 (1992). H.B. 454 is facially
unconstitutional for the foregoing reasons. Accordingly,
the court declares the Act void and will permanently
enjoin the Commonwealth from enforcing the Act.
/s/ Joseph H. McKinley
Joseph H. McKinley Jr., District Judge
United States District Court
May 8, 2019

cc: counsel of record

JA 68
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO: 3:18-CV-00224-JHM
[Filed: May 10, 2019]
__________________________________________
EMW WOMEN’S SURGICAL CENTER, )
P.S.C., et al.
)
)
PLAINTIFFS
)
)
V.
)
)
ADAM W. MEIER et al.
)
)
DEFENDANTS
)
__________________________________________)
JUDGMENT AND PERMANENT INJUNCTION
This matter having come before the Court for a
bench trial commencing on November 13, 2018 and
concluding on November 19, 2018, and the Court
having issued a Memorandum Opinion and Order on
this date, it is hereby
ORDERED and ADJUDGED as follows:
(1)

Judgment is entered in favor of Plaintiffs.
The Court declares that H.B. 454 violates the
Fourteenth Amendment rights of Plaintiffs’
patients and, as such, is VOID.

(2)

Defendants and their officers, agents, and
employees, and those persons in active

JA 69
concert or participation with Defendants who
receive actual notice of this Order, are
PERMANENTLY ENJOINED from
enforcing H.B. 454 by criminal proceeding,
administrative action or proceeding, or any
other means; penalizing any person for
failure to comply with H.B. 454 by criminal
proceeding, administrative action or
proceeding, or any other means; and
applying, imposing, or requiring compliance
with, implementing, or carrying out in any
way any part of H.B. 454.
(3)

This action is DISMISSED with prejudice.

/s/ Joseph H. McKinley
Joseph H. McKinley Jr., District Judge
United States District Court
May 8, 2019

JA 70
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 19-5516
[Filed December 9, 2019]
_______________________________________
EMW WOMEN’S SURGICAL CENTER, )
P.S.C., on behalf of itself, its staff, and
)
its patients; ASHLEE BERGIN, M.D.,
)
M.P.H., on behalf of herself and her
)
patients; TANYA FRANKLIN, M.D.,
)
M.S.P.H., on behalf of herself and her
)
patients
)
)
Plaintiffs - Appellees
)
v.
)
)
ADAM MEIER, in his official capacity
)
as Secretary of Kentucky’s Cabinet
)
for Health and Family Services
)
)
Defendant - Appellant
)
And
)
)
THOMAS B. WINE, et al.
)
)
Defendants
)
_______________________________________)
On Appeal from the United States District Court
For the Western District of Kentucky at Louisville,
Case No. 3:18-cv-224-JHM

JA 71
MOTION TO WITHDRAW AS COUNSEL
M. Stephen Pitt, S. Chad Meredith, Matthew F.
Kuhn, and Brett R. Nolan (together, “Undersigned
Counsel”) move to withdraw as counsel for Appellant
Adam Meier, in his official capacity as Secretary of
Kentucky’s Cabinet for Health and Family Services
(“Secretary Meier”). In support, Undersigned Counsel
state that, as of December 10, 2019, they no longer will
be employed in their current positions with the Office
of the Governor of Kentucky. Catherine E. York will
continue to represent Secretary Meier in this matter.
Respectfully submitted,
s/ M. Stephen Pitt
M. Stephen Pitt
S. Chad Meredith
Matthew F. Kuhn
Brett R. Nolan
Office of the Governor
700 Capital Avenue, Suite 101
Frankfort, Kentucky 40601
(502) 564-2611
Counsel for Appellant
[*** Certificates omitted***]

JA 72
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 19-5516
[Filed December 11, 2019]
ORDER
_______________________________________
EMW WOMEN’S SURGICAL CENTER, )
P.S.C., on behalf of itself, its staff,
)
and its patients; ASHLEE BERGIN,
)
M.D., M.P.H., and TANYA FRANKLIN, )
M.D., M.S.P.H., on behalf of themselves )
and their patients
)
)
Plaintiffs - Appellees
)
v.
)
)
ADAM MEIER, in his official capacity
)
as Secretary of Kentucky’s Cabinet for
)
Health and Family Services
)
)
Defendant - Appellant
)
and
)
)
THOMAS B. WINE, et al.
)
)
Defendants
)
_______________________________________)
Upon consideration of Appellant’s motion for M.
Stephen Pitt, S. Chad Meredith, Matthew F. Kuhn and
Brett R. Nolan to withdraw as counsel,

JA 73
It is ORDERED that the motion is GRANTED
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk
Issued: December 11, 2019

s/ Deborah S. Hunt

JA 74
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: December 30, 2019]
Appearance of Counsel
Appeal No.: 19-5516________________
Case Title: EMW Women’s Surgical Center, P.S.C.
vs. Eric Friedlander_____________________________
List all clients you represent in this appeal:
Eric Friedlander, in his official capacity as Acting
Secretary of Kentucky’s Cabinet for Health and
Family Services (automatically substituted under
Fed. R. App. P. 43(c)(2) for Adam Meier)

: Appellant 9 Petitioner 9 Amicus Curiae 9Criminal
Justice Act (Appointed)
9 Appellee 9 Respondent 9 Intervenor
: Check if a party is represented by more than one
attorney.
: Check if you are lead counsel.
If you are substituting for another counsel,
include that attorney’s name here:

JA 75
By filing this form, I certify my admission and/or
eligibility to file in this court.
Attorney Name: Matthew F. Kuhn _________________
Signature: s/ Matthew F. Kuhn
Firm Name: Kentucky Office of the Attorney
General__________________________________________
Business Address: 700 Capital Avenue, Suite 118__
City/State/Zip: Frankfort, Kentucky 40601________
Telephone Number (Area Code): (502) 696-5300_____
Email Address: Matt.Kuhn@ky.gov________________
Please ensure your contact information above matches
your PACER contact information. If necessary, update
your PACER account.
CERTIFICATE OF SERVICE
The electronic signature above certifies that all
parties or their counsel of record have been
electronically served with this document as of the
date of filing.

JA 76
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: January 23, 2020]
Appearance of Counsel
Appeal No.: 19-5516________________
Case Title: EMW Women’s Surgical Center, et al.
vs. Eric Friedlander________________________
List all clients you represent in this appeal:
Eric Friedlander, in his official capacity as Secretary
of Kentucky’s Cabinet for Health and Family
Services

: Appellant 9 Petitioner 9 Amicus Curiae 9Criminal
Justice Act (Appointed)
9 Appellee 9 Respondent 9 Intervenor
: Check if a party is represented by more than one
attorney.
9 Check if you are lead counsel.
If you are substituting for another counsel,
include that attorney’s name here:

JA 77
By filing this form, I certify my admission and/or
eligibility to file in this court.
Attorney Name: Brett R. Nolan ___________________
Signature: s/ Brett R. Nolan

___

Firm Name: Office of the Attorney General_______
Business Address: 700 Capital Avenue, Suite 118__
City/State/Zip: Frankfort, Kentucky 40601________
Telephone Number (Area Code): (502) 696-5300_____
Email Address: brett.nolan@ky.gov________________
Please ensure your contact information above matches
your PACER contact information. If necessary, update
your PACER account.
CERTIFICATE OF SERVICE
The electronic signature above certifies that all
parties or their counsel of record have been
electronically served with this document as of the
date of filing.

JA 78
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: January 23, 2020]
Appearance of Counsel
Appeal No.: 19-5516________________
Case Title: EMW Women’s Surgical Center, et al.
vs. Eric Friedlander________________________
List all clients you represent in this appeal:
Eric Friedlander, in his official capacity as Secretary
of Kentucky’s Cabinet for Health and Family
Services

: Appellant 9 Petitioner 9 Amicus Curiae 9Criminal
Justice Act (Appointed)
9 Appellee 9 Respondent 9 Intervenor
: Check if a party is represented by more than one
attorney.
9 Check if you are lead counsel.
If you are substituting for another counsel,
include that attorney’s name here:

JA 79
By filing this form, I certify my admission and/or
eligibility to file in this court.
Attorney Name: M. Stephen Pitt ___________________
Signature: s/ M. Stephen Pitt

___

Firm Name: Office of the Attorney General_______
Business Address: 700 Capital Avenue, Suite 118__
City/State/Zip: Frankfort, Kentucky 40601________
Telephone Number (Area Code): (502) 696-5300_____
Email Address: steve.pitt@ky.gov_________________
Please ensure your contact information above matches
your PACER contact information. If necessary, update
your PACER account.
CERTIFICATE OF SERVICE
The electronic signature above certifies that all
parties or their counsel of record have been
electronically served with this document as of the
date of filing.

JA 80
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: January 23, 2020]
Appearance of Counsel
Appeal No.: 19-5516________________
Case Title: EMW Women’s Surgical Center, et al.
vs. Eric Friedlander________________________
List all clients you represent in this appeal:
Eric Friedlander, in his official capacity as Secretary
of Kentucky’s Cabinet for Health and Family
Services

: Appellant 9 Petitioner 9 Amicus Curiae 9Criminal
Justice Act (Appointed)
9 Appellee 9 Respondent 9 Intervenor
: Check if a party is represented by more than one
attorney.
9 Check if you are lead counsel.
If you are substituting for another counsel,
include that attorney’s name here:

JA 81
By filing this form, I certify my admission and/or
eligibility to file in this court.
Attorney Name: S. Chad Meredith__________________
Signature: s/ S. Chad Meredith

___

Firm Name: Office of the Attorney General_______
Business Address: 700 Capital Avenue, Suite 118__
City/State/Zip: Frankfort, Kentucky 40601________
Telephone Number (Area Code): (502) 696-5300_____
Email Address: chad.meredith@ky.gov_____________
Please ensure your contact information above matches
your PACER contact information. If necessary, update
your PACER account.
CERTIFICATE OF SERVICE
The electronic signature above certifies that all
parties or their counsel of record have been
electronically served with this document as of the
date of filing.

JA 82
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: January 28, 2020]
Appearance of Counsel
Appeal No.: 19-5516________________
Case Title: EMW Women’s Surgical Center, et al.
vs. Eric Friedlander________________________
List all clients you represent in this appeal:
Eric Friedlander, in his official capacity as Secretary
of Kentucky’s Cabinet for Health and Family
Services

: Appellant 9 Petitioner 9 Amicus Curiae 9Criminal
Justice Act (Appointed)
9 Appellee 9 Respondent 9 Intervenor
: Check if a party is represented by more than one
attorney.
9 Check if you are lead counsel.
If you are substituting for another counsel,
include that attorney’s name here:

JA 83
By filing this form, I certify my admission and/or
eligibility to file in this court.
Attorney Name: Daniel Cameron __________________
Signature: s/ Daniel Cameron

___

Firm Name: Kentucky Office of the Attorney
General
Business Address: 700 Capital Avenue, Suite 118__
City/State/Zip: Frankfort, Kentucky 40601________
Telephone Number (Area Code): (502) 696-5300_____
Email Address: joseph.fawns@ky.gov_______________
Please ensure your contact information above matches
your PACER contact information. If necessary, update
your PACER account.
CERTIFICATE OF SERVICE
The electronic signature above certifies that all
parties or their counsel of record have been
electronically served with this document as of the
date of filing.

JA 84
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0169p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5516
[Filed: June 2, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C.,
)
on behalf of itself, its staff, and its
)
patients; ASHLEE BERGIN, M.D., M.P.H.
)
and TANYA FRANKLIN, M.D., M.S.P.H.,
)
on behalf of themselves and their patients, )
)
Plaintiffs-Appellees,
)
)
v.
)
)
ERIC FRIEDLANDER, in his official capacity
)
as Acting Secretary of Kentucky’s Cabinet
)
for Health and Family Services,
)
)
Defendant-Appellant.
)
__________________________________________)
Appeal from the United States District Court
for the Western District of Kentucky at Louisville.
No. 3:18-cv-00224—Joseph H. McKinley, Jr.,
District Judge.
Argued: January 29, 2020
Decided and Filed: June 2, 2020

JA 85
Before: MERRITT, CLAY, and BUSH, Circuit
Judges.
_________________
COUNSEL
ARGUED: Matthew F. Kuhn, OFFICE OF THE
GOVERNOR, Frankfort, Kentucky, for Appellant.
Andrew D. Beck, AMERICAN CIVIL LIBERTIES
UNION OF NEW YORK, New York, New York, for
Appellees. ON BRIEF: Matthew F. Kuhn, M. Stephen
Pitt, S. Chad Meredith, Brett R. Nolan, OFFICE OF
THE GOVERNOR, Frankfort, Kentucky, for Appellant.
Andrew D. Beck, Alexa Kolbi-Molinas, Meagan M.
Burrow, Elizabeth Watson, AMERICAN CIVIL
LIBERTIES UNION OF NEW YORK, New York, New
York, Amy D. Cubbage, ACKERSON & YANN,
Louisville, Kentucky, Heather Lynn Gatnarek,
AMERICAN CIVIL LIBERTIES UNION OF
KENTUCKY, Louisville, Kentucky, for Appellees.
Benjamin M. Flowers, OFFICE OF THE OHIO
ATTORNEY GENERAL, Columbus, Ohio, Ester
Murdukhayeva, OFFICE OF THE NEW YORK
ATTORNEY GENERAL, New York, New York,
Alexandria Preece, MORRISON & FOERSTER LLP,
San Diego, California, Roxann E. Henry, MORRISON
& FOERSTER LLP, Washington, D.C., Kimberly A.
Parker, WILMER CUTLER PICKERING HALE AND
DORR LLP, Washington, D.C., for Amici Curiae.
CLAY, J., delivered the opinion of the court in which
MERRITT, J., joined. BUSH, J. (pp. 33–43), delivered
a separate dissenting opinion.

JA 86
_________________
OPINION
_________________
CLAY, Circuit Judge. This case asks whether a
state can require patients to undergo a procedure to
end potential fetal life before they may receive an
abortion performed through the method most common
in the second trimester of pregnancy—dilation and
evacuation. Kentucky House Bill 454 does just that.
Plaintiffs, Kentucky’s sole abortion clinic and two of its
doctors, argue that House Bill 454 violates patients’
constitutional right to abortion access prior to fetal
viability because the burdens the law imposes
significantly outweigh its benefits. Defendant Eric
Friedlander, the Acting Secretary of Kentucky’s
Cabinet for Health and Family Services, disagrees. He
contends that Kentucky may constitutionally require
patients to undergo such a procedure because it is a
reasonable alternative to the standard dilation and
evacuation abortion. The district court agreed with
Plaintiffs and permanently enjoined Kentucky from
enforcing House Bill 454.
For the reasons set forth below, we AFFIRM the
district court’s judgment.

JA 87
BACKGROUND
Factual Background
In the first trimester of pregnancy, a physician may
perform an abortion through two methods. She may
offer medication to induce a process like miscarriage, or
she may perform a surgical abortion, using suction to
remove the contents of the uterus intact. But these
methods are only effective in the initial weeks of
pregnancy. Starting around fifteen weeks of pregnancy,
measured from the time of the individual’s last
menstrual period (“LMP”), physicians must use the
dilation and evacuation (“D&E”) method. D&E is the
standard method used in the second trimester,
accounting for 95% of second-trimester abortions
performed nationwide. To perform a D&E, a physician
first dilates the patient’s cervix, and then uses
instruments and suction to remove the contents of the
uterus. At this stage of pregnancy, the fetus has grown
larger than the cervical opening, and so fetal tissue
separates as the physician draws it through that
narrow opening.
This leads us to Kentucky’s House Bill 454 (“H.B.
454” or “the Act”), which was signed into law on April
10, 2018. H.B. 454 provides, in relevant part:
No person shall intentionally perform or induce
or attempt to perform or induce an abortion on
a pregnant woman . . . [t]hat will result in the
bodily dismemberment, crushing, or human
vivisection of the unborn child . . . [w]hen the
probable post-fertilization age of the unborn
child is eleven (11) weeks or greater [(i.e.,

JA 88
thirteen (13) weeks or greater as measured since
the last menstrual period)]1. . . .
(H.B. 454, R. 43-1 at PageID #244.) “[B]odily
dismemberment, crushing, or human vivisection”
includes:
a procedure in which a person, with the purpose
of causing the death of an unborn child,
dismembers the living unborn child and extracts
portions, pieces, or limbs of the unborn child
from the uterus through the use of clamps,
grasping forceps, tongs, scissors, or a similar
instrument that . . . slices, crushes, or grasps . . .
any portion, piece, or limb of the unborn child’s
body to cut or separate the portion, piece, or
limb from the body.
(Id. at ##243–44.) While H.B. 454 does not use the
words “dilation and evacuation” or “D&E,” the parties
agree that it references the standard D&E. Because
fetal tissue separates as physicians remove it from the
uterus during the standard D&E, H.B. 454 forbids
D&E abortions when performed on “living unborn”
fetuses—or, in clinical terms, prior to “fetal demise.”
H.B. 454 does not identify any workaround for
physicians who seek to perform or patients who seek a
1

Like Plaintiffs, the Secretary, and the district court before us, we
identify the relevant stage of pregnancy based on the number of
weeks since the individual’s last menstrual period, or weeks
“LMP.” However, H.B. 454 identifies the stage of pregnancy based
on the number of weeks “post fertilization.” (H.B. 454, R. 43-1 at
PageID #244.) Eleven weeks post fertilization is equivalent to
thirteen weeks LMP.

JA 89
D&E after thirteen weeks. The Act does not suggest
that physicians should or must induce fetal demise
prior to performing a D&E. Specifically, it does not
discuss any procedures for inducing fetal demise.
H.B. 454 provides for a single exception to this
prohibition: physicians may perform a D&E prior to
fetal demise in a “medical emergency.” (Id. at #244.) A
“medical emergency” is a situation that a physician
deems to “so complicate[] the medical condition of a
pregnant female as to necessitate the immediate
abortion of her pregnancy to avert her death or for
which a delay will create a serious risk of substantial
and irreversible impairment of a major bodily
function.” (Id.); Ky. Rev. Stat. § 311.720(9).
Violation of H.B. 454 is a Class D felony, (H.B. 454,
R. 43-1 at PageID #247), for which providers may
receive up to five years of imprisonment, Ky. Rev. Stat.
§ 532.060(2)(d), and adverse licensing and disciplinary
action, id., §§ 311.565, 311.606.
Procedural Background
On the day H.B. 454 was signed, Plaintiffs EMW
Women’s Surgical Center (“EMW”) and its two
obstetrician-gynecologists, Dr. Ashlee Bergin and Dr.
Tanya Franklin, brought suit against various Kentucky
officials to challenge it. EMW is Kentucky’s only
licensed outpatient abortion facility, and Dr. Bergin
and Dr. Franklin are the only doctors providing
surgical abortions at EMW. Plaintiffs argued that H.B.
454 is facially unconstitutional because it effectively
bans the most common second-trimester abortion
procedure—the D&E—and therefore imposes an undue

JA 90
burden on the right to elect abortion prior to viability,
in violation of the Fourteenth Amendment. Plaintiffs
moved for a temporary restraining order and a
preliminary injunction shortly thereafter.
The parties entered a joint consent order, under
which the Commonwealth defendants agreed that they
would not take steps to enforce H.B. 454 until the
district court ruled upon Plaintiffs’ motions. The court
later ordered the parties to continue following the
terms of the consent order until the case was tried on
the merits.
Aside from then-Secretary of Kentucky’s Cabinet
for Health and Family Services, Adam Meier, and
Commonwealth Attorney Thomas B. Wine, all of the
defendants were voluntarily dismissed prior to trial.
The district court heard Plaintiffs’ case in a five-day
bench trial in November 2018.
Before the court, Plaintiffs presented their
argument as to H.B. 454’s unconstitutionality.
Defendants Meier and Wine, for their part, argued that
H.B. 454 did not ban D&E abortions, but simply
required individuals seeking a D&E abortion after
thirteen weeks to first undergo a procedure to induce
fetal demise. They identified three possible methods of
inducing fetal demise: by injecting digoxin into the
fetus or amniotic sac, by injecting potassium chloride
into the fetal heart, or by cutting the umbilical cord in
utero. Plaintiffs responded that none of these three
procedures was a feasible workaround to H.B. 454.
Both parties presented substantial expert testimony
and evidence about the safety, efficacy, and feasibility
of each of these procedures.

JA 91
On May 8, 2019, the district court entered judgment
for Plaintiffs and an order permanently enjoining the
enforcement of H.B. 454. EMW Women’s Surgical Ctr.,
P.S.C. v. Meier, 373 F. Supp. 3d 807, 826 (W.D. Ky.
2019). At bottom, the district court found that H.B. 454
imposed an undue burden on one’s right to elect an
abortion prior to viability, in violation of the
Fourteenth Amendment. Id. In particular, it concluded
that none of the three identified procedures was a
feasible option for inducing fetal demise and, therefore,
H.B. 454 effectively banned D&E abortions. Id. at 823.
This timely appeal followed. Former defendant
Commonwealth Attorney Wine did not join this appeal.
Due to the recent change in administration from prior
Kentucky Governor Matt Bevin to current Governor
Andy Beshear, now-Acting Secretary of Kentucky’s
Cabinet for Health and Family Services Eric
Friedlander (“the Secretary”) has replaced Adam Meier
as the named Defendant-Appellant in this case. See
Fed. R. Civ. P. 25(d) (“An action does not abate when a
public officer who is a party in an official capacity . . .
ceases to hold office while the action is pending. The
officer’s successor is automatically substituted as a
party.”).
DISCUSSION
Kentucky is not the first state to pass legislation
requiring fetal demise prior to the performance of a
D&E. At least ten other states have passed similar
laws. See, e.g., Ala. Code § 26-23G-1 et seq.; Ark. Code.
Ann. § 20-16-1801 et seq.; Ind. Code §§ 16-34-2-7(a),
16-18-2-96.4; Kan. Stat. Ann. § 65-6741 et seq.; Okla.
Stat. Ann. § 1-737.7 et seq.; La. Stat. Ann. § 1061.1.1 et

JA 92
seq.; Miss. Code Ann. § 41-41-151 et seq.; Ohio Rev.
Code § 2919.15(B); Tex. Health & Safety Code Ann.
§ 171.151 et seq.; W. Va. Code Ann. § 16-2O-1 et seq. In
nearly every state, plaintiffs have challenged those
laws as unduly burdening the right to elect abortion
before viability, as Plaintiffs have done here. And in
every challenge brought to date, the court has enjoined
the law, finding that it indeed unduly burdens that
right. See, e.g., W. Ala. Women’s Ctr. v. Williamson, 900
F.3d 1310, 1327, 1329–30 (11th Cir. 2018) (affirming
permanent injunction of Ala. Code § 26-23G-1 et seq.),
cert denied sub nom. Harris v. W. Ala. Women’s Ctr.,
139 S. Ct. 2606 (2019); Bernard v. Individual Members
of Ind. Med. Licensing Bd., 392 F. Supp. 3d 935, 962,
964 (S.D. Ind. 2019) (preliminarily enjoining Ind. Code
§§ 16-34-2-7(a), 16-18-2-96.4); Planned Parenthood of
Sw. Ohio Region v. Yost, 375 F. Supp. 3d 848, 869, 872
(S.D. Ohio 2019) (preliminarily enjoining Ohio Rev.
Code § 2919.15(B)); Whole Woman’s Health v. Paxton,
280 F. Supp. 3d 938, 953–54 (W.D. Tex. 2017)
(permanently enjoining Tex. Health & Safety Code
Ann. § 171.151 et seq.); Hopkins v. Jegley, 267 F. Supp.
3d 1024, 1064–65, 1111 (E.D. Ark. 2017) (preliminarily
enjoining Ark. Code. Ann. § 20-16-1801 et seq.); Hodes
& Nauser, MDs, P.A. v. Schmidt, 440 P.3d 461, 467–68,
504 (Kan. 2019) (affirming temporary injunction of
Kan. Stat. Ann. § 65-6741 et seq.); see also, e.g.,
Planned Parenthood of Cent. N.J. Farmer, 220 F.3d
127, 145–46, 152 (3d Cir. 2000) (affirming permanent
injunction of a partial-birth abortion ban, finding that
its fetal-demise workaround would constitute an undue
burden); Evans v. Kelley, 977 F. Supp. 1283, 1318–20
(E.D. Mich. 1997) (permanently enjoining a similar
law). The district court here reached the same

JA 93
conclusion. Meier, 373 F. Supp. 3d at 826. While these
cases do not dictate this Court’s decision, we find them
highly persuasive. See Glossip v. Gross, 135 S. Ct.
2726, 2740 (2015) (“Our review is even more deferential
where . . . multiple trial courts have reached the same
finding, and multiple appellate courts have affirmed
those findings.”); cf. Cooper v. Harris, 137 S. Ct. 1455,
1468 (2017) (“[A]ll else equal, a finding is more likely to
be plainly wrong if some judges disagree with it.”).
All this said, our duty is to assess the record in this
case and independently review the district court’s
decision to permanently enjoin H.B. 454. “A party is
entitled to a permanent injunction if it can establish
that it suffered a constitutional violation and will suffer
‘continuing irreparable injury’ for which there is no
adequate remedy at law.” Women’s Med. Prof’l Corp. v.
Baird, 438 F.3d 595, 602 (6th Cir. 2006) (quoting
Kallstrom v. City of Columbus, 136 F.3d 1055, 1067
(6th Cir. 1998)). When considering a district court’s
decision to grant a permanent injunction following a
bench trial, we apply three standards of review. We
review the scope of injunctive relief for an abuse of
discretion, the district court’s legal conclusions de novo,
and the court’s factual findings for clear error. Id.
In this and all cases, the clear error standard
presents a particularly high hurdle for the appellant to
overcome. The district court compiled a thorough
judicial record over the course of a five-day bench trial,
during which the parties presented a wealth of
testimonial and documentary evidence. In reviewing
the court’s factual findings based on that record, we
ask only if its “account of the evidence is plausible in

JA 94
light of the record viewed in its entirety.” Anderson v.
City of Bessemer City, 470 U.S. 564, 573–74 (1985). If
so, we must affirm the district court’s finding. We
consider a factual finding clearly erroneous only when
we are “left with the definite and firm conviction that
a mistake has been committed.” Id. at 573 (quoting
United States v. U.S. Gypsum Co., 333 U.S. 364, 395
(1948)). “Where there are two permissible views of the
evidence, the [district court’s] choice between them
cannot be clearly erroneous.” Id. at 574.
With this groundwork laid, we turn to the issues
presented on appeal.2
2

At the threshold, we address a point belabored by the dissent. In
the proceedings below, the Secretary cursorily argued that
Plaintiffs do not have standing to assert this challenge. The
district court rightly rejected this notion. Meier, 373 F. Supp. 3d at
813. The Secretary does not renew this argument on appeal, but
merely states that he “preserves his right to argue that EMW lacks
standing to prosecute this case on behalf of women seeking an
abortion.” (Def. Br. at 25, n.3.) Generally speaking, “a party does
not preserve an argument by saying in its opening brief (whether
through a footnote or not) that it may raise the issue later.”
United States v. Huntington Nat’l Bank, 574 F.3d 329, 331 (6th
Cir. 2009).
Nevertheless, the dissent makes the unsupportable assertion
that we are always required to sua sponte address prudential
third-party standing arguments, even when the parties do not
raise them. We are not convinced that the cases upon which the
dissent relies require us to do so. C.f. Craig v. Boren, 429 U.S. 190,
193–94 (1976) (holding that third-party standing is a prudential
issue, not a constitutional one). In any event, we need not answer
that question now because this case does not present any
third-party standing issue. (Perhaps this is also the reason the
Secretary does not press the issue on appeal.) As we recently
explained, physician plaintiffs “unquestionably have standing to

JA 95

sue on their own behalf” when a law threatens them with criminal
prosecution. Adams & Boyle, P.C. v. Slatery, 956 F.3d 913, 923
n.10 (6th Cir. 2020); see also, e.g., City of Akron v. Akron Ctr. for
Reprod. Health, Inc., 462 U.S. 416, 440 n.30 (1983), overruled on
other grounds by Planned Parenthood of Se. Pa. v. Casey, 505 U.S.
833 (1992); Planned Parenthood of Cent. Mo. v. Danforth, 428 U.S.
52, 62 (1976); Doe v. Bolton, 410 U.S. 179, 188 (1973). Even if
Plaintiffs were not directly regulated by H.B. 454 and only
asserted their patients’ rights, the Supreme Court has long since
determined that abortion providers have standing to do so. See
Singleton v. Wulff, 428 U.S. 106, 117 (1976). And it has found that
providers have standing even when their interests are arguably in
potential conflict with patients’—as when regulations assertedly
protect the health and safety of patients. See, e.g., City of Akron,
462 U.S. at 440 n.30; Danforth, 428 U.S. at 62; Doe v. Bolton, 410
U.S. at 188.
Casting aside this Supreme Court precedent, the dissent
proclaims that Plaintiffs do not have standing because their
interests potentially conflict with those of their patients. In so
concluding, the dissent wrongly assigns to itself the district court’s
due fact-finding role, without providing any justification for doing
so. Regardless, the supposed conflicts the dissent identifies do not
exist. The dissent misleadingly uses studies suggesting some
would prefer to undergo a fetal-demise procedure before receiving
a D&E. But this attacks a straw man. Plaintiffs do not argue that
individuals should not be permitted to undergo a fetal-demise
procedure if they desire to do so; instead, they argue that
individuals should not be compelled to undergo a fetal-demise
procedure whether or not they desire to. Even if some have an
interest in undergoing a fetal-demise procedure, this says nothing
about whether they have an interest in being compelled by
Kentucky to undergo a fetal-demise procedure. The dissent next
suggests, out of thin air, that Plaintiffs do not desire to acquire the
training necessary to perform digoxin injections. But the dissent
points to no evidence supporting this proposition, and it cannot
create a conflict through bare assertion. Thus, its arguments are
altogether without merit.

JA 96
I.
Nearly fifty years ago, the Supreme Court
declared that the Fourteenth Amendment protects an
individual’s right to elect to have an abortion. Roe v.
Wade, 410 U.S. 113, 153–54 (1973). Twenty years later,
in Planned Parenthood of Southeastern Pennsylvania
v. Casey, 505 U.S. 833, 846 (1992), the Court reaffirmed
what it identified as Roe’s essential holdings:
First is a recognition of the right of the woman
to choose to have an abortion before viability and
to obtain it without undue interference from the
State. Before viability, the State’s interests are
not strong enough to support a prohibition of
abortion or the imposition of a substantial
obstacle to the woman’s effective right to elect
the procedure. Second is a confirmation of the
State’s power to restrict abortions after fetal
viability, if the law contains exceptions for
pregnancies which endanger the woman’s life or
health. And third is the principle that the State
has legitimate interests from the outset of the
pregnancy in protecting the health of the woman
and the life of the fetus that may become a child.
Under this framework, “[r]egardless of whether
exceptions are made for particular circumstances, a
State may not prohibit any woman from making the
ultimate decision to terminate her pregnancy before
viability.” Id. at 879. On the other hand, “[r]egulations
which do no more than create a structural mechanism
by which the State . . . may express profound respect
for the life of the unborn are permitted, if they are not
a substantial obstacle to the woman’s exercise of the

JA 97
right to choose.” Id. at 877. According to the Secretary,
H.B. 454 serves the Commonwealth’s interests in
respecting the dignity of human life, preventing fetal
pain, and protecting the ethics, integrity, and
reputation of the medical community. Neither the
district court nor Plaintiffs questioned that the
Commonwealth indeed held these interests or that it
might justifiably regulate abortion to further them.
Neither do we. The Commonwealth “may use its voice
and its regulatory authority to show its profound
respect” for the dignity of human life. Gonzales v.
Carhart, 550 U.S. 124, 157 (2007). Preventing fetal
pain is part and parcel of this interest. Likewise, states
“ha[ve] an interest in protecting the integrity and
ethics of the medical profession.” Id. (quoting
Washington v. Glucksberg, 521 U.S. 702, 731 (1997)).
However, no Commonwealth interest may justify
“placing a substantial obstacle in the path of a woman
seeking an abortion” prior to viability. Casey, 505 U.S.
at 877. Such an obstacle would unduly burden the right
to choose prior to viability, in violation of the
Fourteenth Amendment. Gonzales, 550 U.S. at 146.
H.B. 454 applies to abortions beginning at thirteen
weeks LMP, well before the point of viability. The
question before this Court, then, is whether H.B. 454
imposes an undue burden. As explained by the
Supreme Court in Whole Woman’s Health v.
Hellerstedt, 136 S. Ct. 2292, 2309 (2016), we answer
this question by weighing “the burdens a law imposes
on abortion access together with the benefits those laws
confer.”

JA 98
This is where the Commonwealth’s problems begin.
The Secretary takes issue with the district court’s
application of this test. He asserts that there are
multiple ways to apply the undue burden analysis, and
“Hellerstedt does not apply here because its balancing
test arose in the context of a law that a state claimed
protected women’s health.” (Def. Br. at 28 (citing
Hellerstedt, 136 S. Ct. at 2310).) Because the
Commonwealth interests behind H.B. 454 are
purportedly more “intangible,” the Secretary says, it is
the legislature’s place—and not the courts’—to assess
whether the Commonwealth’s interest justifies
regulating abortion. The Secretary suggests that
Gonzales articulated a separate test that applies where
a state acts to express respect for human life—that is,
“the State may use its regulatory power to bar certain
procedures and substitute others,” so long as the
alternative procedures do not impose an undue burden
in the form of “significant health risks.” (Id. at 26–27
(emphasis omitted) (quoting Gonzales, 550 U.S. at 158,
161).)
Like other courts presented with this argument, we
find it unpersuasive. See, e.g., Planned Parenthood of
Ind. & Ky. v. Comm’r of Ind. State Dep’t of Health, 896
F.3d 809, 817 (7th Cir. 2018) (“The State is incorrect
that the standard for evaluating abortion regulations
differs depending on the State’s asserted interest or
that there are even two different tests . . . .”); Hopkins,
267 F. Supp. 3d at 1055 (rejecting argument that “the
Supreme Court has created two distinct undue burden
tests, depending on what interests the state seeks to
regulate”). In Hellerstedt, the Supreme Court inferred
that the state had legislated in the interest of

JA 99
protecting women’s health. 136 S. Ct. at 2310. Yet the
Court did not distinguish that case from Gonzales
based on the state’s interest; in fact, it cited Gonzales’s
analysis. See id. at 2309–10 (citing Gonzales, 550 U.S.
at 165–66). The Hellerstedt Court explained that it
simply applied “[t]he rule announced in Casey, . . .
[which] requires that courts consider the burdens a law
imposes on abortion access together with the benefits
those laws confer.” Id. at 2309. In Gonzales, the Court
also explained that “Casey, in short, struck a balance,”
and it simply “applied [Casey’s] standards to the cases
at bar.” Gonzales, 550 U.S. at 146. Casey itself did not
suggest that any separate test applied to regulations
based on an interest in the dignity of human life;
instead, it presented the “woman’s right to terminate
her pregnancy before viability” and “the interest of the
State in the protection of potential life” as two sides of
an equation. Casey, 505 U.S. at 871. Nor have other
lower courts understood there to be two different
analyses. Courts regularly apply the undue burden
analysis, as articulated in Hellerstedt, to regulations
passed in the interest of protecting the dignity of
human life. See, e.g., Planned Parenthood of Ind. & Ky.,
Inc. v. Adams, 937 F.3d 973, 983–84 (7th Cir. 2019);
J.D. v. Azar, 925 F.3d 1291, 1328, 1333, 1335 (D.C. Cir.
2019); Williamson, 900 F.3d at 1326–27; Planned
Parenthood of Ind. & Ky. v. Comm’r of Ind. State Dep’t
of Health, 896 F.3d at 824–25, 831.
The Secretary also relies upon Gonzales to assert
that there is “medical uncertainty over whether [H.B.
454’ s] prohibition creates significant health risks,” and
that legislatures have “wide discretion to pass
legislation in areas where there is medical and

JA 100
scientific uncertainty.” (Def. Br. at 27 (quoting
Gonzales, 550 U.S. at 163–64).) But Hellerstedt
addressed this very argument. See 136 S. Ct. at 2310.
It explained that “[t]he statement that legislatures, and
not courts, must resolve questions of medical
uncertainty is . . . inconsistent with this Court’s case
law.” Id. It clarified that while Gonzales suggested that
courts must apply deferential review to legislative fact
findings, that deference should not be “[u]ncritical” and
courts “must not ‘place dispositive weight’ on those
‘findings.’” Id. (alteration in original) (quoting
Gonzales, 550 U.S. at 165–66); see also Adams & Boyle,
P.C. v. Slatery, 956 F.3d 913, 926 (6th Cir. 2020). In the
case of H.B. 454, the legislature made no findings of
fact addressing the medical safety of the Secretary’s
suggested procedures; in fact, H.B. 454 does not
acknowledge these procedures at all. Thus, there are no
legislative findings of fact to which this Court could
even defer. As discussed below, the district court
appropriately considered the medical evidence
surrounding H.B. 454’s safety and found that it
presented impermissible, unduly burdensome risks to
those seeking a D&E prior to viability.
Setting aside the Secretary’s argument, then, we
must apply the undue burden analysis, as explained in
Hellerstedt.3 We therefore turn to consider the district
3

Although we decline to apply the purportedly separate test the
Secretary suggests, we note that H.B. 454 would fail that test, too.
The Secretary suggests that a law “imposes an undue burden only
when the regulation creates a substantial obstacle to previability
abortion by ‘creat[ing] significant health risks’ for women.” (Def.
Reply Br. at 10–11 (quoting Gonzales v. Carhart, 550 U.S. 124, 162
(2007)).) For the reasons explained later in this opinion, the

JA 101
court’s assessment of the burdens H.B. 454 imposes.
A. Burdens
An undue burden exists if a statute’s “purpose or
effect is to place a substantial obstacle in the path of a
woman seeking an abortion before the fetus attains
viability.” Casey, 505 U.S. at 878. The Supreme Court
has repeatedly affirmed that laws that amount to a
prohibition of the most common second-trimester
abortion method impose such a burden. See, e.g.,
Stenberg v. Carhart, 530 U.S. 914, 930, 938–39 (2000)
(finding that a Nebraska statute effectively prohibiting
D&E abortions constituted an undue burden); Planned
Parenthood of Cent. Mo. v. Danforth, 428 U.S. 52,
78–79 (1976) (striking down a ban on saline
amniocentesis, then the method “most commonly used
nationally . . . after the first trimester”); see also
Gonzales, 550 U.S. at 150–54, 164–65 (contrasting a
permissible law prohibiting only dilation and extraction
(“D&X”) abortions,4 and not standard D&E, with the
unconstitutional law at issue in Stenberg). This Court
has duly applied those holdings, explaining simply that
“if a statute prohibits pre-viability D & E procedures,
it is unconstitutional.” Northland Family Planning,
district court did not err in finding that H.B. 454 creates
significant health risks by compelling individuals to undergo
fetal-demise procedures.
4

In a D&X procedure, a physician dilates a patient’s cervix to
allow the fetus to partially pass through. Women’s Med. Prof’l
Corp. v. Taft, 353 F.3d 436, 440 (6th Cir. 2003). When the fetus
emerges past the cervix, the physician uses tools to access and
remove the contents of the fetal skull, before removing the rest of
the fetal body from the patient. Id.

JA 102
Inc. v. Cox, 487 F.3d 323, 330 (6th Cir. 2007); accord
Eubanks v. Stengel, 224 F.3d 576, 577 (6th Cir. 2000);
Women’s Med. Prof’l Corp. v. Voinovich, 130 F.3d 187,
201 (6th Cir. 1997) (“Because the definition of the
banned procedure includes the D & E procedure, the
most common method of abortion in the second
trimester, the Act’s prohibition on the D & X procedure
has the effect ‘of placing a substantial obstacle in the
path of a woman seeking an abortion of a nonviable
fetus.’” (quoting Casey, 505 U.S. at 877)). If H.B. 454
effectively prohibits the D&E procedure, then, it poses
a substantial obstacle to abortion access prior to
viability and is an undue burden.
H.B. 454 criminalizes a physician’s performance of
a standard D&E abortion unless fetal demise occurs
before the fetus is removed from the uterus. The
Secretary argues that H.B. 454 does not ban D&Es
because physicians may lawfully administer D&Es if
they first induce fetal demise through one of three
methods: digoxin injection, potassium chloride
injection, or umbilical cord transection. The Secretary
asserts that the Commonwealth may constitutionally
require individuals to undergo these procedures
because they are “reasonable alternative[s]” to a
standard D&E. (Def. Br. at 27, 33 (citing Gonzales, 550
U.S. at 163).)
Before considering the feasibility of each of these
procedures, we pause to note a fundamental flaw in the
Secretary’s argument. Fetal-demise procedures are not,
by definition, alternative procedures. A patient who
undergoes a fetal-demise procedure must still undergo
the entirety of a standard D&E. Instead, fetal-demise

JA 103
procedures are additional procedures. Additional
procedures, by nature, expose patients to additional
risks and burdens. No party argues that these
procedures are necessary or provide any medical
benefit to the patient. The district court’s findings
suggest that these procedures impose only additional
medical risks. Thus, we consider them inherently
suspect. See, e.g., Adams & Boyle, 956 F.3d at 926
(concluding that applications of a temporary ban on
abortions during the COVID-19 pandemic that “would
require [a woman] to undergo a more invasive and
costlier procedure tha[n] she otherwise would have . . .
constitutes ‘beyond question, a plain, palpable invasion
of rights secured by [the] fundamental law’” (quoting
Jacobson v. Massachusetts, 197 U.S. 11, 31 (1905)));
Paxton, 280 F. Supp. 3d at 948 (“Although the court
will consider the argument [that physicians may induce
fetal demise through one of the proposed methods], the
State’s reliance on adding an additional step to an
otherwise safe and commonly used procedure in and of
itself leads the court to the conclusion that the State
has erected an undue burden on a woman’s right to
terminate her pregnancy prior to fetal viability.”); id. at
953 (similar); see also, e.g., Danforth, 428 U.S. at 78–79
(striking down Missouri’s ban on saline amniocentesis
because it “forces a woman and her physician to
terminate her pregnancy by methods more dangerous
to her health than the method outlawed”); Williamson,
900 F.3d at 1326 (similar); Farmer, 220 F.3d at 145
(similar); Planned Parenthood of Cent. N.J. v. Verniero,
41 F. Supp. 2d 478, 500 (D.N.J. 1998) (similar), aff’d
sub nom. Farmer, 220 F.3d 127; Evans, 977 F. Supp. at
1318 (similar). In essence, H.B. 454 conditions an
individual’s right to choose on her willingness to

JA 104
submit herself to an additional painful, risky, and
invasive procedure. At some point, that requirement
itself becomes so onerous that it would substantially
deter individuals from seeking an abortion. This is
surely an undue burden.
Our consideration of the Secretary’s proposed
means of inducing fetal demise only solidifies this
conclusion. The district court correctly found that none
of these methods is a feasible workaround to H.B. 454.
We address each method in turn.
1. Digoxin Injections
The first fetal-demise method the Secretary
identifies is digoxin injections. As the district court
explained, “[t]o inject digoxin, physicians begin by
using an ultrasound machine to visualize the woman’s
uterus and the fetus. The physician then inserts a long
surgical needle through the patient’s skin, abdomen,
and uterine muscle, to inject digoxin into the fetus” or
the amniotic fluid. Meier, 373 F. Supp. 3d at 818.
Because digoxin can take up to twenty-four hours to
work, physicians generally must administer this
injection the day before performing a D&E. Id. at
818–19.
The district court found that digoxin injections were
not a feasible method for inducing fetal demise for five
reasons. First, with between a 5% and 20% failure rate,
digoxin injections do not reliably induce fetal demise
and so patients may require a second injection, the
effects of which have not been studied. Id. at 818.
Second, digoxin injections are also insufficiently
studied when administered before eighteen weeks

JA 105
LMP, and would therefore essentially be experimental
for the approximately 50% of patients who would
receive injections before this point. Id. Third, various
factors make it difficult or impossible for many patients
to receive a digoxin injection prior to a D&E. Id.
Fourth, digoxin injections expose patients to
substantial added health risks. Id. Finally, digoxin
injections subject patients to additional logistical and
emotional burdens by requiring them to undergo a
risky and invasive procedure and by requiring them to
invest resources in making a visit to their physician to
have the injection twenty-four hours before receiving a
D&E. Id. at 818–19.5
Much of the Secretary’s argument pertaining to
digoxin injections amounts to an attempt to relitigate
5

The district court found that digoxin injections are generally “not
terribly difficult to perform,” but that they “still [are] not a
feasible option for fetal-demise” for the five reasons indicated.
Meier, 373 F. Supp. 3d at 818. Yet the dissent repeatedly asserts
that the problem is simply that Plaintiffs do not desire to receive
the training necessary to give the injections. This assertion has no
grounding in the facts as the district court found them, and, as
previously discussed, the dissent provides no support for it. In any
event, the possibility that Plaintiffs could be trained to perform
digoxin injections is irrelevant if digoxin injections are not
otherwise a feasible workaround to H.B. 454. The evidence pointed
to by the dissent provides no reason to question the district court’s
conclusion that they are not. As detailed above, each of the factual
findings relating to digoxin injection’s feasibility was a permissible
view of the evidence. See Anderson, 470 U.S. at 574. Apparently
recognizing this, the dissent does not suggest that any of the
court’s findings were clearly erroneous. Instead, it simply asserts
the facts as it sees them. But it is not our role to find facts,
particularly in the absence of evidence, when we have no basis to
reverse the district court’s permissible findings. See id.

JA 106
factual issues. He contends that digoxin injections do
not fail as frequently as the district court found, that
receiving multiple injections is safe, that receiving
injections before eighteen weeks is safe, and that some
of the risks identified by the district court are minimal
or theoretical. In essence, the Secretary takes issue
with the district court’s decision to credit Plaintiffs’
experts and cited studies over his own.
The Secretary’s strategy is misguided. Even if we
were inclined to disagree with the district court’s
factual findings, we may not reverse those findings
merely because we are “convinced that had [we] been
sitting as the trier[s] of fact, [we] would have weighed
the evidence differently.” Anderson, 470 U.S. at
573–74. As a federal appellate court, “we must let
district courts do what district courts do best—make
factual findings—and steel ourselves to respect what
they find.” Taglieri v. Monasky, 907 F.3d 404, 408 (6th
Cir. 2018). In reviewing a grant of permanent
injunction following a bench trial, we ask simply
whether the district court’s view of the evidence was
permissible. Anderson, 470 U.S. at 574.
The record supports each of the district court’s
factual findings. Expert testimony presented at trial,
supported by medical studies, suggested that digoxin
injections fail between 5% and 20% of the time.6 (Tr.
6

The Secretary also argues that even a 20% failure rate does not
make H.B. 454 facially invalid because this does not constitute an
undue burden on the requisite large fraction of individuals for
whom the restrictions are relevant. As this argument goes to the
appropriateness of facial relief, we address it in considering what
relief Plaintiffs are due. But at this juncture, it is worth noting

JA 107
Vol. I, R. 106 at PageID #4391; Tr. Vol. II, R. 107 at
PageID ##4675–76; Tr. Vol. IV, R. 103 at PageID
#3911.) We cannot override the district court’s decision
not to credit competing evidence that suggested the
lower bound of this failure rate is 2%, (e.g., Tr. Vol. I,
R. 106 at Page ID #4391; Tr. Vol. III-B, R. 102 at
PageID ##3737, 3743), and we would not be compelled
to conclude that digoxin injections are feasible even if
we could. As a legal matter, the Secretary also contends
that Plaintiffs should be bound by the statement in
their complaint that digoxin fails between 5% and 10%
of the time. But “[i]n order to qualify as [a] judicial
admission[], an attorney’s statement must be
deliberate, clear and unambiguous.” MacDonald v.
Gen. Motors Corp., 110 F.3d 337, 340 (6th Cir. 1997).
The complaint’s statement that “digoxin simply fails to
cause demise in approximately 5–10% of cases,”
(Compl., R. 1 at PageID #8 (emphasis added)), leaves
ample room for Plaintiffs to show that the failure rate
is higher.
Likewise, evidence supports the district court’s
conclusion that performing successive digoxin
injections would amount to an experimental medical
procedure, because no medical literature identifies the
correct dose for or the risks of a second digoxin
injection. (See, e.g., Tr. Vol. I, R. 106 at PageID
##4395–96; Tr. Vol. II, R. 107 at PageID #4678; Tr. Vol.

that digoxin injections’ failure rate is not the only thing that
makes them an infeasible workaround to H.B. 454. Thus, we need
not consider whether this failure rate, standing alone, would be
sufficient to suggest that H.B. 454 unduly burdens a large fraction
of the population it restricts.

JA 108
III-B, R. 102 at PageID #3792.) The court’s conclusion
regarding the use of digoxin injections before eighteen
weeks LMP is also well grounded: according to witness
testimony, no studies have been performed on the
efficacy, dosage, or safety of digoxin injections before
seventeen weeks, and just one study includes a few
individuals at seventeen weeks’ pregnancy. (Tr. Vol. I,
R. 106 at PageID ##4396–97; Tr. Vol. IV, R. 103 at
PageID ##3984–85.)
The court’s conclusion that digoxin injections are
not available to many patients also is not clearly
erroneous. Multiple experts testified that factors
including placental positioning, fetal positioning,
obesity, the presence of uterine fibroids, and the
presence of cesarean-section scars can interfere with or
prevent the successful administration of a digoxin
injection. (Tr. Vol. I, R. 106 at PageID ##4387–88; Tr.
Vol. III-B, R. 102 at PageID ##3793–94; Tr. Vol. IV, R.
103 at PageID ##4000–01.) Moreover, expert testimony
and studies suggested that patient contraindications—
including multiple gestations, fetal abnormalities,
digoxin or cardiac glycoside sensitivities and allergies,
cardiac abnormalities, renal failure, bleeding disorders,
and use of certain medications—may prevent the safe
administration of a digoxin injection. (Tr. Vol. I, R. 106
at PageID ##4388–90.) Despite the Secretary and the
dissent’s assertions otherwise, the district court’s
finding that digoxin injections are not generally
technically difficult to perform does not remotely
conflict with its conclusion that they cannot
successfully be performed on all patients or that they
are technically difficult to perform in some situations.
In the event that an individual cannot receive a digoxin

JA 109
injection for any of these reasons, H.B. 454 could
prevent her from receiving a D&E. There is no
exception to H.B. 454’s restrictions for those who
cannot undergo one of the proposed fetal-demise
procedures.7
While the district court’s opinion did not include
specific record citations to support its conclusion that
that digoxin injections subject patients to additional
health risks, Meier, 373 F. Supp. 3d at 818, this too is
supported by the evidence. Expert testimony
suggested that digoxin injections may increase
patients’ risk of vomiting, infection, bowel or intestinal
rupture, sepsis, and general hospitalization. (Tr. Vol. I,
R. 106 at PageID ##4400–06; Brady Dep., R. 112-1 at
PageID #5242.) Digoxin injections can also lead to
extramural delivery, meaning delivery outside a clinic
environment, which further increases medical risks
(including the risk of hemorrhaging) and may also be
painful and emotionally traumatic. (Tr. Vol. I, R. 106 at
PageID ##4405–09; Brady Dep., R. 112-1 at PageID
#5242.)

7

The only exception to H.B. 454’s prohibition is for instances of
“medical emergency.” (H.B. 454, R. 43-1 at PageID #244.) The
unavailability of a digoxin injection generally does not “so
complicate[] the medical condition of a pregnant female as to
necessitate the immediate abortion of her pregnancy to avert her
death or for which a delay will create a serious risk of substantial
and irreversible impairment of a major bodily function.” (Id.); Ky.
Rev. Stat. § 311.720(9). On appeal, the Secretary does not argue
that this medical exception covers any of the situations in which
a fetal-demise procedure would be unavailable.

JA 110
The Secretary says that these negative effects
rarely occur and dismisses them as “marginal or
insignificant risks generalized to the entire population
of women seeking . . . abortions [at the relevant time].”
(Def. Br. at 35 (alterations in original) (quoting
Women’s Med. Prof’l Corp. v. Taft, 353 F.3d 436, 447
(6th Cir. 2003)).)8 The Secretary draws this language
8

In his reply brief, the Secretary contends for the first time that
whether the three fetal-demise procedures pose significant risks is
a constitutional fact subject to de novo review. A constitutional fact
is one “upon which the enforcement of the constitutional rights of
the citizen depend.” Crowell v. Benson, 285 U.S. 22, 56 (1932); see
also Henry Paul Monaghan, Constitutional Fact Review, 85 Colum.
L. Rev. 229, 230, 254–55 (1985) (describing constitutional fact
review as “judicial review of the adjudicative facts decisive of
constitutional claims” and summarizing Crowell).
To be sure, this Court has explained, in the context of abortion
cases, that “an appellate court is to conduct an independent review
of the record when constitutional facts are at issue.” Voinovich, 130
F.3d at 192; see also Women’s Med. Prof’l Corp. v. Taft, 353 F.3d at
442. But we have not clarified what that “independent review”
means, nor have we identified any constitutional facts to which we
apply that independent review. See, e.g., Voinovich, 130 F.3d at
192; Women’s Med. Prof’l Corp. v. Taft, 353 F.3d at 442. In both of
the cases the Secretary cites to support his argument, the Court
reviewed legal questions pertaining to statutory construction,
including how a health exception in a statute regulating abortion
should be interpreted. Voinovich, 130 F.3d at 208–10; Women’s
Med. Prof’l Corp. v. Taft, 353 F.3d at 443–51. This Court did not
hold in either case that the existence of a significant health risk is
a constitutional fact. The Secretary’s argument turns on his
assertion that a law “imposes an undue burden only when the
regulation creates a substantial obstacle to previability abortion by
‘creat[ing] significant health risks’ for women,” implying that the
undue burden analysis turns exclusively on whether a law
presents significant health risks. (Def. Reply Br. at 10–11 (quoting
Gonzales v. Carhart, 550 U.S. 124, 162 (2007)).) Of course, in

JA 111
from Women’s Medical Professional Corp. v. Taft, in
which this Court considered whether a state could
forbid D&X abortions if the statute doing so provided
for a health exception. 353 F.3d at 446–47. Noting that
Supreme Court precedent required exceptions for
“when the procedure is necessary to prevent a
significant health risk,” this Court concluded that the
Supreme Court did not intend to require medical
exceptions to include “marginal or insignificant risks
generalized to the entire population of women seeking
late second-trimester abortions.” Id. We found it
significant that the law in question “specifically
exclude[d]” D&Es from its restrictions, as D&Es
provided a safe alternative to the D&X procedure. Id.
at 438, 451–53. As the Supreme Court later explained,
in comparing D&X and D&E abortions, there was
substantial medical uncertainty “over whether the
barred procedure [i.e., D&X] is ever necessary to
preserve a woman’s health, given the availability of
other abortion procedures that are considered to be safe
alternatives [i.e., D&E].” Gonzales, 550 U.S. at 166–67.
By contrast, under H.B. 454, an individual is left
with no safe alternative to undergoing a fetal-demise
procedure, and the record shows, with no medical

balancing the benefits and burdens H.B. 454 imposes, we consider
more than just health risks alone.
We consider the question of whether a procedure poses a
significant health risk a mixed question of fact and law. What risks
a procedure poses is a question of fact, and whether those risks are
significant is a question of law. Accordingly, we apply clear error
review to the former question and de novo review to the latter
question.

JA 112
uncertainty, that a D&E without a fetal-demise
procedure may be necessary to preserve an individual’s
health. Indeed, in every circumstance, a fetal-demise
procedure poses additional health risks beyond those
present with a D&E alone, and so it always places an
individual’s health in jeopardy. Accordingly, every
court to consider the question has found that digoxin
injections pose impermissible, significant risks to those
who would be compelled to undergo them. See, e.g.,
Williamson, 900 F.3d at 1323–24, 1327; Bernard, 392
F. Supp. 3d at 949, 960; Yost, 375 F. Supp. 3d at 858;
Paxton, 280 F. Supp. 3d at 949; Hopkins, 267 F. Supp.
3d at 1039, 1060–61; Evans, 977 F. Supp. at 1301,
1318; Schmidt, 368 P.3d at 678; see also Farmer, 220
F.3d at 145–46 (discussing digitalis, another cardiac
glycoside); Verniero, 41 F. Supp. 2d at 500 (same), aff’d
sub nom. Farmer, 220 F.3d 127; accord Meier, 373 F.
Supp. 3d at 818. We agree.
Finally, the district court found that digoxin
injections impose additional logistical and emotional
burdens on patients because they may increase the
length of the D&E procedure by a day and because they
require patients to undergo an additional invasive,
painful, and likely scary procedure. Meier, 373 F. Supp
3d at 818–19. The Secretary’s argument that D&E
procedures regularly take two days anyway is
unavailing; even if he is correct, the record suggests
that an additional day may be required for some
patients to undergo a digoxin injection. (See Tr. Vol. I,
R. 106 at PageID ##4396, 4432; Tr. Vol. II, R. 107 at
PageID #4768.)

JA 113
In sum, we see no error in the district court’s
analysis of the feasibility of using digoxin injections to
induce fetal demise prior to a D&E. Digoxin injection is
an unreliable procedure that may not effectively
cause fetal demise, presents unknown risks when
administered multiple times or before eighteen weeks,
may not be administrable at all based on the patient’s
health history and characteristics, increases medical
risks under any circumstance, and creates additional
emotional and logistical challenges for patients. Based
on these findings of fact, digoxin injections are not a
safe or effective workaround to H.B. 454.
2. Potassium Chloride Injections
As a second possibility, the Secretary suggests that
an abortion provider may induce fetal demise by
injecting potassium chloride into the fetus or the fetal
heart. As described by the district court, physicians
using this method “begin by using an ultrasound
machine to visualize the patient’s uterus and fetus. The
physician then inserts a long surgical needle through
the woman’s skin, abdomen, and uterine muscle, and
then into either the fetus or, more specifically, the fetal
heart.” Meier, 373 F. Supp. 3d at 819. At this stage, the
fetal heart is approximately the size of a dime. Id. If
injected into the fetal heart, potassium chloride causes
fetal demise almost immediately. Id. The physician
may then perform a standard D&E.
The district court found that potassium chloride
injections were not a feasible method for inducing fetal
demise for three reasons. First, potassium chloride
injections cannot be completed on every individual
seeking a D&E. Id. at 820. Second, they subject

JA 114
patients to serious health risks. Id. Third, potassium
chloride injections are extremely challenging and
require substantial technical training to perform—
training that the physician Plaintiffs do not have and
cannot easily acquire. Id. at 819–20.
In contesting the district court’s first finding, the
Secretary again quibbles with the district court’s
decision to credit Plaintiffs’ expert testimony over his
own. But ample evidence grounded the district court’s
conclusion that potassium chloride injections would not
be successful for many seeking a D&E—because of
factors including obesity, fetal and uterine position,
cesarean-section or other scar tissue, and uterine
fibroids—in addition to the procedure’s independent
possibility of failure. (Tr. Vol. I, R. 106 at PageID
##4423, 4551–52; Tr. Vol. IV, R. 103 at PageID ##3966,
4187–89.)
With regard to the district court’s second finding,
the Secretary does not dispute that potassium chloride
injections pose health risks to patients. And the record
clearly suggested that potassium chloride injections
increased patients’ risks of infection, bleeding,
cramping, uterine or bowel perforation, uterine atony
and hemorrhaging, and cardiac arrest. (See, e.g., Tr.
Vol. I, R. 106 at PageID ##4423–24, 4561–62; Tr. Vol.
III-B, R. 102 at PageID ##3802–06; Tr. Vol. IV, R. 103
at PageID ##4198–99.) The Secretary does contest the
significance of these risks, but this argument fails for
the same reasons it failed previously. H.B. 454 cannot
be said to impose only marginal or insignificant risks
because no safe alternative exists and because it
requires every individual seeking a D&E abortion to

JA 115
expose themselves to these risks. Again, every court to
consider whether potassium chloride injections present
substantial risk has agreed that they do. Williamson,
900 F.3d at 1322, 1324, 1327; Farmer, 220 F.3d at
145–46; Bernard, 392 F. Supp. 3d at 950–51, 960; Yost,
375 F. Supp. 3d at 860, 868; Paxton, 280 F. Supp. 3d at
950–51; Hopkins, 267 F. Supp. 3d at 1040, 1062–63;
Verniero, 41 F. Supp. 2d at 500, aff’d sub nom. Farmer,
220 F.3d 127; Evans, 977 F. Supp. at 1301, 1318;
accord Meier, 373 F. Supp. 3d at 820.
Regarding the district court’s finding that
potassium chloride injections require technical skill
and training that is not available to Plaintiffs, the
Secretary argues that this is no issue. Even if the
physician Plaintiffs themselves do not have and cannot
acquire the requisite training, the Secretary says,
EMW can simply hire physicians who do. According to
the Secretary, because EMW has not attempted to hire
such physicians, Plaintiffs themselves have caused this
obstacle to abortion access, not H.B. 454.
This argument misses the point. Whether Plaintiffs
could find some way to provide potassium chloride
injections is only relevant if those injections otherwise
present a feasible workaround to H.B. 454. They do
not. Potassium chloride injections cannot be performed
on many patients and present substantial added health
risks even when they can be. It would be irrational to
require Plaintiffs to go to the effort and expense of
attempting to hire other physicians in order to prove
that they cannot make a dangerous and potentially
ineffective procedure available to their patients. The
burden here is undoubtedly caused by H.B. 454.

JA 116
But even setting this analysis aside, the Secretary’s
argument also fails for other reasons. First, neither
Supreme Court precedent nor this Court’s precedent
requires Plaintiffs to prove that EMW could not have
hired physicians with the skills and training necessary
to perform potassium chloride injections. For this
proposition, the Secretary cites Gonzales, noting that
physicians need not have “unfettered choice” in what
abortion procedures they may use and that regulations
may require them to perform procedures that are
“standard medical options.” (Def. Br. at 20 (quoting
Gonzales, 550 U.S. at 163, 166).) But the point of the
district court’s findings is that potassium chloride
injection is not a standard medical option, and
Plaintiffs could not provide that procedure even if they
would so choose, because they have no available avenue
to develop the necessary skills. We agree.
The Secretary cites to June Medical Services L.L.C.
v. Gee, 905 F.3d 787 (5th Cir. 2015), cert. granted, 140
S. Ct. 35 (2019), to support his argument. In that case,
the Fifth Circuit upheld a Louisiana law requiring
abortion providers to gain admitting privileges at a
nearby hospital. The court found that the plaintiff
physicians had failed to show that the law presented an
undue burden because they had not applied for
admitting privileges or otherwise shown that had they
“put forth a good-faith effort to comply with [the law],
they would have been unable to obtain privileges.” Id.
at 807. Because the plaintiffs failed to make this
showing, the Fifth Circuit concluded that “[t]heir
inaction severs the chain of causation.” Id. But see id.
at 830 (Higginbotham, J., dissenting) (explaining that
Hellerstedt “did not require proof that every abortion

JA 117
provider . . . put in a good-faith effort to get privileges
and had been unable to do so”). The Fifth Circuit thus
took issue not with the plaintiffs’ failure to attempt to
hire or replace themselves with other physicians who
had admitting privileges, but with their failure to show
that they could not have obtained admitting privileges
had they tried. See id. at 807. In the case at bar, the
district court found that Plaintiffs “have no practical
way to learn how to perform this procedure safely,” due
to “the length of time it would take to learn the
procedure and the lack of training available within the
Commonwealth.” Meier, 373 F. Supp. 3d at 820. The
Secretary does not dispute this finding, and the record
supports it. (See, e.g., Tr. Vol. I, R. 106 at PageID
##4573–74; Tr. Vol. II, R. 107 at PageID ##4732–33; Tr.
Vol. IV, R. 103 at PageID ##4185–86.) Thus, plaintiffs
succeed even under the heightened showing required
by the Fifth Circuit in Gee.
Still, Supreme Court precedent does not support
such a requirement. Nor does Sixth Circuit precedent.
Notably, the Supreme Court granted a stay of the Fifth
Circuit’s decision, Gee, 139 S. Ct. 663 (2019) (mem.),
and the Court does not stay a decision absent a
“significant possibility that the judgment below will be
reversed,” Philip Morris U.S.A. Inc. v. Scott, 561 U.S.
1301, 1302 (2010). Far from requiring plaintiffs to
specifically and affirmatively show good-faith efforts to
comply with a challenged law, Supreme Court
precedent suggests that plaintiffs may demonstrate an
undue burden “by presenting direct testimony as well
as plausible inferences to be drawn” from the evidence,
Hellerstedt, 136 S. Ct. at 2313, including the inference
that any good-faith efforts would fail to alleviate the

JA 118
burden. Common sense suggests that when only a
small subset of physicians have undergone the
extensive training required to perform a procedure, it
would be difficult to impossible for an abortion clinic to
recruit one of those physicians. Still, the relevant
question in abortion cases is not whether it would
unduly burden a provider to comply with a law, but
whether compliance would unduly burden their
patients’ right to elect abortion prior to viability. And
it is even clearer that should Kentucky require a
procedure that only a small subset of physicians can
administer—in comparison to the large number who
can administer a D&E—it would restrict the number of
D&Es that could be provided in Kentucky, thereby
burdening those seeking a D&E.
Altogether, the district court’s well-supported
findings suggest that if patients were required to
undergo a potassium chloride injection prior to a D&E,
they would be subjected to a medically risky and
unreliable procedure, which they may not be able to
receive successfully and to which they would have only
limited access, given the dearth of Kentucky providers
trained to administer the procedure. These findings
demonstrate that potassium chloride injections are not
a feasible workaround to H.B. 454.
3. Umbilical Cord Transection
Finally, the Secretary suggests that abortion
providers may induce fetal demise through umbilical
cord transection. To administer this procedure, the
physician first dilates a patient’s cervix and then—
using an ultrasound for guidance—ruptures the
amniotic membrane in order to allow access inside the

JA 119
amniotic sac, where the umbilical cord is located. This
causes the amniotic fluid to drain from the uterus,
shrinking its size and making it more difficult to
visualize and grasp the umbilical cord. The physician
then inserts an instrument through the cervix and
locates the umbilical cord, which at this stage is
approximately the width of a piece of yarn. Grasping
the umbilical cord, the physician inserts another
instrument through the cervix and cuts the cord. Once
the cord is cut, the physician waits for the fetal
heartbeat to stop, which can take up to ten minutes.
The physician may then administer a standard D&E.
The district court found that this, too, was not a
workable method for inducing fetal demise. It provided
three reasons for that finding. First, umbilical cord
transection is technically challenging because of the
difficulty of visualizing the uterus and locating and
grasping the umbilical cord. Meier, 373 F. Supp. 3d at
821 (citing Tr. Vol. I, R. 106 at PageID ##4434–36; Tr.
Vol. II, R. 107 at PageID ##4669–70, 4672). Second, it
is essentially experimental because there has only been
one study focused on the procedure. Id. (citing Tr. Vol.
I, R. 106 at PageID ##4438–41; Tr. Vol. III-B, R. 102 at
PageID ##3808–09). Finally, umbilical cord transection
carries serious health risks, including blood loss,
infection, and uterine injury. Id. at 821–22 (citing Tr.
Vol. I, R. 106 at PageID ##4436–37; Tr. Vol. II, R. 107
at PageID ##4669, 4673).
The Secretary does not meaningfully challenge any
of these findings, which again are more than
adequately supported by the record. He argues only
that the one study of umbilical cord transection

JA 120
suggests the procedure is feasible, safe, and effective,
as does the fact that an EMW expert and an EMW
doctor had performed umbilical cord transections in the
past. But on clear error review, we will not override the
district court’s decision not to credit a single medical
study after finding that it “does not provide the type or
quality of evidence that warrants reaching generalized
conclusions about the feasibility or reliability of
umbilical cord transection.” Id. at 821. And the simple
fact that umbilical cord transections have been
performed at some point does not suggest that they are
safe in every instance or that they pose no additional,
significant risks to those who would be compelled to
undergo them.
The Secretary also takes issue with the district
court’s statement that umbilical cord transections
“pose[] another hurdle for the provider because if they
cut fetal tissue instead of, or in addition to the cord”
while searching for it in the uterus, “they have
arguably violated the Act.” Id. (citing Tr. Vol. I., R. 106
at PageID ##4435–36; Tr. Vol. II, R. 107 at PageID
##4669–70). The Secretary responds that, because of
H.B. 454’s intent requirement, it does not apply when
a physician accidentally dismembers a fetus prior to
demise, and so it would not be enforced against a
physician in this circumstance. But, as the Eleventh
Circuit has explained in a similar case, “[m]id-litigation
assurances are all too easy to make and all too hard to
enforce, which probably explains why the Supreme
Court has refused to accept them.” Williamson, 900
F.3d at 1328 (citing Stenberg, 530 U.S. at 940–41);
accord Stenberg, 530 U.S. at 945–46; Yost, 375 F. Supp.
3d at 868. Nor does this argument disturb the court’s

JA 121
conclusion that the technical difficulty of umbilical cord
transection makes it an infeasible workaround to H.B.
454.
Taken together, these findings demonstrate that
should patients be required to undergo an umbilical
cord transection prior to receiving a D&E, they would
be subjected to a medically risky and experimental
procedure that, given its technical challenges, fewer
providers may be equipped to administer. These
findings inevitably lead to the conclusion that umbilical
cord transection—like digoxin and potassium chloride
injections—is not a feasible workaround to H.B. 454.
B. Benefits
After taking stock of the burdens imposed by H.B.
454, we must next consider the Act’s benefits. The
Secretary asserts that H.B. 454 provides three primary
benefits: It “shows Kentucky’s profound respect for
unborn life. It eliminates the possibility of unborn
children feeling pain while being dismembered. And [it]
protects the integrity of the medical profession.” (Def.
Br. at 57.)
The Secretary contends that a statement by the
district court—namely, “the fact that the Act furthers
legitimate state interests does not end this
constitutional inquiry”—suggests the district court
found that H.B. 454 did advance the Commonwealth’s
asserted interests. See Meier, 373 F. Supp. 3d at 817.
This conclusion is debatable, at best.
The district court clearly concluded that H.B. 454
did not benefit the Commonwealth’s interest in
preventing fetal pain because “it is very unlikely that

JA 122
a fetus can feel pain before 24 weeks,” at which point
physicians no longer perform D&Es. Id. at 823; accord
Yost, 375 F. Supp. 3d at 865. In so finding, the court
dismissed the Secretary’s expert’s testimony suggesting
that a fetus may feel pain as early as fifteen weeks,
purportedly because the development of a fetus’s ability
to feel pain is like “a dimmer switch” that “turn[s] on
over weeks of development.” (Tr. Vol. IV, R. 103 at
PageID ##4020–21); Meier, 373 F. Supp. 3d at 822.
Instead, the court credited Plaintiffs’ expert testimony,
supported by multiple studies, that it is not possible for
a fetus to feel pain before twenty-four weeks because
“fetal pain perception requires consciousness, which in
turn requires two elements absent in a fetus before 24
weeks: intact [neural] connections from the periphery
[of the brain] to the thalamus and then to the cortex,
and a sufficiently developed cerebral cortex.” Meier, 373
F. Supp. 3d at 822 (citing Tr. Vol. IV, R. 103 at PageID
##4140–55, 4180–82, 4210). Given the abundant
evidence supporting Plaintiffs’ account of pain
perception, the district court’s conclusion was not
clearly erroneous. And, accepting that a fetus cannot
feel pain during the period in which D&Es are
administered, we conclude that H.B. 454 does not
benefit this Commonwealth interest.
The district court made no clear findings
regarding whether or how H.B. 454 advanced the
Commonwealth’s interest in demonstrating respect for
the dignity of human life. Upon consideration, we note
that the Commonwealth’s interests in preventing fetal
pain and demonstrating respect for human life are
substantially intertwined, if not subsumed in one
another. While H.B. 454 would prohibit separation of

JA 123
fetal tissue prior to fetal demise, it would not prohibit
separation of fetal tissue following fetal demise. The
most obvious potential benefit to separating fetal tissue
post-demise rather than pre-demise is that it
eliminates any possibility of fetal pain. But the district
court permissibly found that it is impossible for a fetus
to feel pain during the period in which D&Es are
administered, and so H.B. 454 provides no benefit in
that regard. Nevertheless, even recognizing the
impossibility of fetal pain at this point, some may
believe that separating fetal tissue prior to fetal demise
is more “brutal and inhumane” than or “implicates
additional ethical and moral concerns” beyond those
implicated by separating fetal tissue following demise.
See Gonzales, 550 U.S. at 157–158. In recognition of
that fact, we assume that H.B. 454 provides some
limited benefit in this regard. See Women’s Med.
Prof’l Corp. v. Taft, 353 F.3d at 444 (“[A state’s]
expression of . . . important and legitimate interests
warrants a measure of deference . . . .”).
Turning to the Commonwealth’s final interest in
protecting the ethics, integrity, and reputation of the
medical profession, the district court also came to no
clear findings or conclusions regarding if or how H.B.
454 benefited this interest. We note that H.B. 454
would require physicians to subject their patients to
additional harmful, experimental, and invasive medical
procedures, in contravention of their ethical duties.
(See, e.g., Tr. Vol. II, R. 107 at PageID ##4819–20
(“H.B. 454 is inconsistent with the principle of
nonmaleficence, the principle that physicians should
not do unjustified harm to their patients” because
fetal-demise procedures “offer[] only risks to [the

JA 124
patient], only the risk of harm, and do[] not offer [the
patient] any potential for medical benefits.”).) And to
the extent that physicians have any obligation to not do
harm to a fetus, performing a D&E on a fetus prior to
fetal demise subjects it to little harm, if any, because it
cannot feel pain. If H.B. 454 provides any benefit to the
Commonwealth’s interest in the medical profession, it
also provides countervailing damage to that interest.
We therefore conclude that H.B. 454 provides little to
no benefit in this regard.
C. Balancing
Altogether, H.B. 454 imposes substantial burdens
on the right to choose. Because none of the fetal-demise
procedures proposed by the Secretary provides a
feasible workaround to H.B. 454’s restrictions, it
effectively prohibits the most common second-trimester
abortion method, the D&E. In the balance against
these burdens, we weigh the minimal benefits that
H.B. 454 provides with respect to the Commonwealth’s
asserted interests. These benefits are vastly
outweighed by the burdens imposed by H.B. 454.9
Thus, H.B. 454 unduly burdens the right to choose, in
violation of the Fourteenth Amendment.

9

The Secretary takes issue with the district court’s interpretation
of Hellerstedt as establishing that a regulation constitutes an
undue burden when the burdens it imposes exceed its benefits. The
Secretary argues that a regulation constitutes an undue burden
only when the burdens it imposes substantially outweigh its
benefits. But we need not decide this question today. H.B. 454 fails
under any version of the undue burden analysis because it
provides minimal benefit while imposing substantial burdens on
the right to elect an abortion prior to viability.

JA 125
Should H.B. 454 be allowed to go into effect, it
would cause Plaintiffs’ patients to suffer “‘continuing
irreparable injury’ for which there is no adequate
remedy at law.” Baird, 438 F.3d at 602 (quoting
Kallstrom, 136 F.3d at 1067). The Secretary does not
dispute the district court’s determinations as to any of
the other elements of the permanent injunction
analysis. In any event, those arguments would be
without merit.
Summary
Because the burdens imposed by H.B. 454
dramatically outweigh any benefit it provides, H.B. 454
unduly burdens an individual’s right to elect to have an
abortion prior to viability. Thus, H.B. 454 violates the
Fourteenth Amendment. We affirm.
II.
We turn, then, to the appropriate relief. Plaintiffs
sought—and the district court granted—facial relief
in the form of a declaration that H.B. 454 is
unconstitutional and a permanent injunction against
the enforcement of H.B. 454. Meier, 373 F. Supp. 3d at
826. Facial relief is available when a challenged law
places a substantial obstacle in the path of an
individual’s access to abortion prior to viability in “a
large fraction of cases in which [the provision at issue]
is relevant.” Hellerstedt, 136 S. Ct. at 2320
(alteration in original) (emphasis omitted) (quoting
Casey, 505 U.S. at 895). The Secretary argues that the
district court wrongly declared H.B. 454 facially
unconstitutional.

JA 126
In place of a facial challenge, the Secretary asserts,
Plaintiffs’ claims are better handled through asapplied challenges. Gonzales explained that as-applied
challenges are “the proper manner to protect the health
of the woman if it can be shown that in discrete and
well-defined instances a particular condition has or is
likely to occur in which the procedure prohibited by the
Act must be used.” 550 U.S. at 167. Based on this, the
Secretary contends that situations where fetal-demise
procedures are not feasible due to “side effects, failed
injections, contraindications, the inability to perform
fetal death procedures on certain women, and the
alleged inability to perform digoxin injections before 18
weeks” are such “discrete and well-defined instances”
that the individuals who face them should instead
bring as-applied challenges. (Def. Br. at 61–62.)
But this set of circumstances is not “discrete and
well-defined,” because individuals cannot anticipate
whether they will suffer from side effects or failed
injections. As Plaintiffs point out, those in the midst of
failing procedures or suffering from side effects cannot
rewind time and litigate an as-applied challenge
because they will “already have suffered the very harm
the Constitution prohibits Kentucky from inflicting on
[them].” (Pls. Br. at 62.) Nor are H.B. 454’s burdens
limited to those who find themselves in the situations
the Secretary describes—others will be exposed to
added emotional and logistical burdens, to potentially
dangerous and experimental procedures, and to the
risk that their fetal-demise procedure may go awry.
In his broader challenge to the district court’s award
of facial relief, the Secretary contends that the district

JA 127
court used the wrong denominator to decide whether
H.B. 454 unduly burdens a large fraction of
individuals. As the Supreme Court has explained, “the
relevant denominator is ‘those [women] for whom [the
provision] is an actual rather than an irrelevant
restriction.’” Hellerstedt, 136 S. Ct. at 2320
(alterations in original) (quoting Casey, 505 U.S. at
895). The district court determined that the relevant
denominator was all individuals seeking a D&E during
the time frame in which that procedure is typically
administered. Meier, 373 F. Supp. 3d at 824–25;
accord, e.g., Williamson, 900 F.3d at 1326; Bernard,
392 F. Supp. 3d at 963; Paxton, 280 F. Supp. 3d at 952;
Hopkins, 267 F. Supp. 3d at 1067. The Secretary
argues that the denominator should also include
individuals contemplating an abortion even before the
point in pregnancy when D&Es are performed, because
they might choose to get an abortion prior to thirteen
weeks, rather than have to undergo a fetal-demise
procedure. We disagree. The question is not whether an
individual seeking an abortion might consider H.B. 454
relevant, but whether H.B. 454 actually applies to
restrict her. H.B. 454 is not responsible for preventing
someone from having a D&E before the point that
D&Es are performed; therefore, H.B. 454 does not
actually restrict such individuals and they are not
properly considered in the denominator.
The question then becomes what portion of this
population would be unduly burdened by H.B. 454.
The Secretary complains that the district court did
not adequately define or estimate the number of
individuals who would be unduly burdened by H.B.
454. To the contrary, the district court did estimate the

JA 128
number of relevant individuals who would be
burdened: its estimate was 100%. Meier, 373 F. Supp.
3d at 824. The Secretary counters that H.B. 454 at
most unduly burdens those who suffer from “side
effects, failed injections, and conditions that make
fetal-demise procedures more difficult (obesity, fibroids,
etc.) or impossible (contraindications).” (Def. Br. at 59.)
He asserts that this population is relatively small and
does not make up 100% of the population seeking a
D&E.
Again, we disagree. H.B. 454 does not burden only
those who suffer from side effects, failed indications,
and the aforementioned conditions. All individuals who
seek a D&E abortion in the second trimester must
undergo a fetal-demise procedure. For some, these
procedures may not be possible, and H.B. 454 may
prevent them from receiving a D&E altogether. They
would surely be unduly burdened. Some more may
discover, mid-procedure, that an injection has failed,
that the umbilical cord cannot be located, or that some
other complication occurred. They, too, would be
unduly burdened by the medical harm the procedure
causes or by being compelled to undergo additional,
untested medical procedures to induce fetal demise.
But all those required to undergo a fetal-demise
procedure will be compelled to expose themselves to the
negative consequences to their health, to invest
additional time in the procedure, and to subject
themselves to an additional invasive and potentially
experimental procedure. Thus, the district court
correctly found that 100% of the relevant population
would be unduly burdened by this law.

JA 129
The dissent, for its part, presents a new argument
on the Secretary’s behalf. It says that “H.B. 454 will
not operate as a substantial obstacle to those women
who prefer digoxin injections.” This argument is
meritless, even if we could set aside the lack of factual
findings on this issue and assume that some
individuals may indeed prefer to undergo a fetaldemise procedure before a D&E. An obstacle is an
obstacle, regardless of whether some might be willing
to overcome it. Even those who may be willing to
subject themselves to a fetal-demise procedure are
exposed to the medical risks, uncertain consequences,
potential unavailability, and time and emotional
burden that procedure entails.
The Secretary next asserts that in order for H.B.
454 to constitute an undue burden, “practically all” of
the individuals affected must face a substantial
obstacle to abortion access. (Id. at 40–41, 58 (quoting
Cincinnati Women’s Servs., Inc. v. Taft, 468 F.3d 361,
369 (6th Cir. 2006)); Def. Reply Br. at 29.) As
explained, H.B. 454 unduly burdens not just
“practically” all, but actually all of the individuals
affected, and so this argument is factually meritless.
This argument is also legally meritless. In
Cincinnati Women’s Services, this Court explained that
it “has previously found that a large fraction exists
when a statute renders it nearly impossible for the
women actually affected by an abortion restriction to
obtain an abortion.” 468 F.3d at 373 (citing Voinovich,
130 F.3d at 201). It did not suggest that this is the only
circumstance in which we will find that a large fraction
exists. And the “practically all” language that the

JA 130
Secretary cites comes from this Court’s suggestion that
“[o]ther circuits . . . [have] only found a large fraction
when practically all of the affected women would face
a substantial obstacle.” Id. (emphasis added). In fact,
Cincinnati Women’s Services avoided identifying a
threshold at which this Court might find that a “large
fraction” of individuals are unduly burdened, but it
implied that threshold could be even less than a
majority of women affected. See id. at 374. The Court
explained that “a challenged restriction need not
operate as a de facto ban for all or even most of the
women actually affected,” but “the term ‘large
fraction’ which, in a way, is more conceptual than
mathematical, envisions something more than the 12
out of 100 women identified here.” Id. There can be no
question that H.B. 454 burdens considerably more than
the fraction at issue in Cincinnati Women’s Services.
The Secretary further argues that the district court
did not properly address his contention that there is no
burden because “affected women can simply travel to
other nearby clinics” outside of Kentucky. (Def. Br. at
60–61.) On this point, the Secretary attempts to
“incorporate[] his arguments” from E.M.W. Women’s
Surgical Center, P.S.C. v. Meier, No. 18-6161 (6th Cir.
argued Aug. 8, 2019), which is currently pending before
a panel of this Court. He claims that “five circuit judges
agree with [him] on this point.” (Id. at 61 n.9 (citing
Planned Parenthood of Wis., Inc. v. Schimel, 806 F.3d
908, 933–34 (7th Cir. 2015) (Manion, J., dissenting);
Whole Woman’s Health v. Cole, 790 F.3d 563, 596–98
(5th Cir. 2015) (per curiam), rev’d on other grounds by
Hellerstedt, 130 S. Ct. at 2292; Jackson Women’s

JA 131
Health Org. v. Currier, 760 F.3d 448, 461–67 (5th Cir.
2014) (Garza, J., dissenting)).)
We reject the Secretary’s argument out of hand.
This Circuit has firmly established that, on appeal,
parties may not even “incorporat[e] by reference . . .
arguments made at various stages of the proceeding in
the district court.” Northland Ins. v. Stewart Title
Guar. Co., 327 F.3d 448, 452 (6th Cir. 2003). They
certainly may not incorporate arguments made in
altogether different proceedings. And the authorities
the Secretary cites in support of his proposition are of
no assistance. The only majority decision supporting
his point has been overturned by the Supreme Court,
and dissenting opinions from out-of-circuit cases are of
no weight in our analysis. Moreover, many more circuit
judges—indeed, many more circuit courts, including
the majority in two of the cases the Secretary cites—
have rejected this argument. See, e.g., Azar, 925 F.3d at
1332 (“The undue-burden framework has never been
thought to tolerate any burden on abortion the
government imposes simply because women can leave
the jurisdiction.”); Schimel, 806 F.3d at 918–19
(rejecting as “untenable” the proposition that “the harm
to a constitutional right [can be] measured by the
extent to which it can be exercised in another
jurisdiction” (alteration in original) (quoting Ezell v.
City of Chicago, 651 F.3d 684, 697 (7th Cir. 2011)));
Currier, 760 F.3d at 449 (holding that a state “may
not shift its obligation to respect the established
constitutional rights of its citizens to another state”).
As the Supreme Court explained in Missouri ex rel.
Gaines v. Canada, 305 U.S. 337, 350 (1938), obligations
are “imposed by the Constitution upon the States

JA 132
severally as governmental entities—each responsible
for its own laws establishing the rights and duties of
persons within its borders.” States may not shift the
burden of their constitutional obligations to other
states, “and no State can be excused from performance
by what another State may do or fail to do.” Id.
As a last attempt to save H.B. 454, the Secretary
contends that this Court should tailor its remedy by
granting only limited injunctive relief. The Secretary
asks this Court to “take[] a scalpel-like approach” and
carve out H.B. 454’s unconstitutional applications from
its purported constitutional applications, leaving intact
some skeleton of the prior Act. (Def. Br. at 62.) This
argument fails for several reasons. First, the Secretary
did not make this argument before the district court,
and so it is not preserved for our review. See, e.g., Big
Dipper Entm’t v. City of Warren, 641 F.3d 715, 719–20
(6th Cir. 2011). But even if he had made this argument,
we cannot “rewrit[e] state law to conform it to
constitutional requirements.” Ayotte v. Planned
Parenthood of N. New England, 546 U.S. 320, 329
(2006) (quoting Virginia v. Am. Booksellers Ass’n, Inc.,
484 U.S. 383, 397 (1988)). Specifically, we are “without
power to adopt a narrowing construction of a state
statute unless such a construction is reasonable and
readily apparent.” Stenberg, 530 U.S. at 944 (quoting
Boos v. Barry, 485 U.S. 312, 330 (1988)). H.B. 454 does
not even mention the fetal-demise procedures that the
Secretary claims provide ready workarounds to its
otherwise-complete prohibition of D&E abortions. It
certainly cannot be construed to require those
procedures in only the specific situations the Secretary
identifies. And even if it could be, our undue burden

JA 133
analysis suggests that H.B. 454 unduly burdens one’s
right to elect an abortion prior to viability even in those
situations.
Summary
H.B. 454 imposes an undue burden on not just a
large fraction, but all of the individuals it restricts, and
so facial relief is appropriate. We cannot rewrite H.B.
454 in order to limit that relief to certain especially
unconstitutional applications of the law. Accordingly,
we affirm the district court’s grant of facial relief in the
form of a permanent injunction.
CONCLUSION
For these reasons, we AFFIRM the district court’s
decision.
_________________
DISSENT
_________________
JOHN K. BUSH, Circuit Judge, dissenting. This
case concerns a statute, H.B. 454, that affects women’s
rights to abortions under the Fourteenth Amendment.
What’s odd about this case—but not unusual in the
abortion context—is that not a single person whose
constitutional rights are directly impacted by the law
is a party to the case. What’s even odder—but again,
not uncommon in abortion litigation—is that none of
those individuals even testified at trial. In many cases
the absence of the very people that the case is about
would be the end of the matter: the case would be
dismissed for lack of standing. But in abortion
cases, courts have held that the absence of the

JA 134
constitutionally-affected parties does not matter. In
such cases the interests of the abortion providers who
bring the suit are deemed to be aligned with those of
the affected parties, their patients.
Here, however, there is a potential conflict of
interest between Plaintiffs and their patients: for
whatever reason—be it financial, litigation strategy, or
otherwise—EMW’s physicians have refused to obtain
the necessary training to perform fetal demise, even
though uncontroverted studies presented at trial show
that many, and perhaps a substantial majority, of
women would choose fetal demise before undergoing a
D&E procedure. Such women may favor the effect of
H.B. 454, which would, among other things, require
EMW’s doctors to be trained in fetal demise if they are
to perform the D&E procedure. Contrary to this patient
preference, EMW’s doctors simply do not want to
provide fetal demise before a D&E procedure, and their
opposition to fetal demise creates a potential conflict of
interest that deprives them of standing to bring this
facial challenge against H.B. 454.
Plaintiffs are two abortion providers and an
abortion clinic. Their only claims for relief rest on the
premise that H.B. 454 “violates Plaintiffs’ patients’
right to liberty . . . privacy . . . [and] bodily integrity
guaranteed by the due process clause of the Fourteenth
Amendment to the U.S. Constitution.” Plaintiffs’ claim
is thus based solely on the rights of their patients,
because abortion providers “do not have a Fourteenth
Amendment right to perform abortions.” Planned
Parenthood of Greater Ohio v. Hodges, 917 F.3d 908,
912 (6th Cir. 2019) (en banc). The Majority holds that

JA 135
Plaintiffs have third-party standing to sue on behalf of
their patients, but it does not sufficiently fulfill our
“independent obligation to assure that standing exists.”
Summers v. Earth Island Inst., 555 U.S. 488, 499
(2009).1
Oral argument in this case highlighted why
Plaintiffs do not have standing because of the potential
conflict of interest identified above. Plaintiffs’ counsel
was asked what EMW’s physicians would do if a
patient asked for fetal demise before a D&E. The
answer of Plaintiffs’ counsel made clear that the

1

Defendants challenged Plaintiffs’ standing before the district
court, (R. 108 at PageID 5034–35), but even if they had not, and
contrary to the Majority’s assertion, we would not be relieved of
our duty to ensure that standing requirements have been met. See
Cmty. First Bank v. Nat’l Credit Union Admin., 41 F.3d 1050, 1053
(6th Cir. 1994) (holding that there is “no authority for the
plaintiffs’ argument that prudential standing requirements may
be [forfeited] by the parties” and declining to “recogniz[e] a
distinction between prudential and constitutional standing
requirements in this context”); see also Am. Immigration Lawyers
Ass’n v. Reno, 199 F.3d 1352, 1357 (D.C. Cir. 2000) (“[I]n this
circuit we treat prudential standing as akin to jurisdiction, an
issue we may raise on our own”); MainStreet Org. of Realtors v.
Calumet City, Ill., 505 F.3d 742, 747 (7th Cir. 2007)
(“[N]onconstitutional lack of standing belongs to an intermediate
class of cases in which a court can notice an error and reverse on
the basis of it even though no party has noticed it”); Thompson v.
Cty. of Franklin, 15 F.3d 245, 248 (2d Cir. 1994) (holding that “we
have an independent obligation to examine . . . [prudential]
standing under arguments not raised below”). In creating a
distinction between Article III standing and prudential standing
in the forfeiture context, the Majority opinion conflicts with the
clear weight of the law, including precedent from this court. (See
Majority Op. at n.2).

JA 136
physicians would do nothing to honor this request and
that her only option would be to travel out of state for
the procedure. This admission and the evidence
presented at trial demonstrate a potential conflict of
interest that destroys Plaintiffs’ standing to bring this
facial constitutional challenge against H.B. 454.
I.
Whether a plaintiff has standing to bring suit is
“the threshold question in every federal case.” Warth v.
Seldin, 422 U.S. 490, 498 (1975). Examination of the
standing issue “involves two levels of inquiry.” Planned
Parenthood Ass’n of Cincinnati, Inc. v. City of
Cincinnati, 822 F.2d 1390, 1394 (6th Cir. 1987). The
first is “of a constitutional dimension” and involves
determining whether the plaintiff has suffered an
injury in fact that is likely to be redressed by a
favorable decision. Id. (citing Simon v. Eastern
Kentucky Welfare Rights Org., 426 U.S. 26, 38 (1976)).
The second is “prudential” and concerns whether “the
plaintiff is the proper proponent of the rights on which
the action is based.” Id. (citing Singleton v. Wulff, 428
U.S. 106, 112 (1976)).
Relevant to the second inquiry, the Supreme Court
has held that generally, a plaintiff “must assert his
own legal rights and interests, and cannot rest his
claim to relief on the legal rights or interest of [other]
parties.” Warth v. Seldin, 422 U.S. 490, 499 (1975)
(citing Tileston v. Ullman, 318 U.S. 44 (1943) (per
curiam)). There is a “limited . . . exception” to this
general rule when the third party can show: (1) that
the third party has “a ‘close’ relationship with the
person who possesses the right,” and (2) that “there is

JA 137
a ‘hindrance’ to the possessor’s ability to protect his
own interests.” Kowalski v. Tesmer, 543 U.S. 125,
129–30 (2004) (citation omitted).2
In Singleton v. Wulff, a case involving a challenge to
limits on Medicaid funding for abortions in Missouri, a
plurality of the Supreme Court held that the
plaintiff-physicians satisfied the closeness and
hindrance requirements for third-party standing.

2

Although I am bound by this court’s and the Supreme Court’s
precedent that third-party standing is a question of prudential
jurisdiction, I note that constitutional considerations also
underlie my conclusion that Plaintiffs lack standing in this case.
See Lexmark Int’l v. Static Control Components, 572 U.S. 118, 127
n.3 (2014) (reserving the question of whether third-party standing
should be treated as a component of Article III jurisdiction). I have
my doubts that an injury can be “particularized” enough to
constitute an injury in fact when the alleged injury belongs solely
to a third party, as it does here. See Lujan v. Defs. Of Wildlife, 504
U.S. 555, 560 n.1 (1992) (“By particularized, we mean that the
injury must affect the plaintiff in a personal and individual way.”).
Due process concerns also drive my decision. Plaintiffs are
essentially seeking to act as a representative for a class of all their
patients affected by H.B. 454. The Due Process Clause requires
“that the named plaintiff at all times adequately represent the
interests of the absent class members.” Phillips Petroleum Co. v.
Shutts, 472 U.S. 797, 812 (1985) (citing Hansberry v. Lee, 311 U.S.
32, 42-43, 45, 85 L. Ed. 22, 61 S. Ct. 115 (1940)). As in the class
action context, it would be inequitable, and perhaps deleterious to
due process rights, to allow a putative representative for a group
of people to proceed with litigation in a representative capacity
when those who are purportedly represented may not desire the
relief that the putative representative seeks. See Duke Power Co.
v. Carolina Envtl. Study Grp., 438 U.S. 59, 80 (1978) (citation
omitted) (holding that third-party standing should be limited to
“avoid[] . . . the adjudication of rights which those not before the
Court may not wish to assert”).

JA 138
428 U.S. at 118. The plurality explained that the close
relationship between doctors and patients was “patent”
since a woman cannot “safely secure an abortion
without the aid of a physician.” Id. at 117. And a
woman faced multiple hindrances to challenging the
Missouri law, including “a desire to protect the very
privacy of her decision [to abort] from the publicity of
a court suit” and “the imminent mootness . . . of any
individual woman’s claim” when she is no longer
pregnant. Id. While the plurality acknowledged that
these obstacles are “not insurmountable,” it
nevertheless concluded “that it generally is appropriate
to allow a physician to assert the rights of women
patients as against governmental interference with the
abortion decision.” Id. at 117–18.
Since Wulff was decided, we and our sister circuits
have routinely conferred third-party standing on
abortion providers without engaging in a serious
analysis of whether the plaintiffs have satisfied the
closeness and hindrance requirements.3 But, we should
3

See, e.g., Planned Parenthood Ass’n of Cincinnati, Inc., 822 F.2d
at 1396 n.4 (citing Margaret S. v. Edwards, 794 F.2d 994, 997 (5th
Cir. 1986)) (“[T]he Supreme Court has visibly relaxed its
traditional standing principles in deciding abortion cases.”);
Volunteer Medical Clinic, Inc. v. Operation Rescue, 948 F.2d 218,
223 (6th Cir. 1991); see also Planned Parenthood of N. New Eng. v.
Heed, 390 F.3d 53, 56 n.2 (1st Cir. 2004), vacated sub nom. Ayotte
v. Planned Parenthood of N. New Eng., 546 U.S. 320 (2006); N.Y.
State Nat’l Org. for Women v. Terry, 886 F.2d 1339, 1347–48 (2d
Cir. 1989); Am. Coll. Of Obstetricians & Gynecologists, Penn.
Section v. Thornburgh, 737 F.2d 283, 289 n.6 (3d Cir. 1984), aff’d
sub nom. Thornburgh v. Am. Coll. Of Obstetricians &
Gynecologists, 476 U.S. 747 (1986); Greenville Women’s Clinic v.
Bryant, 222 F.3d 157, 194 n.16 (4th Cir. 2000); Margaret S., 794

JA 139
not read Wulff so broadly to confer third-party standing
virtually any time an abortion provider seeks to
invalidate an abortion regulation. First, only a
plurality of the Wulff Court, not a majority, held that
the providers had third-party standing. But more
critically, Wulff was a case in which the interests of the
plaintiffs and the rights-holders were parallel, because
both providers and patients had an interest in
removing state funding limits on abortion. Wulff is not
applicable in a case like this, where providers have a
potential conflict of interest with many, if not most, of
their patients, and the closeness requirement of
Kowalski is thus not satisfied.
To be sure, Wulff and cases following that decision
emphasize the doctor-patient relationship as the basis
for abortion providers to have third-party standing to
assert their patients’ constitutional rights. “But a close
personal relationship” such as between a doctor and a
patient “is neither necessary nor sufficient for third
party standing.” Amato v. Wilentz, 952 F.2d 742, 751
(3d Cir. 1991). “Even a close relative will not be heard
to raise positions contrary to the interests of the third
party whose rights he or she claims to represent: the
litigant would then hardly be a vigorous advocate of the
third party’s position.” Id. at 751–52. For example, in
Gilmore v. Utah, 429 U.S. 1012 (1976), the mother of a

F.2d at 997; Planned Parenthood of Wis. v. Schimel, 806 F.3d 908,
910–11 (7th Cir. 2015); Comprehensive Health of Planned
Parenthood Great Plains v. Hawley, 903 F.3d 750, 757 n.7 (8th Cir.
2018); Planned Parenthood of Idaho, Inc. v. Wasden, 376 F.3d 908,
916–18 (9th Cir. 2004); Planned Parenthood Ass’n of Atlanta Area,
Inc. v. Miller, 934 F.2d 1462, 1465 n.2 (11th Cir. 1991).

JA 140
man convicted of murder lacked third-party standing to
seek a stay of her son’s execution where he “himself
knowingly and intelligently . . . waive[d]” his right to
appeal. Amato, 952 F.2d at 752 (citing Gilmore, 420
U.S. at 1013).
Plaintiffs have the burden of establishing that they
satisfied all of the requirements for Article III and
prudential standing, including the closeness
requirement for third-party standing. See Lujan v.
Defenders of Wildlife, 504 U.S. 555, 561 (1992) (citing
Fed. R. Civ. Pro. 56(e)) (holding that “the party
invoking federal jurisdiction bears the burden of . . .
‘set[ting] forth’ by affidavit or other evidence ‘specific
facts’” supporting their claim to standing); Amato, 952
F.2d at 750 (“[W]e will bear in mind that third party
standing is exceptional: the burden is on the [plaintiff]
to establish that it has third party standing, not on the
defendant to rebut a presumption of third party
standing.”). Plaintiffs failed to satisfy their burden.
None of Plaintiffs’ patients, with whom they claim a
close relationship, testified at trial. Indeed, Plaintiffs
did not even invoke a specific patient’s rights. Instead,
Plaintiffs relied on their “relationship[s] with as yet
unascertained” patients. Kowalski, 543 U.S. at 131.
Such “hypothetical . . . relationship[s]” do not satisfy
Kowalski’s closeness requirement. See id.
What is more, the evidence presented at trial shows
that although Plaintiffs have an interest in challenging
H.B. 454, a substantial majority of their patients may
very well favor the effect of H.B. 454 because they
prefer fetal demise prior to a D&E. Such a potential
conflict of interest precludes a finding of closeness. See

JA 141
Elk Grove Unified Sch. Dist. v. Newdow, 542 U.S. 1, 15
(2004) (holding that the plaintiff lacked standing
because the interests of the plaintiff and the rightholder were “potentially in conflict”); Mercer v.
Michigan State Bd. of Educ., 419 U.S. 1081 (1974), aff’g
379 F. Supp. 580 (E.D. Mich. 1974) (affirming a district
court decision that denied a public school teacher
standing to assert the rights and parents, when the
district court could not determine “whether or not any
parents or students desire these laws to be changed.”).4
Dr. Thorp, a professor in the School of Medicine at
the University of North Carolina, testified at trial that
in one study examining women’s preferences for fetal
demise procedures, “73 percent . . . reported that if
4

“The extent of potential conflicts of interest between the plaintiff
and the third party whose rights are asserted matters a good deal.
While it may be that standing need not be denied because of a
slight, essentially theoretical conflict of interest, we have held that
genuine conflicts strongly counsel against third party standing.”
Amato, 952 F.2d at 750 (citing Polaroid Corp. v. Disney, 862 F.2d
987, 1000 (3d Cir. 1988)); accord Pony v. Cty. of Los Angeles,
433 F.3d 1138, 1147 (9th Cir. 2006) (citations omitted) (“A litigant
is granted third-party standing because the tribunal recognizes
that her interests are aligned with those of the party whose rights
are at issue and that the litigant has a sufficiently close connection
to that party to assert claims on that party’s behalf.”); Harris v.
Evans, 20 F.3d 1118, 1124 (11th Cir. 1994) (en banc) (“Courts have
repeatedly emphasized that the key to third-party standing
analysis is whether the interests of the litigant and the third party
are properly aligned, such that the litigant will adequately and
vigorously assert those interests.”); Canfield Aviation, Inc. v.
National Transp. Safety Bd., 854 F.2d 745, 748 (5th Cir. 1988)
(citing Wulff, 428 U.S. at 114–15) (“When examining [whether a
plaintiff has third-party standing], courts must be sure . . . that the
litigant whose rights he asserts have interests which are aligned”).

JA 142
given the choice, they prefer to receive digoxin before
the D&E procedure.” (R.102 at PageID 3756) In
another study, the Jackson study, 92 percent of women
“reported a strong preference for fetal death before
abortion.” (R. 102 at PageID 3734) Dr. Curlin, a
professor in the School of Medicine at Duke University,
testified:
We know from studies of women who are
undergoing abortion that they are conscious of
what is happening to their fetus and that for
many that’s quite disturbing, and I think [the
Jackson study] gives some not very surprising
evidence that at least a substantial portion of
women would prefer that something be done so
that that fetus has died before it’s dismembered.
(R. 104 at PageID 4309).
Even the study that Plaintiffs presented admitted
that “several studies have reported a preference for
feticide before evacuation.” (R. 106 at PageID 4448).
Another study cited by Plaintiffs stated, “Majority of
subjects, 73 percent, reported that, if given the choice,
they preferred to receive digoxin before the D&E
procedure.” (R. 106 at PageID 4497). Granted, these
studies are only circumstantial evidence of the
preferences of EMW’s patients, but they were the only
evidence of such preference presented at trial because,
as noted, none of those patients testified.
The reasons why a woman would make the choice
for fetal demise were demonstrated at trial. Dr.
Anthony Levantino testified that in a D&E procedure,
the “[f]etus dies from dismemberment from literally

JA 143
having arms and legs pulled off”; “[it] bleed[s] to
death.” (R. 102 at PageID 3710). Another physician, Dr.
David Berry, described a D&E procedure in which the
doctor “pulled out a spine and some mangled ribs and
the heart was actually still beating.” (R. 103 at PageID
3884). It is not difficult to understand why a majority
of women would want the heart to stop beating before
the fetus undergoes such an ordeal. As the Supreme
Court has recognized, “No one would dispute that, for
many, D&E is a procedure itself laden with the power
to devalue human life.” Gonzales v. Carhart, 550 U.S.
124, 158 (2007). This is because “[t]he fetus, in many
cases, dies just as a human adult or child would: It
bleeds to death as it is torn limb from limb.” Stenberg
v. Carhart, 530 U.S. 914, 958–59 (2000) (Kennedy, J.,
dissenting) (citation omitted).5 Plaintiffs themselves
acknowledged as much, given that they did not
question “the legitimacy” of “interests” that would favor
stopping the heartbeat before D&E begins. EMW
Women’s Surgical Center, P.S.C. v. Meier, 373 F. Supp.
3d 807, 817 (W.D. Ky. 2019).

5

The gruesomeness of the D&E procedure is a reason that many
abortion patients may prefer to avoid it altogether by having the
abortion performed by aspiration earlier in the pregnancy, before
limbs have begun to form. See Pre-Term Cleveland, et al. v.
Attorney Gen. of Ohio, et al., No. 20-3365, 2020 WL 1673310, at *4
(6th Cir. Apr. 6, 2020) (Bush, J., concurring in part and dissenting
in part) (noting that one factor to be considered in assessing the
constitutionality of a COVID-19 emergency order delaying abortion
procedures is “the preference of many women for having the
abortion while the aspiration method can be performed, rather
than the dilation & evacuation procedure that is required for later
abortions.”). H.B. 454 imposes no requirement of fetal demise
before an abortion by the aspiration method may be performed.

JA 144
These interests exist regardless of whether the
unborn life feels any pain from the D&E procedure.
These interests also are significant enough that a
woman, even after hearing of the health risks involved,
might opt for fetal demise simply to be assured that the
fetus was not alive when its limbs were torn apart.6
Plaintiffs, however, have interests that do not align
with those women who want fetal demise before D&E.
For example, EMW’s physicians do not want to receive
the training needed to give the injections, even though
the evidence at trial was that injections are not difficult
6

Although the district court found that digoxin injections can carry
significant health risks, the court did not find that the health risks
are so significant that most or even some women, if made known
of the health risks, would forgo a fetal demise procedure. There is
evidence in the record demonstrating that many or most women
would decide that the value of a digoxin injection, at least in terms
of peace of mind that the fetal heart is no longer beating when
D&E occurs, outweighs the health risks of the injection. The
Steward study, for example, found that of 4,096 patients who
received digoxin injections, only 0.04 percent—or 4 in 10,000—had
infections, and only .3 percent—or 3 in 1,000—experienced
extramural delivery. (R. 102 at PageID 3741). The Tocce study of
1,662 patients, which involved transvaginal, rather than
transabdominal, digoxin injections (as in the Steward study),
involved a higher rate of health risk, but not by much: 0.49 percent
for infection and 0.12 for extramural delivery. (R. 102 at PageID
3744). In any event, it is not necessary in assessing an abortion
provider’s third-party standing to make a factual finding as to the
number of patients who actually would choose fetal demise if
informed of the health risks. What matters is whether there is a
potential that a patient would do so, for as noted, third-party
standing is defeated if the interests of the plaintiff and the
right-holder are merely “potentially in conflict.” Newdow, 542 U.S.
at 15 (emphasis added). The evidence demonstrates that there is
a potential conflict here.

JA 145
to administer, training to perform the procedure is
available, and such injections are within the reasonable
medical scope of care.
The district court stated that digoxin injections can
be “difficult, if not impossible, to administer,” Meier,
373 F. Supp. 3d at 838, but this statement was
contradicted by the district court’s factual finding that
digoxin injections “are not terribly difficult to perform,
as it can also be administered into the amniotic fluid.”
Id. One study introduced into evidence concluded that
“[i]n our clinical experience where patients do not
receive intravenous sedation, we have found it easy to
administer intrafetal injection[s],” (R. 102 at PageID
3758), and in another study presented at trial, even
medical residents performed them, (R. 102 at PageID
3733–34).
Evidence was also presented that it is possible for
EMW’s doctors to receive training to perform digoxin
injections. Dr. Franklin, one of EMW’s doctors,
acknowledged that digoxin injections are “very similar
to amniocentesis, which I have done in the past,” and
she admitted that she “technically . . . would be able to”
obtain the training to perform the injections. (R. 107 at
PageID 4716). Dr. Bergin, EMW’s other doctor,
similarly testified that “probably with proper training
I could learn to do” digoxin injections. (Trial Ex. 420 at
117)
Finally, Dr. Davis—whom EMW called as an expert
but did not hire as one of their physicians—
acknowledged that an intrafetal or intraamniotic
digoxin injection is within the standard of care for an
OB/GYN to perform; indeed, she herself had

JA 146
performed such injections. (R. 106 at PageID 4460).
Likewise, the National Abortion Federation states in
its 2018 Clinical Policy Guidelines for Abortion Care
that an intraamniotic or intrafetal digoxin injection is
a permissible option for accomplishing fetal death
before a D&E procedure. (R. 106 at PageID 4514–15).
Another study funded by a Planned Parenthood
affiliate reported that Planned Parenthood’s clinics in
Los Angeles, California had “protocols” that “dictate[d]
the use of digoxin for all second trimester abortions.”
(R. 102 at PageID 3755–56).
Notwithstanding this evidence, and proof that even
Plaintiffs’ own physician experts regularly inject
digoxin and do so intrafetally, the Plaintiff-physicians
have refused to obtain the necessary training to do the
injections or to hire a physician like Dr. Davis who has
that training. As noted, when questioned at oral
argument as to what EMW’s doctors would do if a
woman asked for a digoxin injection before a D&E
procedure, Plaintiffs’ counsel responded that her only
option would be to travel out of state to have her
abortion. And, indeed, there are practitioners in our
circuit as close as southwestern Ohio, across the river
from Kentucky, who perform digoxin injections. See
Planned Parenthood Sw. Ohio Region v. Yost, 375 F.
Supp. 3d 848, 857 (S.D. Ohio 2019) (listing doctors in
southwestern Ohio who perform digoxin injections).
But, given the evidence of the possibility of obtaining
the necessary training to provide the injection, it is
questionable why the EMW physicians insist that they
cannot obtain this training or hire a doctor who does
have that skill.

JA 147
At the very least, the proof at trial reflects a
potential conflict between the interests of the EMW
physicians and some, perhaps the majority, of the
patients that they seek to represent. All of the
evidence presented at trial about patient preference
circumstantially supports a finding that at least
some—and potentially, most—of patients seen by
Plaintiffs would favor the effect of H.B. 454 because
those patients would want fetal demise before a D&E.
The statute essentially requires that abortion providers
at EMW receive the necessary training, which in turn
would allow those women who prefer fetal demise to
obtain it before the D&E procedure is performed.7
7

That EMW’s physicians say they will not obtain the training in
fetal demise, and will stop performing D&E procedures altogether,
if H.B. 454 is upheld, is no answer to their conflict-of-interest
problem. The patients who want fetal demise are already being
denied the D&E procedure they want in Kentucky because of
Appellee’s position that those patients must go out of state to have
the procedure performed with fetal demise. Enactment of H.B. 454
may not immediately change this reality for these women who
must go out of state. But, of course, parties to litigation may
change their attitude towards a law once it is upheld in court, so
if H.B. 454 is allowed to go into effect, EMW’s physicians may
decide to get the necessary training to comply with the law after
all. In addition, in the period since the district court issued its
injunction, another provider, Planned Parenthood, has obtained a
license to perform abortions in Kentucky. Planned Parenthood to
Expand Abortion Access in Kentucky, PLANNEDPARENTHOOD.ORG,
http://plannedparenthood.org/planned-parenthood-indiana-kent
ucky/newsroom/planned-parenthood-to-expand-abortion-access-inkentucky (last visited May 4, 2020). It is entirely possible that
physicians at Planned Parenthood in Kentucky, like their
counterparts in southwestern Ohio, see Planned Parenthood Sw.
Ohio Region, 375 F. Supp. 3d at 857, will have the expertise to
perform fetal demise. But regardless, so long as EMW’s physicians

JA 148
Because of this potential conflict of interest between
Plaintiffs and many or most of their patients, I would
hold that Plaintiffs have not shown that they have
satisfied the closeness requirement necessary to invoke
their patients’ rights. See Newdow, 542 U.S. at 15.8
None of the cases the Majority cites dictate the
opposite result. In City of Akron, the interests of the
“minor patients” and abortion providers were largely
parallel, as both wanted to abortions to proceed
without involving parents in the decision. See City of
Akron v. Akron Ctr. for Reprod. Health, Inc., 462 U.S.
416, 440 n.30 (1983), overruled on other grounds by
Planned Parenthood of Se. Penn. v. Casey, 505 U.S. 833

refuse to obtain the necessary training and refuse to offer fetal
demise to patients, they have a potential conflict of interest with
their patients who want fetal demise.
8

For similar reasons, I would also hold that a facial challenge is
not the proper vehicle here. A facial challenge could be proper only
if, “in a large fraction of the cases in which [H.B. 454] is relevant,
it will operate as a substantial obstacle to a woman’s choice to
undergo an abortion.” Cincinnati Women’s Servs., Inc. v. Taft, 468
F.3d 361, 367 (6th Cir. 2006) (citation omitted). H.B. 454 will not
operate as a substantial obstacle to those women who prefer
digoxin injections. Given the potential for a D&E procedure to
“devalue human life,” Gonzales, 550 U.S. at 158, many women who
are aware of the health risks involved might nonetheless opt for
digoxin injections. For those women, requiring doctors to receive
training to perform fetal demise would not be unconstitutional. To
be sure, the district court did credit Plaintiffs’ evidence that D&E
abortions will no longer be performed in Kentucky if H.B. 454 goes
into effect, and I do not dispute that that fact, if true, would cause
H.B. 454 potentially to unduly burden women that do not prefer
fetal demise. Meier, 474 F. Supp. 3d at 824. As-applied challenges
may be brought by those women.

JA 149
(1992). Danforth and Bolton are also inapposite,
because there, the Supreme Court did not analyze the
closeness and hindrance requirements as Kowalski
requires. See Planned Parenthood of Cent. Missouri v.
Danforth, 425 U.S. 52, 62 (1976); Doe v. Bolton, 410
U.S. 179, 188 (1973). Instead, the Court held, without
further analysis, that the plaintiff-physicians had
standing because the statutes in question subjected
them to potential criminal prosecution. Danforth, 425
U.S. at 62; Bolton, 410 U.S. at 188. While that may
speak to the plaintiffs’ standing to assert their own
rights, it says nothing about the plaintiffs’ third-party
standing to assert the patients’ rights. Just because one
may have an injury-in-fact—such that she has standing
to assert her own rights—does not mean she has
third-party standing to assert the rights of others.
Kowalski instructs that plaintiffs must satisfy the
closeness and hindrance requirements in order to
assert the rights of others in court. Kowalski, 543 U.S.
at 129–30. Because Plaintiffs have not shown that they
satisfy the closeness requirement in this case, I would
hold that they lack third-party standing to sue on
behalf of their patients.
II.
Even if the Majority disagrees on the third-party
standing analysis, they should nonetheless delay
issuing an opinion in this case pending the Supreme
Court’s disposition of June Medical Services. The
Supreme Court granted certiorari in that case on
October 4, 2019, and argument was held on March 4,
2020. See June Medical Servs. L.L.C. v. Gee, 140 S. Ct.
35 (Mem.) (2019). One of the questions raised in June

JA 150
Medical Services is whether abortion providers have
third-party standing to invoke the constitutional rights
of potential patients in challenging abortion laws. We
have broad discretion to stay proceedings to conserve
judicial resources and avoid duplicative litigation, and
we should exercise that discretion here. See Landis v.
N. Am. Co., 299 U.S. 248, 254 (1936); Colo. River Water
Conservation Dist. v. United States, 424 U.S. 800, 817
(1976).
We recently held in abeyance an appeal that raised
an issue the U.S. Supreme Court granted certiorari to
decide, pending the Supreme Court’s disposition of that
issue. See United States v. Lara, 679 F. App’x 392, 395
(6th Cir. 2017) (“Because our decision turns on
precedent for which the Supreme Court has recently
granted certiorari, we hold Lara’s challenge in
abeyance pending resolution of that issue.”). Other
circuits have done the same. Mandel v. Max-France,
Inc., 704 F.2d 1205, 1206 (11th Cir. 1983) (appeal held
in abeyance pending Supreme Court decision);
Chowdhury v. Worldtel Bangladesh Holding, Ltd., 746
F.3d 42, 47 (2d Cir. 2014) (same); Golinski v. U.S.
Office of Pers. Mgmt., 724 F.3d 1048, 1050 (9th Cir.
2013) (same); Does v. Williams, No. 01-7162, 2002 WL
1298752, at *1 (D.C. Cir. June 12, 2002) (per curiam)
(same). Indeed, the Fifth Circuit held in abeyance a
case with substantially similar facts to this case,
pending the Supreme Court’s disposition of June
Medical Services. See Whole Woman’s Health, et al. v.
Ken Paxton, et al., No. 17-51060, Doc. No.
00514871170. The majority’s decision to issue an
opinion just before the Supreme Court potentially

JA 151
decides an outcome-determinative issue in our case
seems to me an unwise use of judicial resources.
For these reasons, I must respectfully dissent.

JA 152
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5516
[Filed June 11, 2020]
_______________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C., )
on behalf of itself, its staff, and its
)
patients; ASHLEE BERGIN, M.D., M.P.H. )
and TANYA FRANKLIN, M.D., M.S.P.H., on )
behalf of themselves and their patients )
)
Plaintiffs – Appellees
)
v.
)
)
)
ERIC FRIEDLANDER, in his official
capacity as Acting Secretary of
)
Kentucky’s Cabinet for Health and
)
Family Services
)
)
Defendant – Appellant
)
_______________________________________)
Appeal from the United States District Court for
the Western District of Kentucky at Louisville
Honorable Joseph H. McKinley, Jr.
MOTION TO INTERVENE & MOTION TO
EXPEDITE REVIEW BY ATTORNEY GENERAL
DANIEL CAMERON, ON BEHALF OF THE
COMMONWEALTH OF KENTUCKY

JA 153
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
INTRODUCTION
In its panel decision, the Court addressed the
constitutionality of 2018 House Bill 454 (“H.B. 454”), a
Kentucky statute that prohibits—as Secretary
Friedlander previously described it—the grisly act of
dismembering an unborn child during an abortion
while he or she is still alive. [App. R. 17 at 2]. Passed
by the Kentucky General Assembly, H.B. 454 was
signed into law by the Governor on April 10, 2018. But
on the same day that H.B. 454 became law, PlaintiffsAppellees EMW Women’s Surgical Center, P.S.C. and
its two obstetrician-gynecologists brought suit against
various Kentucky officials.
Until recently, Secretary Friedlander, in his official
capacity as Acting Secretary for the Cabinet for Health
and Family Services, has defended H.B. 454 in this
litigation. Now, Secretary Friedlander has reversed
course. He has informed the Attorney General that he
will not seek rehearing en banc or file a petition for a
writ of certiorari from the Court’s panel decision.
Secretary Friedlander has, however, communicated

JA 154
that he will not oppose the Attorney General’s motion
to intervene in this litigation on behalf of the
Commonwealth of Kentucky.
In Secretary Friedlander’s absence, the
responsibility to press on in this appeal falls to Daniel
Cameron—the duly elected Attorney General of the
Commonwealth of Kentucky and the lawyer for the
people of Kentucky. Ky. Rev. Stat. (“KRS”) 15.020;
Commw. ex rel. Beshear v.Commw. ex rel. Bevin, 498
S.W.3d 355, 362 (Ky. 2016). As the chief law officer of
the Commonwealth, Attorney General Cameron moves
the Court to allow him to pick up the mantle and
intervene on behalf of the Commonwealth in defense of
H.B. 454.
FACTUAL BACKGROUND
H.B. 454 became law on April 10, 2018. That same
day, Plaintiffs filed this lawsuit. See EMW Women’s
Surgical Center, P.S.C. v. Friedlander, --- F.3d ---, 2020
WL 2845687, at *2 (6th Cir. June 2, 2020). ThenSecretary Adam Meier defended H.B. 454 before the
district court, while the Commonwealth’s Attorney
General at the time, Andrew Beshear, chose not to
defend the bill.1 On May 10, 2019, and following a
bench trial, the district court entered final judgment

1

On May 21, 2018, the district court entered an order dismissing
former Attorney General Beshear, who had been sued in his official
capacity, from the litigation “without prejudice.” [Stip. & Order, R.
51, Page ID##697–99]. In the order, Attorney General Beshear
“specifically reserv[ed] all rights, claims, and defenses relating to
whether he is a proper party in this action and in any appeals
arising out of this action.” [Id. at PageID#697].

JA 155
declaring H.B. 454 unconstitutional. EMW Women’s
Surgical Center, P.S.C. v. Meier, 373 F. Supp. 3d 807,
826 (W.D. Ky. 2019). On May 15, 2019, then-Secretary
Meier appealed to this Court. The parties concluded
their briefing on October 7, 2019.
Shortly thereafter, on November 5, 2019, Kentucky
held its general election for statewide constitutional
officers. Daniel Cameron was elected as Kentucky’s
Attorney General. Former Attorney General Beshear
was elected Governor and was sworn in on December
7, 2019. Attorney General Cameron was sworn in on
December 17, 2019. One day prior to Attorney General
Cameron assuming office, this Court scheduled oral
argument in this matter for January 29, 2020. [App. R.
39]. Less than a month before oral argument, Secretary
Friedlander, an appointee of Governor Beshear, was
substituted for former Secretary Meier as a DefendantAppellant. [App. R. 43]. The Court held oral argument
on January 29, 2020—less than 45 days after Attorney
General Cameron took office.
On June 2, 2020, the Court rendered its opinion
affirming the district court’s judgment and finding H.B.
454 unconstitutional. Friedlander, 2020 WL 2845687,
at *1. Judge Bush dissented. He pointed out that courts
have “routinely conferred third-party standing on
abortion providers without engaging in a serious
analysis” of the requirements for standing and found
that there is a “potential conflict of interest that
destroys Plaintiffs’ standing to bring this facial
constitutional challenge against H.B. 454.” Id. at
*18–*19 (Bush, J., dissenting).

JA 156
Judge Bush also criticized the panel’s issuance of its
opinion shortly before the Supreme Court’s disposition
of June Medical Services, LLC v. Russo, 18-1323, 181460. Friedlander, 2020 WL 2845687, at *24 (Bush, J.,
dissenting). One of the questions presented in June
Medical is particularly pertinent to—and perhaps
dispositive of—this case: whether abortion providers
have third-party standing to invoke the constitutional
rights of potential patients in challenging abortion
laws. See id. Equally as important, June Medical poses
questions about the meaning and scope of Whole
Woman’s Health v. Hellerstedt, 136 S. Ct. 2292 (2016).
Resolution of those issues about Hellerstedt may
substantially affect the determination of whether H.B.
454 is constitutional, as evidenced by the panel’s
repeated reliance on Hellerstedt. See Friedlander, 2020
WL 2845687, at *3–*17.
Because the Supreme Court’s imminent decision in
June Medical may fundamentally alter the standing
analysis required in abortion litigation and may clarify
the meaning and scope of Hellerstedt, and because of
Secretary Friedlander’s decision not to pursue this case
further, Attorney General Cameron respectfully moves
to intervene on behalf of the Commonwealth of
Kentucky to ensure that its interests with respect to
H.B. 454 are represented before this Court and,
potentially, before the Supreme Court.

JA 157
ARGUMENT
I.

Attorney General Cameron is entitled to
intervene of right on behalf of the
Commonwealth.
A party may intervene of right if:
(1) the motion to intervene is timely; (2) the
proposed intervenor has a substantial legal
interest in the subject matter of the case; (3) the
proposed intervenor’s ability to protect that
interest may be impaired in the absence of
intervention; and (4) the parties already before
the court may not adequately represent the
proposed intervenor’s interest.

United States v. Michigan, 424 F.3d 438, 443 (6th Cir.
2005). These four factors must be “broadly construed in
favor of potential intervenors.” Coalition to Defend
Affirmative Action v. Granholm, 501 F.3d 775, 779 (6th
Cir. 2007) (quoting Purnell v. City of Akron, 925 F.2d
941, 950 (6th Cir. 1991)).
A. The Attorney General’s motion on behalf
of the Commonwealth is timely.
This Court weighs five factors to determine whether
a motion to intervene is timely. They are:
1) the point to which the suit has progressed;
2) the purpose for which intervention is sought;
3) the length of time preceding the application
during which the proposed intervenors knew or
should have known of their interest in the case;
4) the prejudice to the original parties due to the

JA 158
proposed intervenors’ failure to promptly
intervene after they knew or reasonably should
have known of their interest in the case; and 5)
the existence of unusual circumstances
militating against or in favor of intervention.
Blount-Hill v. Zelman, 636 F.3d 278, 284 (6th Cir.
2011) (quoting Jansen v. Cincinnati, 904 F.2d 336, 340
(6th Cir. 1990)). “No one factor is dispositive, but
rather the ‘determination of whether a motion to
intervene is timely should be evaluated in the context
of all relevant circumstances.’” Id. (quoting StupakThrall v. Glickman, 226 F.3d 467, 472–73 (6th Cir.
2000)).
Regarding the first factor, Attorney General
Cameron recognizes that this suit has substantially
progressed. A state’s intervention following the
issuance of an appellate decision, however, is amply
justified in circumstances such as this. The en banc
Ninth Circuit reversed a panel’s decision not to allow a
state to intervene post-judgment because “[i]f we do not
permit California to intervene as a party . . . there is no
party in that case that can fully represent its
interests.” See Peruta v. Cty. of San Diego, 824 F.3d
919, 941 (9th Cir. 2016) (en banc). That was because
the original parties had declined to file a petition for en
banc review. Id. at 940. So too here.2 In another case,

2

Moreover, the Supreme Court sometimes invites an amicus
curiae to brief and argue issues that have been abandoned by the
parties. See generally Brian P. Goldman, Note, Should the
Supreme Court Stop Inviting Amici Curiae to Defend Abandoned
Lower Court Decisions?, 63 Stan. L. Rev. 907 (2011). Although not

JA 159
the Ninth Circuit granted post-judgment intervention
so that a state could file a petition for rehearing and a
petition for certiorari. Day v. Apoliona, 505 F.3d 963,
966 (9th Cir. 2007) (order) (“Unless the State of Hawaii
is made a party to these proceedings, no petition for
rehearing can be filed in this Court, and there will be
no opportunity for the Supreme Court to consider
whether to grant certiorari.”). As this Court has
recognized in the closely related context of whether to
grant intervention to a party seeking to appeal from a
district court’s judgment, “courts often permit
intervention even after final judgment, for the limited
purpose of appeal . . . .” United States v. Detroit, 712
F.3d 925, 932 (6th Cir. 2013).
Under the second factor, this Court has previously
endorsed the exact purpose for which Attorney General
Cameron seeks to intervene on behalf of the
Commonwealth—to ensure that the validity of a state
law is fully defended. In Associated Builders &
Contractors, Saginaw Valley Area Chapter v. Perry, 115
F.3d 386 (6th Cir. 1997), Michigan’s Attorney General
moved to intervene following final judgment in the
district court upon learning that the state official who
was a party would not seek appellate review in a
challenge to a state law. Id. at 389. The district court
denied the motion to intervene, but this Court
reversed. Id. at 390. In so doing, it recognized the
importance of allowing a state to defend its laws
through an appeal. The Court reasoned that “[t]he
directly applicable, such a practice involves permitting a new
“party” to a case that has advanced even past the stage at which
this case finds itself.

JA 160
existence of a substantial unsettled question of law is
a proper circumstance for allowing intervention and
appeal.” Id. at 391. The ability of the state to appeal,
the Court emphasized, “should be liberally granted
where the judgment of the trial court raises substantial
and important questions of law in relation to its
correctness.” Id. (emphasis added).
A similar concern is present here. Litigation about
the constitutionality of laws like H.B. 454 is ongoing
throughout the country. Whole Women’s Health v.
Paxton, 17-51060 (5th Cir.); Hopkins v. Jegley 17-2879
(8th Cir.). In fact, the issue is being litigated elsewhere
in this circuit, as Judge Bush’s dissent noted. See
Friedlander, 2020 WL 2845687, at *22 (Bush, J.,
dissenting). This Court is the second circuit to weigh in
on the issue. W. Ala. Women’s Center v. Williamson,
900 F.3d 1310 (11th Cir. 2018), cert denied 139 S. Ct.
2606 (2019). In light of this ongoing litigation, there
can be little doubt that there are “substantial and
important questions of law” about the correctness of
the panel’s decision. See Perry, 115 F.3d at 391. The
fact that the panel has already held H.B. 454
unconstitutional does not undermine this conclusion.
See Day, 505 F.3d at 966 (“We note that Hawaii’s legal
arguments on the merits . . . are by no means frivolous,
although we have concluded after careful consideration
that they cannot be accepted under prior Ninth Circuit
precedent.”). The fact that the panel’s decision was
divided is proof positive of the “substantial and
important questions of law” at play.
In addition, the Supreme Court is poised to decide
June Medical which may well bear directly on the

JA 161
correctness of the panel’s decision. As discussed above,
June Medical could provide substantial guidance about
the meaning of Hellerstedt and about whether abortion
providers have third-party standing—the issue on
which Judge Bush dissented. See Friedlander, 2020 WL
2845687, at *24 (“One of the questions raised in June
Medical Services is whether abortion providers have
third-party standing to invoke constitutional rights of
potential patients in challenging abortion laws.”). The
fact that two other circuits considering the
constitutionality of live-dismemberment abortion laws
like H.B. 454 have stayed those appeals to await June
Medical underscores this point. Mar. 13, 2019 Order,
Whole Women’s Health v. Paxton, 17-51060 (5th Cir.);
Mar. 19, 2020 Order, Hopkins v. Jegley, 17-2879 (8th
Cir.). In short, the pendency of June Medical alone
establishes that there are “substantial and important
questions” as to the correctness of the panel decision.
See Perry, 115 F.3d at 391.
Turning to the third timeliness factor, as previously
noted, Attorney General Cameron was sworn in on
December 17, 2019—not even six months ago. By that
time, the Court had already scheduled oral argument,
after which attorneys in Attorney General Cameron’s
office were retained to present oral argument on behalf
of Secretary Friedlander. [App. R. 39]. But on June 9,
2020, Secretary Friedlander communicated that he
would no longer defend H.B. 454. It was only at that
time—two days ago—that Attorney General Cameron
learned of his need to intervene on behalf of the
Commonwealth to continue the defense of H.B. 454. As
the Fifth Circuit recognized in a similar context, a
court analyzing the timeliness of a motion to intervene

JA 162
must consider “the speed with which the would-be
intervenor acted when it became aware that its
interests would no longer be protected by the original
parties.” Sierra Club v. Espy, 18 F.3d 1202, 1206 (5th
Cir. 1994). Here, Attorney General Cameron acted
almost immediately upon learning that Secretary
Friedlander was ending his defense of H.B. 454.
Regarding the fourth timeliness factor, the existing
parties will not be prejudiced by the Attorney General’s
intervention on behalf of the Commonwealth. Indeed,
Secretary Friedlander has already communicated to
the Attorney General that he will not oppose this
motion. Although the Attorney General’s intervention
on behalf of the Commonwealth will mean that this
litigation will continue, that does not unduly prejudice
the Plaintiffs-Appellees. On behalf of the
Commonwealth, Attorney General Cameron is simply
picking up where Secretary Friedlander left off. It does
not prejudice the Plaintiffs-Appellees merely to have to
litigate this case to its conclusion, whether before this
Court or the Supreme Court. See Buck v. Gordon, 959
F.3d 219, 225 (6th Cir. 2020) (“The Dumonts and St.
Vincent have already engaged in substantial discovery
in the DuMont litigation, cutting against a finding of
undue delay and prejudice because the same facts are
relevant to the case brought by St. Vincent.”); see also
Stallworth v. Monsanto Co., 558 F.2d 257, 267 (5th Cir.
1977) (“[T]he relevant issue is not how much prejudice
would result from allowing intervention, but rather
how much prejudice would result from the would-be
intervenor’s failure to request intervention as soon as
he knew or should have known of his interest in the
case.”).

JA 163
Finally, regarding the fifth timeliness factor,
Attorney General Cameron incorporates all of the
unusual factors discussed above that demonstrate why
intervention should be allowed. Those include the
posture of this appeal at the time Attorney General
Cameron assumed office; recently discovering that
Secretary Friedlander will no longer defend H.B. 454;
the Supreme Court’s issuance of a potentially
dispositive precedent within a few weeks; the fact that
two other circuits have stayed challenges to livedismemberment abortion laws to await issuance of
June Medical; and that an injunction is currently in
place to prevent enforcement of H.B. 454.
After considering all of these factors, and evaluating
Attorney General Cameron’s motion to intervene on
behalf of the Commonwealth “in the context of all
relevant circumstances,” the Court should hold that the
Attorney General’s motion on behalf of the
Commonwealth is timely. See Zelman, 636 F.3d at 284
(quoting Stupak-Thrall v. Glickman, 226 F.3d 467,
472–73 (6th Cir. 2000)).
B. The Commonwealth through the
Attorney General has a substantial legal
interest in the subject matter of this
case.
As to the second factor governing intervention of
right—whether the Commonwealth through Attorney
General Cameron has a sufficient legal interest in this
matter—there can be no doubt. This Court subscribes
to a “rather expansive notion of the interest sufficient
to invoke intervention of right,” Michigan State AFLCIO v. Miller, 103 F.3d 1240, 1245 (6th Cir. 1997), and

JA 164
has determined that the term “‘interest’ is to be
construed liberally,” Bradley v. Milliken, 828 F.2d
1186, 1192 (6thCir. 1987).
As this Court recently explained, “[a] state may
designate an agent to represent its interests in court.
This is most commonly the state’s Attorney General.”
State by & Through Tenn. Gen. Assembly v. U.S. Dep’t
of State, 931 F.3d 499, 515 (6th Cir. 2019), pet’n for
certiorari docketed (2020). So it is in Kentucky. As a
matter of state law, Attorney General Cameron is the
Commonwealth’s “chief law officer.” KRS 15.020. He
must “enter his appearance in all cases, hearings, and
proceedings . . . and attend to all litigation and legal
business in or out of the state required of him by law,
or in which the Commonwealth has an interest.” Id.
(emphasis added); see also KRS 418.075(1). As the
Supreme Court of Kentucky has recognized, it is a
“bedrock principle[]” of Kentucky law that the Attorney
General possesses “broad powers to initiate and defend
actions on behalf of the people of the Commonwealth.”
Commw. ex rel. Conway v. Thompson, 300 S.W.3d 152,
173 (Ky. 2009) (emphasis added). “There is no
question,” Kentucky’s highest court has emphasized,
“as to the right of the Attorney General to appear and
be heard in a suit brought by someone else in which the
constitutionality of a statute is involved.” Commw. ex
rel. Hancock v. Paxton, 516 S.W.2d 865, 868 (Ky. 1974).
In light of Attorney General Cameron’s status and
duties as the Commonwealth’s “chief law officer,” there
can be no question that he possesses a sufficient legal
interest in this matter on behalf of the Commonwealth.
This Court has squarely held that a state, through its

JA 165
Attorney General, has a “manifest legal interest in
defending the constitutionality of [its] laws.” N.E. Ohio
Coalition for Homeless & Serv. Emps. Int’l Union, Local
1199 v. Blackwell, 467 F.3d 999, 1007 (6th Cir. 2006)
(emphasis added). Therefore, Attorney General
Cameron, on behalf of the Commonwealth, clearly
satisfies the second factor to intervene as of right.
C. The Attorney General’s interests on
behalf of the Commonwealth may be
impaired and are not adequately
represented.
Finally, the Attorney General’s interests on behalf
of the Commonwealth may be impaired by this
litigation and will not be adequately represented
absent intervention. “[T]he requirement of impairment
of a legally protected interest is a minimal one: the
requirement is met if the applicant shows ‘that
representation of his interest may be inadequate.’” Id.
(quoting Trbovich v. United Mine Workers of Am., 404
U.S. 528, 538 n.10 (1972)) (internal quotation marks
omitted). Similarly, “[t]he State’s burden with respect
to establishing that its interest is not adequately
protected by the existing party to the action is a
minimal one; it is sufficient to prove that the
representation may be inadequate.” Id. at 1008.
Without intervention, the Commonwealth will be
unable to enforce H.B. 454 going forward. As discussed
above, Secretary Friedlander has decided that he is
done defending H.B. 454. Unless the Attorney General
on behalf of the Commonwealth becomes a party,
Secretary Friedlander’s decision will “hinder the
State’s ability to litigate the validity of the [Kentucky]

JA 166
law.” Id. at 1007–08. This directly impairs the
Commonwealth’s sovereign interests—interests that
the Attorney General must represent. See KRS 15.020.
In
addition,
absent
intervention,
the
Commonwealth’s interests, as represented by the
Attorney General, will not be adequately protected. See
Blackwell, 467 F.3d at 1008 (recognizing that the state
“has an independent interest in defending the validity
of [its] laws and ensuring that those laws are
enforced”). Secretary Friedlander’s recent decision not
to pursue this litigation further demonstrates the
severity of the impairment of those interests. See id.
(“The difference of opinion regarding whether to appeal
the TRO is merely illustrative of the underlying
divergent interest of the Secretary and the State.”);
Perry, 115 F.3d at 391 (“[A] decision not to appeal by an
original party to the action can constitute inadequate
representation of another party’s interest.” (citation
omitted)).
II.

The Attorney General on behalf of the
Commonwealth should be granted
permissive intervention.

Alternatively under Rule 24(b)(2), the Court may
grant permissive intervention if the motion to
intervene is timely and if the intervenor alleges “at
least one common question of law or fact” that is
already raised in the pending lawsuit. Michigan, 424
F.3d at 445 (discussing Fed. R. Civ. P. 24(b)(1)(B)). If
those threshold requirements are met, the court “must
then balance undue delay and prejudice to the original
parties, if any, and any other relevant factors to
determine whether, in the court’s discretion,

JA 167
intervention should be allowed.” Id. (quoting Miller,
103 F.3d at 1248).
For the reasons discussed above, this motion is
timely. Likewise, Attorney General Cameron on behalf
of the Commonwealth seeks to press “at least one
common question of law” that has been raised in this
suit—namely, the constitutionality of H.B. 454.
Attorney General Cameron is seeking to assume the
mantle of advocating the Commonwealth’s interests in
defending its laws, and the sovereign will of its people,
through the exhaustion of all appellate remedies. As
such, the Commonwealth’s intervention, by and
through the Attorney General, will not prejudice the
other parties. Permissive intervention should be
granted.
III.

Intervention should be granted based upon
Attorney General Cameron’s role as a
government party.

Rule 24(b)(2)(A) gives special consideration to
government parties who seek permissive intervention
into a lawsuit. For a government party, all that the
rule requires is (i) a timely motion (ii) into a lawsuit
where “a party’s claim or defense is based on . . . a
statute . . . administered by the officer or agency”
(iii) with consideration of whether “the intervention
will unduly delay or prejudice the adjudication of the
original parties rights.” See id. Under this rule,
“permissive intervention is liberally granted to
government officials ‘when sought because an aspect of
the public interest with which [the officer] is officially
concerned is involved in the litigation.’” Donahoe v.
Arpaio, 2012 WL 2675237, at *3 (D. Ariz. July 6, 2012)

JA 168
(citing Nuesse v. Camp, 385 F.2d 694, 706 (D.C. Cir.
1967); S.E.C. v. U.S. Realty & Improvement Corp., 310
U.S. 434 (1940)). District courts across this circuit have
granted permissive intervention to government officials
under Rule 24(b)(2). Smith v. Fed. Hous. Fin. Agency,
2013 WL 12121334, at *2 (E.D. Tenn. Jan. 22, 2013);
Gillie v. Law Office of Eric A. Jones, LLC, 2013 WL
4499955, at *5 (S.D. Ohio Aug. 21, 2013). This Court
should do the same.
Here, Attorney General Cameron has a duty to
defend the Commonwealth. See, e.g., KRS 15.020.
Moreover, Attorney General Cameron has specific
authority to administer H.B. 454 and other abortionrelated laws. KRS 15.241 provides the Attorney
General with the authority to seek injunctive relief to
prevent violations of certain abortion-related laws and
the administrative regulations promulgated in
furtherance thereof. Therefore, the requirements of
Rule 24(b)(2) are met. For the reasons described above,
this motion to intervene is timely and will not prejudice
the existing parties or unduly delay the resolution of
this matter.
MOTION FOR EXPEDITED REVIEW
Under Sixth Circuit Rule 27(c), and for the reasons
set forth above, the Attorney General respectfully
requests that this Court grant expedited review of this
motion to intervene, as he has demonstrated good
cause as to why the motion should receive expedited
review—namely, in light of the upcoming deadline for
filing a petition for rehearing and Secretary
Friedlander’s decision not to pursue this litigation

JA 169
further. The filings required by Sixth Circuit Rule
27(c)(2) are attached.
CONCLUSION
On behalf of the Commonwealth of Kentucky,
Attorney General Daniel Cameron respectfully
requests that he be permitted to intervene and that
this motion receive expedited review.
Respectfully submitted,
s/ Barry L. Dunn
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Kentucky
Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
[*** Certificates omitted***]

JA 170
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 19-5516
[Filed June 12, 2020]
_____________________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C., )
et al.,
)
)
Plaintiffs-Appellees
)
v.
)
)
ERIC FRIEDLANDER, in his official capacity )
as Acting Secretary of the Cabinet for Health
)
and Family Services of the Commonwealth of
)
Kentucky
)
)
Defendant-Appellant
)
_____________________________________________)
On Appeal from the United States District Court for
the Western District of Kentucky at Louisville, Case
No. 3:18-cv-224-JHM
NOTICE OF INTENT TO OPPOSE
Plaintiffs-Appellees in the above-captioned appeal
hereby notify the Court of their intent to oppose the
motion to intervene filed yesterday, June 11, 2020, by
Kentucky Attorney General Daniel Cameron, Dkt. 56,
and respectfully request until June 22, 2020 to
respond. See Fed. R. App. P. 27 (responses “must be
filed within 10 days after service of the motion unless
the court shortens or extends the time”). Plaintiffs-

JA 171
Appellees do not believe that intervention by the
Attorney General for purposes of seeking en banc
review should be permitted. To permit the orderly
resolution of the intervention motion, however,
Plaintiffs-Appellees would not oppose an extension of
the deadline to file a petition for rehearing en banc,
which the Attorney General cites as the basis for his
request for expedited review.
According to the Attorney General, who until just
yesterday represented Defendant-Appellant Secretary
Friedlander in this matter, see Dkt. 55, he learned on
June 9, 2020, that Secretary Friedlander would not be
pursuing en banc review of this Court’s June 2 Opinion
and Order, see Dkt. 56 at 11. Yet, while the Attorney
General was well aware that the deadline to file a
petition for rehearing en banc in this case is June 16,
2020, see Fed. R. App. P. 40(a)(1), he waited two days
to inform the parties and this Court of his intention to
move to intervene. To provide Plaintiffs-Appellees and
the Court adequate time to consider this extraordinary
request, Plaintiffs-Appellees respectfully request that
they be permitted the ten days authorized by Federal
Rule of Appellate Procedure 27 to respond, and have no
objection to this Court extending the deadline for
seeking en banc review to adequately consider the
issue.
If, however, the Court is not inclined to extend the
en banc petition deadline, Plaintiffs-Appellees
respectfully request until 6 p.m. on Monday, June 15 to
respond to the Attorney General’s motion.

JA 172
Dated: June 12, 2020.
Respectfully submitted,
/s/ Heather L. Gatnarek
Heather L. Gatnarek
ACLU of Kentucky
325 W. Main Street, Suite 2210
Louisville, Kentucky 40202
(502) 581-9746
heather@aclu-ky.org
Michele Henry
Craig Henry PLC
401 West Main Street
Suite 1900
Louisville, KY 40202
(502) 614-5962
mhenry@craighenry.com
Leah Godesky
O’Melveny & Myers LLP
7 Times Square
Times Square Tower
New York, New York 10036
(212) 326-2254
lgodesky@omm.com

JA 173
Andrew Beck
Alexa Kolbi-Molinas
Elizabeth Watson
Meagan Burrows
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, New York 10004
(212) 549-2633
abeck@aclu.org
akolbi-molinas@aclu.org
ewatson@aclu.org
mburrows@aclu.org
Counsel for Appellees
[*** Certificate of Service omitted ***]

JA 174
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 19-5516
[Filed June 15, 2020]
_____________________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C., )
et al.,
)
)
Plaintiffs-Appellees
)
v.
)
)
ERIC FRIEDLANDER, in his official capacity )
as Acting Secretary of the Cabinet for Health
)
and Family Services of the Commonwealth of
)
Kentucky
)
)
Defendant-Appellant
)
_____________________________________________)
On Appeal from the United States District Court for
the Western District of Kentucky at Louisville, Case
No. 3:18-cv-224-JHM
PLAINTIFFS-APPELLEES’ OPPOSITION TO
MOTION TO INTERVENE BY ATTORNEY
GENERAL DANIEL CAMERON
INTRODUCTION
Two years after the Attorney General sought and
received a court-ordered stipulation of dismissal from
this case, six months after the current Attorney
General took office, and one week after this Court

JA 175
affirmed the judgment below, the Attorney General
moves to intervene to pursue en banc or certiorari
review. The relief he requests is as unwarranted as it
is unprecedented. Faithfully applying Federal Rule of
Procedure 24’s timeliness requirement, this Court has
never authorized intervention after a panel decision.
And no court in the entirety of federal jurisprudence
has done so to allow what the Attorney General wishes
to do here: Press a new argument that the party on
whose side intervention is sought deliberately forfeited
on appeal.
The unprecedented untimeliness of the Attorney
General’s motion alone mandates that it be denied, but
there is far more. The Attorney General’s Office
relinquished its interest in this case when it sought
and received a court-ordered stipulation of dismissal,
meaning that the Attorney General lacks a Rule 24
interest in the appeal, lacks Article III standing, and
should be judicially estopped from attempting to
reverse course at the eleventh hour. And the Attorney
General’s disagreement with Appellant’s litigation
strategy not to pursue extraordinary post-decision
review does not establish inadequacy of representation.
The motion must be denied.
BACKGROUND1
H.B. 454 (the “Act”) prohibits the standard secondtrimester abortion method. EMW Women’s Surgical
Ctr., P.S.C. v. Friedlander, No. 19-5516, 2020 WL
2845687, at *14 (6th Cir. June 2, 2020).
1

Unless otherwise indicated, all quotation marks and citations
have been omitted and all emphases supplied.

JA 176
The Act took effect upon then-Governor Bevin’s
signature on April 10, 2018, and Plaintiffs filed suit
that same day, naming the Attorney General, in his
official capacity, as one of the Defendants. [Compl. R.1,
PageID##1–2]. The following month, the Attorney
General, acting in his official capacity, stipulated to the
entry of a court order voluntarily dismissing his Office
from the litigation. [Stipulation & Order of Dismissal,
R. 51, PageID##697-699]. The Attorney General’s
dismissal was subject to a series of conditions,
including, inter alia:
(1) “the agreement of [the Attorney General] and
all personnel employed by or associated with the
Office of the Attorney General [] to not bring any
future enforcement[] action of any kind with
respect to Plaintiffs arising from H.B. 454 . . .
until a Court enters a final judgment in the
matter disposing of all the claims, and the
exhaustion of any and all appeals that may
arise”; and
(2) the agreement of the Attorney General, “in
his official capacity [], that any final judgment
. . . concerning the constitutionality of H.B. 454
(2018) will be binding on the Office of the
Attorney General, subject to any modification,
reversal or vacation of the judgment on appeal.”
[Id.] The Executive Director of the Kentucky Board of
Medical Licensure was also voluntarily dismissed from
the case before trial, leaving then-Secretary for the
Cabinet of Health and Family Services Meier (the
“Secretary”) and the Commonwealth Attorney to

JA 177
defend the Act. [See Stipulations and Orders of
Dismissal, R.51-52, PageID##697-702].
After a five-day bench trial in November 2018,
during which both sides presented extensive expert
testimony and documentary evidence, the District
Court concluded that H.B. 454’s enforcement would
effectively ban abortion beginning at 15 weeks,
imposing an undue burden, and entered judgment for
Plaintiffs. EMW Women’s Surgical Ctr., P.S.C. v. Meier,
373 F. Supp. 3d 807, 826 (W.D. Ky. 2019). The District
Court’s decision was supported by detailed factual
findings, id. at 817-25, which mirrored the findings of
every court considering comparable evidence in
challenges to similar restrictions, id. at 815-17.
The Commonwealth (via the Secretary) appealed. In
its appeal, the Commonwealth did not press the thirdparty standing argument that had been rejected by the
District Court, Meier, 373 F. Supp. 3d at 813,
purporting to “preserve[] [the] right to argue that EMW
lacks standing to prosecute this case on behalf of
women seeking an abortion.” App. Br. at 25 n.3; but see
United States v. Huntington Nat’l Bank, 574 F.3d 329,
331 (6th Cir. 2009) (“[A] party does not preserve an
argument by saying in its opening brief (whether
through a footnote or not) that it may raise the issue
later.”).
Prior to appellate argument, Kentucky held
elections, with Andy Beshear being elected Governor
and Daniel Cameron elected Attorney General. The
new Attorney General did not attempt to intervene in
this matter; rather, along with the same lawyers who
had litigated the case from the beginning, he entered

JA 178
an appearance on behalf of now-Acting Secretary
Friedlander. See e.g., Dkts. 5-6, 11, 45-48.
On June 2, 2020, this Court issued its opinion
affirming the District Court’s judgment. EMW, 2020
WL 2845687, at *17. This Court concluded that the
Commonwealth failed to preserve any argument on
third-party standing, noting that the Commonwealth
had not renewed on appeal the standing arguments
that had been “cursorily argued” and “rightly rejected”
below, and that a single-sentence reference in the
Commonwealth’s brief did not preserve the issue. Id. at
*4 n.2.
On the merits, this Court emphasized the factbound nature of the District Court’s judgment,
explaining that “the clear error standard . . . presents
a particularly high hurdle for the appellant to
overcome,” and concluding that the “thorough judicial
record [compiled] over the course of a five-day bench
trial,” id. at *4, amply supported the District Court’s
factual findings on all fronts, id. at *7-14; see also id. at
*8, *10-11. This Court also recognized that “in every
challenge [to similar laws] brought to date,” courts
have made similar factual findings and “enjoined the
law, finding that it indeed unduly burdens th[e]
[abortion] right.” Id. at *3 (collecting cases); id. at *7,
*10-11.
Now—nearly two years after the Attorney General
stipulated to his dismissal from this action, nearly six
months after entering an appearance on behalf of the
Secretary, and over a week after this Court issued its
decision—the Attorney General moves to intervene on
the basis that the Secretary elected not to pursue the

JA 179
extraordinary steps of seeking rehearing en banc or
petitioning for certiorari. The motion announces the
Attorney General’s intent to seek en banc review on the
issue of third-party standing, notwithstanding that the
issue was never briefed on appeal.
ARGUMENT
I. Intervention as of Right Is Improper.
Four factors govern the Court’s review of the
Attorney General’s extraordinary request to intervene
as of right after this Court decided this case. The
movant must establish that “(1) their motion to
intervene was timely; (2) a substantial, legal interest in
the subject matter of the case; (3) their ability to
protect that interest may be impaired without
intervention; and (4) the parties before the court may
not adequately represent their interest.” In re
Troutman Enters., Inc., 286 F.3d 359, 363 (6th Cir.
2002); see also Fed. R. Civ. P. 24(a)(2). The Attorney
General “must prove each of the four factors; failure to
meet one of the criteria will require that the motion to
intervene be denied.” United States v. Michigan, 424
F.3d 438, 443 (6th Cir. 2005). Given the posture of this
case, the Attorney General cannot satisfy even one
factor, let alone four.
A. The Attorney General’s Motion Is Untimely.
The Attorney General’s motion is not merely
untimely. It falls so far outside Rule 24’s timeliness
threshold that the Attorney General cannot identify a
single decision where intervention was authorized
after a court of appeals’ decision under anything
comparable to the circumstances present here. To call

JA 180
such eleventh-hour maneuvering “timely” would strip
that word of meaning.
This Court considers five factors to assess an
intervention motion’s timeliness, evaluating them “in
the context of all relevant circumstances”:
1) the point to which the suit has progressed;
2) the purpose for which intervention is sought;
3) the length of time preceding the application
during which the proposed intervenors knew or
should have known of their interest in the case;
4) the prejudice to the original parties due to the
proposed intervenors’ failure to promptly
intervene after they knew or reasonably should
have known of their interest in the case; and
5) the existence of unusual circumstances
militating against or in favor of intervention.
Blount-Hill v. Zelman, 636 F.3d 278, 284 (6th Cir.
2011). As this Court has made clear, “a motion to
intervene filed during the final stages of a proceeding
is not favorably viewed.” United States v. BASF-Inmont
Corp., 52 F.3d 326, at *2 (6th Cir. 1995). The Attorney
General’s motion exemplifies such disfavored filings.
With respect to the first factor, the Attorney
General pays lip service to the “substantial[]”
progression of this suit, Mot. to Intervene, dkt. 56
(“Mot.”) 6, but points to cases where intervention has
been authorized following the district court’s judgment
for purposes of taking an appeal, id. at 7-8 (citing, e.g.,
United States v. Detroit, 712 F.3d 925, 932 (6th Cir.
2013)). Even in those circumstances, courts have
routinely admonished that appellate-stage intervention

JA 181
is permissible “only in an exceptional case for
imperative reasons.” Amalgamated Transit Union
Intern., AFL-CIO v. Donovan, 771 F.2d 1551, 1552
(D.C. Cir. 1985); accord In re Syntax-Brillian Corp.,
610 F. App’x 132, 135 n.6 (3d Cir. 2015) (noting the
“high threshold for intervening for the first time on
appeal”); Hutchinson v. Pfeil, 211 F.3d 515, 519 (10th
Cir. 2000); Bates v. Jones, 127 F.3d 870, 873 (9th Cir.
1997); Hall v. Holder, 117 F.3d 1222, 1231 (11th Cir.
1997); BASF-Inmont, 52 F.3d at *5.
But those are decidedly not the circumstances
here—where intervention is sought not to appeal, but
to seek en banc review after the court of appeals has
decided the case—and thus the decisions the Attorney
General invokes on timeliness are largely inapposite.
See, e.g., Associated Builders & Contractors, Saginaw
Valley Area Chapter v. Perry, 115 F.3d 386, 389 (6th
Cir. 1997) (addressing intervention to appeal district
court decision). “Where, as here, the motion for leave to
intervene comes after the court of appeals has decided
a case, it is clear that intervention should be even more
disfavored.” Amalgamated Transit, 771 F.2d at 1553
(emphasis in original); see also id. at 1553 n.5 (citing
decisions “uniformly” holding such motions untimely);
accord 7C Charles Alan Wright & Arthur R. Miller,
Fed. Practice and Procedure § 1916 (3d ed. 2020)
(“There is even more reason to deny an application to
intervene made . . . after the judgment has been
affirmed on appeal.”).
Indeed, so disfavored are such motions that the
Attorney General can identify no decision authorizing
such belated intervention from this Circuit, and just

JA 182
two in the entirety of federal jurisprudence. Mot. 7
(citing Peruta v. Cty of San Diego, 824 F.3d 919 (9th
Cir. 2016) (en banc); Day v. Apoliona, 505 F.3d 963, 965
(9th Cir. 2007)). Those two decisions, meanwhile, do
not help the Attorney General. As the Ninth Circuit
took pains to emphasize, the proposed intervention in
Apoliona, while profoundly belated, would not
“interject new issues into the litigation,” 505 F.3d at
966. And in Peruta, the court held intervention was
timely because the state-intervenor could not have
known the constitutionality of its laws were at issue
until the panel issued its decision. 824 F.3d at 940.
That is the very opposite of the Attorney General’s
motion, which seeks to interject new arguments about
third-party standing, which the Appellant in this
case—represented until just moments ago by the
Attorney General himself—had expressly declined to
pursue. See EMW, 2020 WL 2845687, at *4 n.2.
This attempt, through last-minute intervention, to
litigate issues that Appellant chose to forfeit
throughout the pendency of this appeal likewise
demonstrates the Attorney General’s deficiencies on
other timeliness factors—namely, “the purpose for
which intervention is sought” and “the prejudice to the
original parties.” Blount-Hill, 636 F.3d at 284. Simply
put, intervening to seek en banc review of arguments
deliberately forfeited by the same lawyers on appeal is
a purpose entirely unsupported by any of the precedent
the Attorney General cites. See, e.g., Peruta, 824 F.3d
at 941; Day, 505 F.3d at 966. And waiting until the en
banc stage to raise arguments that Appellant forfeited
would unquestionably prejudice Appellees, who “have
an interest in the expeditious and efficient disposition

JA 183
of this action” and who should not be required to
respond to last-minute argument-by-ambush. BlountHill, 636 F.3d at 286-87. The Attorney General is not
“picking up where Secretary Friedlander left off.” Mot.
11-12. He is picking up what Secretary Friedlander left
out. At this late hour, that is prejudicial. See, e.g., Day,
505 F.3d at 966 (“interject[ing] new issues into the
litigation” at this stage would be prejudicial); Banco
Popular de Puerto Rico v. Greenblatt, 964 F.2d 1227,
1232 (1st Cir. 1992) (attempted intervention causing
“last minute disruption” is prejudicial).2
Moreover, “the length of time preceding the
application during which the proposed intervenor[]
knew or should have known of [his] interest in the
case” further reflects the untimeliness of the Attorney
General’s filing. Blount-Hill, 636 F.3d at 284. Decisions
from this and other Circuits demonstrate that public
statements of a new administration on the topic at
issue in ongoing litigation may put would-be
2

While the Attorney General places primary emphasis on his
newfound desire to litigate third-party standing—calling it
“potentially dispositive” despite not having preserved the point
when representing the Appellant, Mot. 4—he also wishes to
intervene to challenge the merits of the Court’s decision. As noted
above, this Court has never authorized intervention at such a late
stage of a case. The Attorney General has not justified his request
that the Court break new ground here, where the panel’s factbound decision (a) affirms trial findings that the Appellant did not
even attempt to argue were clearly erroneous, see EMW, 2020 WL
2845687, at *12; and (b) aligns with an unbroken consensus of
courts, id. at *3. Cf. United States v. Games-Perez, 695 F.3d 1104,
1115 (10th Cir. 2012) (Murphy, J., concurring in the denial of
rehearing en banc) (“[T]he circuits have historically been loath to
create a split where none exists.”).

JA 184
intervenors on notice that their interests in the
litigation are implicated. See Equal Emp’t Opportunity
Comm’n v. R.G. & G.R. Harris Funeral Homes, Inc.,
No. 16-2424, 2017 WL 10350992, at *1 (6th Cir. Mar.
27, 2017) (timeliness of intervention measured from
beginning of new administration where “EEOC’s recent
actions imply that the new administration will less
aggressively pursue transgender rights”); United States
House of Representatives v. Price, No. 16-5202, 2017
WL 3271445, at *2 (D.C. Cir. Aug. 1, 2017) (“The States
have filed within a reasonable time from when their
doubts about adequate representation arose due to
accumulating public statements by high-level
officials . . .”).
Here, the Attorney General has known of—and
publicly criticized—Governor Beshear’s position on
abortion since well before both took office.3 If the
Attorney General wished to guarantee that this
litigation would exhaust every discretionary and
extraordinary step (rehearing en banc, petitions for
certiorari), he has been on notice that his litigation
preferences might not carry the day since he and
Governor Beshear took office more than six months
ago. It is telling that the motion does not even attempt
3

See, e.g., Bruce Schreiner & Dylan Lovan, Democratic Candidates
Stake Out Stances on Abortion, Associated Press (Apr. 30, 2019),
https://apnews.com/8943d79e37724da6ab0f370c312f9a50; Ryland
Barton, Cameron, Stumbo Square Off In Kentucky Attorney
General Debate, Kentucky Public Radio (Oct. 14, 2019),
https://wfpl.org/cameron-stumbo-square-off-in-kentuckyattorneygeneral-debate/ (“Current Attorney General Andy Beshear
has said he will not defend some of the [abortion] laws”; thencandidate Cameron criticized that position).

JA 185
to identify any impediment to seeking intervention
then, as opposed to in the “final stages” of this appeal
after the Court decided the case. BASF-Inmont Corp.,
52 F.3d at *2.
The final timeliness factor focuses on “the existence
of unusual circumstances militating against or in favor
of intervention.” Blount-Hill, 636 F.3d at 284. That the
timing of the Attorney General’s motion is not just
unusual but unprecedented militates firmly against
intervention. This Court has never found a post-panel
decision intervention motion timely, and no federal
court has done so under the circumstances
here—where intervention is sought “after the court of
appeals has decided a case” in order to pursue en banc
review of an issue not briefed by the parties because it
was forfeited by the lawyers who now represent the
would-be intervenor. Amalgamated Transit, 771 F.2d
at 1553 (emphasis in original). The Attorney General’s
motion is untimely, and for that reason alone it must
be denied.
B. The Attorney General Cannot Establish
Article III Standing Or a Substantial Legal
Interest in the Subject Matter.
Even if the Attorney General’s motion to intervene
were timely, it would fail. Supreme Court and Sixth
Circuit precedent instructs that where, as here, the
proposed intervenor attempts to “appeal a decision the
primary party does not challenge, an intervenor must
independently demonstrate standing.” Va. House of
Delegates v. Bethune-Hill, 139 S. Ct. 1945, 1951 (2019);
see also Chapman v. Tristar Products, Inc., 940 F.3d
299, 304 (6th Cir. 2019) (“[I]ntervenors must establish

JA 186
Article III standing if they wish to appeal the outcome
of a lawsuit.”); Providence Baptist Church v. Hillandale
Comm., Ltd., 425 F.3d 309, 317 (6th Cir. 2005) (same).
Article III’s injury-in-fact requirement—which
“mandates that [a] party allege such a personal stake
in the outcome of the controversy as to warrant his
invocation of federal-court jurisdiction”—is “stricter
than the substantial interest inquiry” for intervention
as right. Providence Baptist Church, 425 F.3d at 318.
As set forth below, the Attorney General fails to satisfy
Rule 24’s substantial legal interest requirement, and
he therefore necessarily lacks the “personal stake”
necessary for Article III standing to press the appeal.
Id.; see also Perry v. Schwarzenegger, 630 F.3d 898, 906
(9th Cir. 2011) (where “[m]ovants lacked any
significant protectable interest that would make them
eligible for intervention under Rule 24(a)[,] [i]t
necessarily follows that they lack Article III standing
to appeal the merits of the constitutional holding
below”).
Rule 24 requires that an intervenor have a “direct,
substantial, legally protectable interest” in the action,
such that it is a “real party in interest in the
transaction which is the subject of the proceeding.”
Mich. State AFL-CIO v. Miller, 103 F.3d 1240, 1246
(6th Cir. 1997). “[T]his does not mean that any
articulated interest will do.” Coal. to Defend
Affirmative Action v. Granholm, 501 F.3d 775, 780 (6th
Cir. 2007). Rather, “[t]o intervene as a matter of right,
the [proposed intervenor] must show that an
unfavorable disposition of the action may impair [its]
ability to protect [its] interests in the litigation.”

JA 187
Purnell v. City of Akron, 925 F.2d 941, 948 (6th Cir.
1991).
The sole “legal interest” asserted by Attorney
General—a general interest in “defend[ing] actions on
behalf of the [] Commonwealth” derived from his
“status and duties as the Commonwealth’s ‘chief law
officer,’” Mot. 14-16—falls short. The Attorney General
renounced any official-capacity interest in defending
the Act and resolved his role in this case when he
sought and entered into the May 21, 2018 courtordered stipulation of dismissal. [Stipulation & Order
of Dismissal, R. 51, PageID##697-699].4
“A party’s stipulations are binding on that party
and may not be contradicted by him at trial or on
appeal. It follows from these two propositions that a
government official, sued in his representative
capacity, cannot freely repudiate stipulations entered
into by his predecessor in office during an earlier stage
of the same litigation.” Morales Feliciano v. Rullan, 303
F.3d 1, 7-8 (1st Cir. 2002) (Secretary bound by
stipulation entered with the consent and active
cooperation of his predecessor in office); see also Corbin
v. Blankenburg, 39 F.3d 650, 654 (6th Cir. 1994) (“[A]
substituted party steps into the same position of the

4

This assumes arguendo that such an interest would be sufficient
in the first place, which this Court’s prior decisions call into
question. Cf. Children’s Healthcare is a Legal Duty, Inc. v. Deters,
92 F.3d. 1412, 1416 (6th Cir. 2016) (“General authority to enforce
the laws of the state is not sufficient to make government officials
the proper parties to litigation challenging the law.”); EMW
Women’s Surgical Ctr., P.S.C. v. Beshear, 920 F.3d 421, 444-46
(6th Cir. 2019).

JA 188
original party.”). Attorney General Cameron, as the
“individual officeholder,” cannot now use intervention
to sidestep the court-ordered agreement that his
Office—“the real party in interest” in an official
capacity suit—sought and committed to. Karcher v.
May, 484 U.S. 72, 78 (1987) (“[T]he real party in
interest in an official-capacity suit is the entity
represented and not the individual officeholder.”).
The equitable doctrine of judicial estoppel likewise
precludes what the Attorney General seeks to do here.
After having “assume[d] a certain position in a legal
proceeding, and succeed[ed] in maintaining that
position,” the Attorney General cannot engage in an
about-face “simply because his interests have changed”
and “assum[e] a contrary position” that is “to the
prejudice the party who acquiesced to the previous
position.” Lorillard Tobacco Co. v. Chester, Willcox &
Saxbe, 546 F.3d 752, 757 (6th Cir. 2008) (quoting N.H.
v. Me., 532 U.S. 742, 749 (2001)); see also Yniguez v.
State of Ariz., 939 F.2d 727, 738-39 (9th Cir. 1991)
(Attorney General estopped from intervening to appeal
decision after previously securing his dismissal from
the case by representing to the district court that he
did not want to be a party to the litigation).
Having relinquished any official-capacity interest in
defending the Act, the Attorney General has no leg to
stand on. To the extent he claims some free-floating
interest on behalf of the Commonwealth separate and
apart from his official duties, he provides nothing to
support this. Indeed, every citation in the Attorney
General’s brief regarding his role and duties as “chief
law officer” speak to the official-capacity authority

JA 189
that, for purposes of this litigation, was resolved in
May 2018. Mot. 14-15. When stripped of the veil of
“official-capacity” authority, all that remains is the
Attorney General’s general ideological “interest” in
defending an abortion restriction. But as this Court has
made clear, such an interest “cannot be deemed
substantial.” Coal. to Defend Affirmative Action v.
Granholm, 501 F.3d 775, 782 (6th Cir. 2017) (internal
citations omitted). Accordingly, the Attorney General
lacks a “substantial legal interest” in the matter, and,
of necessity, cannot satisfy the stricter requirement of
Article III standing, which is required to press this
appeal.
C. Denial of Intervention Will Not Impair the
Attorney General’s Interests, Which Have
Been Adequately Represented by Secretary
Friedlander.
The Attorney General cannot satisfy the third and
fourth factors for intervention as of right either. See
Northland Family Planning Clinic, Inc. v. Cox, 487
F.3d 323, 343 (6th Cir. 2007). Because the Attorney
General cannot establish a substantial legal interest
“on behalf of the Commonwealth” in maintaining this
appeal, let alone Article III standing, it follows a
fortiori that his ability to protect such an interest will
not be impaired if intervention is denied. Indeed, the
Attorney General could not even enforce H.B. 454
unless, e.g., (1) the Commonwealth attorney “requests
in writing the assistance of the Attorney General,” Ky.
Rev. Stat. § 15.190, or (2) the Governor requests his
participation in writing, id. § 15.200. Thus, regardless
of the outcome of this litigation, the Attorney General

JA 190
would have no independent enforcement authority
under H.B. 454, and thus no such interest could be
impaired by the denial of intervention in this case.5
Further, the Attorney General is incorrect that his
purported interests are not adequately represented by
the Secretary simply because the Secretary opted not
to seek en banc review. Mot. 15-17, 19-20.
“[D]isagreement over litigation strategy . . . does not, in
and of itself, establish inadequacy of representation.”
Bradley v. Milliken, 828 F.2d 1186, 1192 (6th Cir.
1987); see also Ruiz v. Collins, 981 F.2d 1256, 1256 (5th
Cir. 1992) (representation not “inadequate because
[counsel] will not make all the arguments [the proposed
intervenor] would make if he had his druthers”). And
while this Court has held that “a decision not to appeal
by an original party to the action can constitute
inadequate representation of another party’s interest,”
Mich. State AFL-CIO, 103 F.3d at 1248, such cases
have been limited to decisions to appeal from district
court decisions, see Mot. 15-17. Indeed, as discussed
supra, appellate-stage intervention is generally

5

Nor does the Attorney General have an absolute duty under
Kentucky law to defend H.B. 454. As this Court has recognized,
Kentucky law “does not require the Attorney General to represent
the Commonwealth ‘where it is made the duty of the
Commonwealth’s attorney []’ instead.” EMW v. Beshear, 920 F.3d
at 445 (quoting Ky. Rev. Stat. § 15.020). In fact, even in state
court, “the Attorney General is not required by law to participate
in any proceeding . . . regarding a potential constitutional
challenge.” Com. v. Hamilton, 411 S.W. 3d 741, 751 (Ky. 2013).
Thus, even if the Attorney General had a substantial legal interest
in this matter (which he does not), the extent to which this interest
would be “impaired” if intervention is denied is vastly overstated.

JA 191
disfavored, and is reserved only for exceptional
circumstances. See also Cuyahoga Valley Ry. Co. v.
Tracy, 6 F.3d 389, 396 (6th Cir. 1993) (“The intervenors
chose to rely on the Attorney General’s best efforts,
which they were entitled to do. They are not, however,
entitled to then enter the proceedings after the case
has been fully resolved, in an attempt to achieve a
more satisfactory resolution.”). This Court has never
held that the decision not to petition for en banc review
or certiorari constitutes inadequate representation.
This case provides no justification for breaking new
ground. The Attorney General does not dispute that the
Secretary “vigorously defended against the challenge[]
[to H.B. 454] within the bounds of existing law and
court decisions.” Ragsdale v. Turnock, 941 F.2d 501,
505 (7th Cir. 1991). This includes appealing the
District Court decision below. But seeking en banc
review is altogether different. As this Court’s rules
make plain, a “petition for rehearing en banc is an
extraordinary procedure intended to bring to the
attention of the entire court a precedent-setting error
of exceptional public importance or an opinion that
directly conflicts with Supreme Court or Sixth Circuit
precedent.” 6 Cir. I.O.P. 35(a). For this reason, this
Court has recognized that “[c]ounsel fully discharges
his or her duty in a case without filing a petition for
rehearing en banc” unless the case meets these “rigid
standards.” 6 Cir. R. 35(c).
To the extent the Attorney General now disagrees
with the Secretary’s decision not to invoke this
extraordinary procedure, reserved for only the most
extreme cases, it is just that—a disagreement. The

JA 192
panel’s fact-bound decision places this case far outside
the bounds of what is considered appropriate for en
banc review, see 6. Cir. I.O.P. 35(a)—or certiorari, for
that matter, see Supreme Court R. 10. Moreover, there
is no conflict with Supreme Court or Sixth Circuit
precedent, as the panel’s decision is likewise consistent
with every district, appellate, and Supreme Court case
to ever consider a ban on D&E abortion. See EMW II,
2020 WL 2845687 at *3, *6. That the primary basis for
the Attorney General’s putative en banc petition
appears to be an issue his own lawyers forfeited when
they represented the Secretary in this case only further
underscores that the issue here is not one of
inadequate representation by the Secretary, but a
difference of opinion and strategy. That is not a
sufficient basis to justify intervention, particularly at
this late stage in the litigation.
II. The Attorney General Should Not Be Granted
Permissive Intervention.
The Attorney General’s request for permissive
intervention should also be denied. To obtain
permissive intervention under Rule 24(b)(1), a
proposed intervenor must “establish that the motion for
intervention is timely and alleges at least one common
question of law or fact.” Michigan, 424 F.3d at 445.
“The decision to permit intervention is wholly
discretionary.” Planned Parenthood of Wis., Inc. v.
Kaul, 942 F.3d 793, 803 (7th Cir. 2019). Because of its
discretionary nature, courts “analyze the timeliness
element more strictly than [they] do with intervention
as of right.” League of United Latin Am. Citizens v.
Wilson, 131 F.3d 1297, 1308 (9th Cir. 1997); see also R

JA 193
& G Mortg. Corp. v. Fed. Home Loan Mortg. Corp., 584
F.3d 1, 8 (1st Cir. 2009) (timeliness requirement for
permissive intervention is stricter than requirement for
intervention as of right, which itself has “considerable
bite”). In exercising its discretion, the Court must also
“balance undue delay and prejudice to the original
parties,” as well as “any other relevant factors” to
determine whether to allow intervention. Michigan,
424 F.3d at 445.
For the reasons described above, the Attorney
General’s motion is untimely; late-breaking permissive
intervention would therefore cause significant
prejudice to Plaintiffs-Appellees and undue disruption
of these proceedings. The Attorney General does not
cite a single authority––Sixth Circuit or
otherwise––granting permissive intervention at the en
banc-petition or even appellate stage of the case. See
Mot. 17-18. That is because this Court routinely denies
as untimely permissive-intervention motions at far
earlier stages. See, e.g., Blount-Hill, 636 F.3d at 287;
Bay Mills Indian Cmty. v. Snyder, 720 F. App’x 754,
757 (6th Cir. 2018); accord Hodges, Grant & Kaufmann
v. U.S. Gov’t, Dep’t of Treasury, I.R.S., 762 F.2d 1299,
1302 (5th Cir. 1985).6
6

The issues of untimeliness here are compounded by the practical
risks stemming from “the State’s having two representatives at the
same time,” which would “needlessly complicate” this case. Kaul,
942 F.3d at 803-04 (denying legislature’s permissive-intervention
motion when it sought to second-guess attorney general’s strategic
litigation decisions). The Secretary, as a representative of the
Commonwealth, has determined that further litigation of this
fiercely litigated dispute exposes the Commonwealth to increased
costs and risks of attorneys’ fees obligations without a

JA 194
Nor is the Attorney General’s request for special
permissive-intervention consideration under Rule
24(b)(2)(A) compelling. See Rule 24(b)(2)(A) (providing
that “on a timely motion, the court may permit . . . a
state governmental officer . . . to intervene if a party’s
claim or defense is based on . . . a statute . . .
administered by the officer”). As set forth supra, the
Attorney General has no independent authority to
“administer” H.B. 454. Moreover, as also set forth
supra, to the extent he can administer H.B. 454 at all,
his Office asked to be dismissed from this case, and
was dismissed upon a stipulated court order wherein
the Attorney General agreed to be bound by the
judgment.
CONCLUSION
For the foregoing reasons, the Attorney General’s
motion should be denied.

corresponding benefit. The Attorney General, purporting to
represent interests of the same Commonwealth, is attempting to
substitute his judgment for the reasoned strategic decision the
Commonwealth’s advocate has already made.

JA 195
Dated: June 15, 2020
Respectfully submitted,
/s/Andrew Beck
Andrew Beck
Alexa Kolbi-Molinas
Meagan Burrows
Elizabeth Watson
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, New York 10004
(212) 549-2633
abeck@aclu.org
akolbi-molinas@aclu.org
mburrows@aclu.org
ewatson@aclu.org
Michele Henry
Craig Henry PLC
401 W. Main Street, Suite 1900
Louisville, Kentucky 40202
(502) 614-5962
mhenry@craighenrylaw.com
Heather L. Gatnarek
ACLU of Kentucky
325 W. Main Street, Suite 2210
Louisville, Kentucky 40202
(502) 581-9746
heather@aclu-ky.org

JA 196
Leah Godesky
O’Melveny & Myers LLP
7 Times Square
Times Square Tower
New York, New York 10036
(212) 326-2254
lgodesky@omm.com
Counsel for Appellees
[*** Certificates omitted ***]

JA 197
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5516
[Filed June 16, 2020]
_____________________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C., on
)
behalf of itself, its staff, and its patients;
)
ASHLEE BERGIN, M.D., M.P.H. and TANYA
)
FRANKLIN, M.D, M.S.P.H., on behalf of
)
themselves and their patients
)
)
Plaintiffs–Appellees
)
v.
)
)
ERIC FRIEDLANDER, in his official capacity
)
as Acting Secretary of Kentucky’s Cabinet
)
for Health and Family Services
)
)
Defendant–Appellant
)
_____________________________________________)
Appeal from the United States District Court for the
Western District of Kentucky at Louisville
Honorable Joseph H. McKinley, Jr.
REPLY IN SUPPORT OF MOTION TO
INTERVENE BY ATTORNEY GENERAL
DANIEL CAMERON, ON BEHALF OF THE
COMMONWEALTH OF KENTUCKY

JA 198
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
INTRODUCTION
This case is about the constitutionality of a
Kentucky law enacted by the state legislature with a
broad, bipartisan majority. Surely the Commonwealth
has a significant interest in ensuring that its laws are
defended in front of every court and in every appeal.
That’s all this motion is about. Within 48 hours of
learning that Secretary Friedlander would no longer
defend H.B. 454, Attorney General Cameron moved to
intervene on behalf of the Commonwealth, so as to
prevent a duly enacted law from being rendered invalid
because of a state official’s inaction.
The Plaintiffs object, but not because there is any
real prejudice that will result from the Attorney
General’s intervention. Nor because any case law
forecloses such a request. They object because
Kentucky’s recent election might afford them a
litigation windfall of sorts, as the public official
previously representing the Commonwealth’s interest
in this case will no longer do so. But the legislative acts
of a sovereign state should not live or die on the whims

JA 199
of one official, particularly when the Commonwealth’s
chief law officer—who is an independently elected
constitutional officer—is willing to step in and assume
responsibility. Attorney General Cameron is not asking
to do anything more than exhaust the Commonwealth’s
appellate rights. The law of this circuit and the United
States Supreme Court demands he be allowed to do so.
ARGUMENT
I.

The motion to intervene is timely.

The Plaintiffs take a myopic approach toward
timeliness. They focus on how far the litigation has
progressed to the exclusion of the context that drives
the overall analysis. In most cases, late-stage
intervention is problematic because a new party with
different interests attempts to intervene in a way that
will disrupt the litigation. So it is no help to point out,
as the Plaintiffs do, that “courts have routinely
admonished that appellate-stage intervention is
permissible only in an exceptional case for imperative
reasons.” [See Plaintiffs’ Resp. at 9 (cleaned up)]. This
is precisely that case.
The Plaintiffs take the wrong lesson from the
unusual nature of this case. They claim that motions to
intervene at this stage are disfavored, relying on the
fact “that the Attorney General can identify no decision
authorizing such belated intervention from this
Circuit.” [Resp. at 10]. That’s true. But neither do the
Plaintiffs identify any decision from this circuit
denying intervention at this stage.
The better way to resolve the timeliness issue is to
look at what other courts have done in similar contexts.

JA 200
And the only cases bearing a resemblance to this one
are those in which the Ninth Circuit granted post-panel
intervention to preserve the state’s interests. See
Peruta v. Cty. of San Diego, 824 F.3d 919, 940–41 (9th
Cir. 2016) (en banc); Day v. Apoliona, 505 F.3d 963, 965
(9th Cir. 2007). As here, Peruta and Apoliona involved
the unusual circumstance of a state finding itself with
no one to defend its interests after the panel ruled. And
in both cases, the Court of Appeals granted
intervention to allow the state to finish the appeal by
seeking rehearing or certiorari. These are commonsense decisions that recognize the sovereign interests
at stake when a state has been sued over the validity
of its laws.
The Plaintiffs wrongly argue that this case is
different from those. Contrary to their claim otherwise,
Attorney General Cameron does not intend to “interject
new arguments” into this litigation, nor could he have
known prior to last week that the Commonwealth’s
interests would not be adequately represented. While
the Plaintiffs identified third-party standing as a “new
issue,” it was addressed by the trial court, discussed
during oral argument on appeal, and analyzed in Judge
Bush’s dissent.1 Regardless, the Attorney General
intends to continue defending the law on the merits,
particularly in light of the pending June Medical
decision and its effect on Hellerstedt—the case figuring
most prominently in the panel’s decision. So, the
Plaintiffs’ “new issue” argument is just sleight of hand.
1

Third-party standing, which is considered a matter of prudential
standing, cannot be waived. See Cmty. First Bank v. Nat’l Credit
Union Admin., 41 F.3d 1050, 1053 (6th Cir. 1994).

JA 201
Moreover, Attorney General Cameron could not
have known earlier that Secretary Friedlander would
forgo litigating this case. The Secretary had retained
counsel from the Attorney General’s office to represent
him at oral argument. By taking that step, rather than
simply dismissing the appeal, Secretary Friedlander
gave no indication he would reverse course. Just as in
the Ninth Circuit decisions, Attorney General Cameron
intervened as soon as he learned of Secretary
Friedlander’s decision. Thus, to agree with the
Plaintiffs is to split with the Ninth Circuit.
Tellingly, the Plaintiffs barely acknowledge
precedent from this circuit that allowed appellate
intervention under similar circumstances. See Assoc.
Builders & Contractors, Saginaw Valley Area Chapter
v. Perry, 115 F.3d 386, 389–90 (6th Cir. 1997). As here,
the attorney general in Perry intervened to prosecute
an appeal once he discovered that the official
representing the state no longer intended to do so. This
Court allowed it, acknowledging hat the state’s interest
was no longer adequately represented. Id. at 391. Yet
the Plaintiffs devote barely a sentence in their brief to
discussing Perry, distinguishing it on the specious
grounds that it concerned an appeal from the trial
court, not an en banc rehearing or appeal to the
Supreme Court. [Resp. at 9]. Why does that matter?
Surely a state’s interest on appeal is just as significant
whether appearing before a three-judge panel, an en
banc court, or in the Supreme Court.
Instead of discussing this circuit’s precedent, the
Plaintiffs point to Amalgamated Transit Union
International, AFL-CIO v. Donovan, 771 F.2d 1551

JA 202
(D.C. Cir. 1985), a case denying intervention by a
municipal body after the panel’s decision. Id. at
1553–54. The Plaintiffs leave out why the Donovan
court denied intervention. It held that intervention
would be “unduly disruptive and place[ ] an unfair
burden on the parties to the appeal” because the
intervenor sought to represent entirely new interests.
Id. at 1553. That is not the case here. As even the
Plaintiffs acknowledge, Secretary Friedlander
represented the Commonwealth’s interest in this
litigation, [Resp. at 4], and Attorney General Cameron
seeks only to represent that same interest now.2
The Plaintiffs also contend that the Attorney
General should have intervened earlier because
Governor Beshear’s stance on abortion was wellknown. [Resp. at 12–13]. But this misses the point and,
if the premise is accepted, will lead to a plethora of
motions to intervene in federal litigation after
administrations change. Less than two weeks after
Attorney General Cameron began his term, Secretary
Friedlander—Governor Beshear’s top health-care
official—requested attorneys within the Office of the
Attorney General to represent him before this Court.
[See Appearance, App. R. 41]. And not just any
attorney, it was the attorneys who represented the
previous Secretary prior to the election. Under those
2

Other cases the Plaintiffs cite suffer from this same flaw. The
Plaintiffs do not distinguish between new parties that represent
new interests intervening late in the game. See, e.g., In re SyntaxBrillian Corp., 610 F. App’x 132, 135 n.6 (3d Cir. 2015) (rejecting
motions to intervene without discussion of who the parties are);
Hutchinson v. Pfeil, 211 F.3d 515, 519 (10th Cir. 2000) (denying a
“conclusory motion” to intervene by multiple parties).

JA 203
circumstances, how could Attorney General Cameron
have known that Secretary Friedlander would decline
to continue the appeal after the panel’s decision? Even
after Governor Beshear’s inauguration, his
administration continued to defend the law before this
Court.
The premise that Attorney General Cameron waited
too late to file this motion strains credulity. He filed a
20-page motion within 48 hours of learning that
Secretary Friedlander would no longer defend
Kentucky’s law. He is not asking for delays that might
disrupt the ordinary appellate process. The Attorney
General has moved swiftly to ensure that the existing
deadlines will still be met.3 This is the definition of a
timely request.
II.

The Attorney General has standing to
represent the Commonwealth’s interests on
appeal.

“A state may designate an agent to represent its
interests in court. This is most commonly the state’s
Attorney General.” State by and through Tenn. Gen.
Assembly v. U.S. Dep’t of State, 931 F.3d 499, 515 (6th
Cir. 2019). Kentucky is no different.

3

Despite objections over timeliness, the Plaintiffs indicated they
have no objection to extending the time for parties to file for
rehearing en banc. [App. R. 57]. But Attorney General Cameron
did not request a delay, and in fact, asked the Court for expedited
review. Absent an extension, he intends to tender his petition for
rehearing en banc by the end of the day, which is the ordinary
deadline for filing.

JA 204
The Plaintiffs contend that the Attorney General
lacks standing to defend the Commonwealth’s interest
on appeal. They argue that he has no personal interest
in this litigation other than his “general interest in
‘defend[ing] actions on behalf of the [] Commonwealth’
derived from his ‘status and duties as the
Commonwealth’s ‘chief law officer.’‘” [Resp. at 15, 16].
But what else does the Attorney General need?
According to the cases cited by the Plaintiffs, the
answer is nothing.
The Plaintiffs cite Virginia House of Delegates v.
Bethune-Hill, 139 S. Ct. 1945, 1951 (2019), a case in
which the Supreme Court recently held that the
Virginia House of Delegates lacked standing to defend
a suit on behalf of the state. Yet the decision only
affirms the Attorney General’s standing here:
[A] a State has standing to defend the
constitutionality of its statute. No doubt, then,
the State itself could press this appeal. And, as
this Court has held, a State must be able to
designate agents to represent it in federal court.
Id. at 1952 (cleaned up). The Virginia House was
dismissed because “the House ha[d] not identified any
legal basis for its claimed authority to litigate on the
State’s behalf.” Id. Rather, “[a]uthority and
responsibility for representing the State’s interests in
civil litigation, Virginia law prescribes, rest exclusively
with the State’s Attorney General.” Id.
So what does Kentucky law say about the Attorney
General’s right to represent the state when its laws are
subject to constitutional challenge? As it turns out, a

JA 205
lot. Under Kentucky law, the Attorney General must
appear in court on behalf of the Commonwealth
whenever the state has an interest that needs
protecting. See Ky. Rev. Stat. 15.020. Kentucky law
even provides separate authority to “prosecute an
appeal . . . in any case from which an appeal will lie
whenever, in his judgment, the interest of the
Commonwealth demands it.” Ky. Rev. Stat. 15.090.
These statutes simply codify the Attorney General’s
longstanding “common-law authority to represent the
interests of the people.” Beshear v. Bevin, 498 S.W.3d
355, 362 (Ky. 2016). As the Kentucky Supreme Court
has explained, the Attorney General possesses “broad
powers to . . . defend actions on behalf of the people of
the Commonwealth.” Conway v. Thompson, 300 S.W.3d
152, 173 (Ky. 2009). The Attorney General’s standing
to defend the Commonwealth’s interest is well
established.
The Plaintiffs also claim that the Attorney General
lacks standing because of a prior stipulation and order
that dismissed the former Attorney General (now
Governor) below. The Plaintiffs liken this to a consent
decree and argue that the current Attorney General
cannot intervene in this case on behalf of the
Commonwealth because of Governor Beshear’s prior
decision. [Resp. at 17 (citing Morales Feliciano v.
Rullan, 303 F.3d 1, 7–8 (1st Cir. 2002)].
What the Plaintiffs leave out is that the stipulation
and dismissal was without prejudice and specifically
reserved “all rights, claims, and defenses that may be
available to [Attorney General Beshear],” including “all
rights, claims, and defenses relating to whether he is a

JA 206
proper party in this action and in any appeals arising
out of this action.” [R. 51, PageID#697 (emphasis
added)]. The stipulation, in other words, stipulates to
nothing meaningful. Former Attorney General Beshear
agreed not to enforce H.B. 454 against the Plaintiffs
only on the condition that he be dismissed without
prejudice. [Id.]. But he reserved all legal rights, claims,
and defenses—i.e., his ability to defend H.B. 454. So
even if this order binds Attorney General Cameron
when he acts on behalf of the Commonwealth (it does
not), the terms do not prevent intervening. Contrast
this with the Plaintiffs’ favored case, where a
stipulation “imposed obligations . . . to report on the
progress, and otherwise monitor the activities, of the
new Corporation.” Rullan, 303 F.3d at 8. Clearly, the
stipulation at issue here does nothing of the sort.
Moreover, the Plaintiffs’ invocation of judicial
estoppel is misplaced. “Judicial estoppel will [only] be
invoked against the government when it conducts what
‘appears to be a knowing assault upon the integrity of
the judicial system.’” United States v. Owens, 54 F.3d
271, 275 (6th Cir. 2005). Or as the Supreme Court
explained:
When the Government is unable to enforce the
law because the conduct of its agents has given
rise to an estoppel, the interest of the citizenry
as a whole in obedience to the rule of law is
undermined. It is for this reason that it is well
settled that the Government may not be
estopped on the same terms as any other
litigant.

JA 207
Heckler v. Cmty. Health Servs. of Crawford Cty., Inc.,
467 U.S. 51, 60 (1984).
Judicial estoppel does not apply. It requires that the
estopped party take “a contrary position under oath in
a prior proceeding and that the prior position was
accepted by the court.” Owens, 54 F.3d at 275. Neither
of those things happened here.
Moreover, there is no evidence anyone engaged in
the kind of gamesmanship that judicial estoppel is
intended to prevent.4 See id. What gamesmanship is
there from agreeing to a stipulation of dismissal
without prejudice in which the parties agree to reserve
all rights to future claims and defenses, particularly
when another state official (i.e., the Secretary) has
agreed to defend the challenged law? The Plaintiffs do
not say, and finding estoppel here may lead
government parties to remain in litigation even when
another government party represents their interest on
the off chance that future circumstances change.
III.

Secretary Friedlander is not adequately
representing the Commonwealth’s
interests.

The Plaintiffs refuse to concede even the most
obvious issue in their objections. They claim that the
Commonwealth’s interests continue to be adequately
4

A practical point is likewise in order. The Plaintiffs’ primary
argument is timeliness. Had Attorney General Cameron moved to
intervene sooner, the Plaintiffs would have undoubtedly argued
that the Attorney General’s rights were adequately represented by
the Secretary because he was, at that time, pursuing all available
remedies. The Plaintiffs cannot have it both ways.

JA 208
represented by Secretary Friedlander because his
decision not to continue defending the H.B. 454 is
simply “litigation strategy.” What strategy is that? The
Commonwealth has a “manifest legal interest in
defending the constitutionality of [its] laws,” N.E. Ohio
Coalition for Homeless & Servs. Emps. Int’l Union,
Local 1199 v. Blackwell, 467 F.3d 999, 1007 (6th Cir.
2006), which Secretary Friedlander has now
abandoned. Under Perry, such a decision is not in the
interest of the Commonwealth. See Perry, 115 F.3d at
390–91.
CONCLUSION
Attorney General Cameron wants nothing more
than to ensure that the Commonwealth’s laws are fully
defended through every stage of this appeal. He does
not seek to reopen this case or cause any delay to the
parties. He simply wants to exhaust Kentucky’s
appellate options on behalf of the people of this state.
This Court should grant his motion to intervene.

JA 209
Respectfully submitted,
s/ Barry L. Dunn
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Kentucky
Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
[*** Certificates omitted ***]

JA 210
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5516
[Filed June 16, 2020]
_____________________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C., on
)
behalf of itself, its staff, and its patients;
)
ASHLEE BERGIN, M.D., M.P.H. and TANYA
)
FRANKLIN, M.D, M.S.P.H., on behalf of
)
themselves and their patients
)
)
Plaintiffs–Appellees
)
v.
)
)
)
ERIC FRIEDLANDER, in his official capacity
as Acting Secretary of Kentucky’s Cabinet
)
for Health and Family Services
)
)
Defendant–Appellant
)
_____________________________________________)
Appeal from the United States District Court for the
Western District of Kentucky at Louisville
Honorable Joseph H. McKinley, Jr.
PETITION FOR REHEARING EN BANC BY
ATTORNEY GENERAL DANIEL CAMERON,
ON BEHALF OF THE COMMONWEALTH OF
KENTUCKY

JA 211
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
[*** Tables omitted ***]
RULE 35 STATEMENT & INTRODUCTION
Kentucky’s House Bill 454 requires abortion
providers to perform dilation and evacuation abortions,
D&E abortions for short, more humanely. More
specifically, the statute ensures that an unborn child
does not die by “dismemberment from literally having
arms and legs pulled off.” See Op. at 38 (Bush, J.,
dissenting) (citing trial testimony). The panel found
that the Commonwealth lacks the sovereign authority
to enforce such a statute.
Over Judge Bush’s dissent, the panel concluded that
abortion providers have third-party standing to invoke
their patients’ rights even if there is a potential conflict
of interest between the patients and the providers. Id.
at 7–8 n.2. This cannot be reconciled with the Supreme
Court’s holding that “third-party standing is defeated
if the interests of the plaintiff and the right-holder are
merely ‘potentially in conflict.’” Id. at 39 n.6 (Bush, J.,
dissenting) (quoting Elk Grove Unified Sch. Dist. v.

JA 212
Newdow, 542 U.S. 1, 15 (2004)). The panel also ruled
on this issue without waiting for the Supreme Court to
decide June Medical Services, LLC v. Russo, Nos. 181323, 18-1460, which concerns third-party standing of
abortion providers.
On the merits, the panel’s decision is equally
flawed. In particular, the panel eviscerated the holding
of Gonzales v. Carhart, 550 U.S. 124 (2007). According
to the panel, a law that changes an abortion procedure
without providing a medical benefit to women is
“inherently suspect.” Op. at 13. This meaningfully
limits states’ ability to pass laws that “promot[e]
respect for human life at all stages in the pregnancy.”
Gonzales, 550 U.S. at 163. The panel further minimized
this sovereign interest by simply “assum[ing],” but not
finding, that prohibiting the live dismemberment of an
unborn child has only “some limited benefit” to the
Commonwealth. Op. at 25.
The panel also discarded Gonzales’s holding that
“state and federal legislatures [have] wide discretion to
pass legislation in areas where there is medical and
scientific uncertainty.” Gonzales, 550 U.S. at 163. In
this circuit, that holding is no longer on the books. Op.
at 10–11. The panel neglected to mention that it
created a split with the Eighth Circuit on this point.
Planned Parenthood of Ark. & E. Okla. v. Jegley, 864
F.3d 953, 958 (8th Cir. 2017), cert. denied 138 S. Ct.
2573 (2018).
The panel also split with the Fifth Circuit’s holding
in June Medical Services, LLC v. Gee, 905 F.3d 787,
807 (5th Cir. 2018), cert. granted 140 S. Ct. 35 (2019),
that to prove an undue burden, an abortion provider

JA 213
must make a good-faith effort to comply with the
challenged statute. Op. at 21–22. As with its thirdparty-standing holding, there was no reason for the
panel to reach this issue before the rendition of June
Medical. Yet, the panel’s doing so underscores the
importance of this issue.
For the reasons explained below, the panel’s
decision contains precedent-setting errors of
exceptional public importance. 6th Cir. I.O.P. 35(a);
Fed. R. App. P. 35(b)(1)(B). It also directly conflicts
with the Supreme Court’s decisions. Fed. R. App. P.
35(b)(1)(A). The full Court should rehear this case.
BACKGROUND
The Kentucky General Assembly passed H.B. 454
with broad, bipartisan support.1 The law regulates
D&E abortions—a gruesome procedure that requires
using “grasping forceps” to “tear apart” an unborn
child. See Gonzales, 550 U.S. at 135–36. To make this
procedure less grisly, H.B. 454 requires that a
physician performing a D&E first ensure that the
unborn child has already died.
This law promotes Kentucky’s interests in
respecting the dignity of life and protecting the
integrity of the medical profession. As one expert
testified at trial, the D&E procedure involves “tearing
a living human being apart limb from limb and one
that literally is the size of your hand or even bigger in
some cases.” [Levatino, R.102, PageID#3714]. That’s
1

https://apps.legislature.ky.gov/record/18rs/hb454.html
visited June 15, 2020).

(last

JA 214
why the Supreme Court found that “[n]o one would
dispute that, for many, D & E is a procedure itself
laden with the power to devalue human life.” Gonzales,
550 U.S. at 158. Indeed, an expert testified at trial
about a D&E abortion in which the doctor “pulled out
a spine and some mangled ribs and the heart was
actually still beating.” Op. at 38 (Bush, J., dissenting)
(citation omitted).
There are three reasonable medical procedures for
causing fetal death prior to performing a D&E.
Gonzales itself mentioned two of them. Gonzales, 550
U.S. at 136, 164. Digoxin injections are widely used.
[E.g., Thorp, R.102, PageID#3736, 3739]; Op. at 39 n.6,
40 (Bush, J., dissenting). Potassium-chloride injections
likewise are a well-established regimen. [E.g., Thorp,
R.102, PageID#3759–60]. And though less studied,
umbilical cord transection also is a feasible, efficacious,
and safe alternative. [Id. at PageID#3771].
After a five-day bench trial, the district court
concluded that none of these procedures was an
acceptable alternative to live dismemberment of an
unborn child. EMW Women’s Surgical Ctr., P.S.C. v.
Meier, 373 F. Supp. 3d 807, 818–22 (W.D. Ky. 2019).
The district court also rejected then-Secretary Meier’s
third-party-standing argument. Id. at 813.
The panel affirmed. It rejected the viability of all
three fetal-death procedures, Op. at 13–24, despite
overwhelming expert testimony to the contrary as well
as key concessions by the Plaintiffs’ experts. The panel
also adopted a newfound standard for reviewing laws
that alter an abortion method. According to the panel,
a change to an existing abortion procedure that does

JA 215
not medically benefit the woman is “inherently
suspect.” Id. at 12–13. The panel also found that Whole
Women’s Health v. Hellerstedt, 136 S. Ct. 2292 (2016),
overruled Gonzales’s holding about the role of medical
uncertainty in a facial challenge. Op. at 10–11.
Judge Bush dissented. He concluded that the
Plaintiffs lack third-party standing because of a
“potential conflict of interest between Plaintiffs and
their patients.” Id. at 33 (Bush, J., dissenting). He
found such a potential conflict because the Plaintiffs
want to perform D&E abortions without first causing
fetal death, while “uncontroverted studies show that
many, and perhaps a substantial majority, of women
would choose fetal demise before undergoing a D&E
procedure.”Id.
All of this occurred shortly before the Supreme
Court is expected to decide June Medical, which raises
questions about third-party standing, the meaning of
Hellerstedt’s balancing test, and an array of issues that
could affect this case. By comparison, two other circuits
have stayed an appeal that challenges a law like H.B.
454 pending the resolution of June Medical. Mar. 13,
2019 Order, Whole Women’s Health v. Paxton, 17-51060
(5th Cir.); Mar. 19, 2020 Order, Hopkins v. Jegley, 172879 (8th Cir.).
ARGUMENT
I.

The panel’s decision conflicts with the
Supreme Court’s third-party standing
doctrine.

The panel held that abortion providers have thirdparty standing to invoke their patients’ rights “even

JA 216
when the[] [providers’] interests are arguably in
conflict with patients’—as when regulations assertedly
protect the health and safety of patients.” Op. at 8 n.2.
This cannot be squared with Supreme Court precedent,
under which “third-party standing is defeated if the
interests of the plaintiff and the right-holder are
merely ‘potentially in conflict.’” Id. at 39 n.6 (Bush, J.,
dissenting) (quoting Newdow, 542 U.S. at 15). Not only
that, but the panel issued its decision shortly before the
decision in June Medical, a case that asks whether
abortion providers have third-party standing. At a
minimum, and in light of the exceptional importance of
this issue, rehearing en banc should be granted to
account for any guidance from June Medical.
Regardless, the full Court should rehear this case to
correct the panel’s errors regarding third-party
standing.2
A “plaintiff generally must assert his own legal
rights and interests, and cannot rest his claim to relief
on the legal rights or interests of third parties.” Warth
v. Seldin, 422 U.S. 490, 499 (1975). A “limited . . .

2

The panel concluded that Secretary Friedlander failed to preserve
the issue of third-party standing and deemed “unsupportable” the
notion that third-party standing, which currently is a matter of
prudential standing, should be treated like Article III standing.
Op. at 7 n.2. As Judge Bush noted, id. at 34 n.1, this Court long
ago determined that there is “no authority for the . . . argument
that prudential standing requirements may be waived by the
parties” and declined to “[r]ecogniz[e] a distinction between
prudential and constitutional standing requirements in this
context . . . .”See Cmty. First Bank v. Nat’l Credit Union Admin.,
41 F.3d 1050, 1053 (6th Cir. 1994); Fair Elections Ohio v. Husted,
770 F.3d 456, 461 n.2 (6th Cir. 2014) (similar).

JA 217
exception” to this rule exists when a third party shows:
(i) that the third party has a “‘close’ relationship with
the person who possesses the right”; and (ii) that “there
is a ‘hindrance’ to the possessor’s ability to protect his
own interests.” See Kowalski v. Tesmer, 543 U.S. 125,
129–30 (2004). A third party naturally lacks a close
relationship with the primary party when there is a
potential conflict of interest between them. As the
Supreme Court told us in Newdow, third-party
standing does not exist when the interests of the third
party and those of the primary party are “potentially in
conflict.” Newdow, 542 U.S. at 15.
A potential conflict of interest unquestionably exists
here. “[F]or whatever reason—be it financial, litigation
strategy, or otherwise—EMW’s physicians have refused
to obtain the necessary training to perform fetal
demise, even though uncontroverted studies presented
at trial show that many, and perhaps a substantial
majority, of women would choose fetal demise before
undergoing a D&E procedure.” Op. at 33 (Bush, J.,
dissenting). More to the point, “EMW’s doctors simply
do not want to provide fetal demise before a D&E
procedure, and their opposition to fetal demise creates
a potential conflict of interest that deprives them of
standing to bring this facial challenge against H.B.
454.” Id.
The evidence from trial demonstrating this
potential conflict of interest speaks for itself. Id. at 38.
One study “reported a strong preference for fetal death
before abortion.” [Thorp, R.102, PageID#3734]. How
strong was that preference? Ninety-two percent of
women preferred that fetal death occur before an

JA 218
abortion. [Id.]. Another study found that “[a] majority
of subjects, 73 percent, reported that if given the
choice, they prefer to receive digoxin before the D&E
procedure.” [Id. at PageID#3755–56]. In the face of
these studies, the Plaintiffs failed to meet their burden
of proving that their interests are parallel to their
patients’ interests. Most notably, none of the Plaintiffs’
patients testified during trial. Op. at 37 (Bush, J.,
dissenting). Regardless, women’s strong preference for
fetal demise prior to a D&E is unsurprising. Because,
for many, the “D & E procedure is a procedure itself
laden with the power to devalue human life,” Gonzales,
550 U.S. at 158, “[i]t is not difficult to understand why
a majority of women would want the heart to stop
beating before the fetus undergoes such an ordeal,” Op.
at 38 (Bush, J., dissenting).
The Plaintiffs cannot avoid this conclusion by
claiming that fetal-death procedures are too difficult to
perform. Taking the Plaintiffs’ trial testimony at face
value, “it is posible for EMW’s doctors to receive
training to perform digoxin injections.” Id. at 40 (citing
trial testimony). On this point, the district court found
that digoxin injections “are not terribly difficult to
perform, as it can also be administered into the
amniotic fluid.” Meier, 373 F. Supp. 3d at 818. “And,
indeed, there are practitioners in our circuit as close as
southwestern Ohio, across the river from Kentucky,
who perform digoxin injections.” Op. at 40 (Bush, J.,
dissenting). If Ohio abortion providers can perform
digoxin injections, so can their counterparts in

JA 219
Kentucky.3 After all, “[p]hysicians are not entitled to
ignore regulations that direct them to use reasonable
alternative procedures.” Gonzales, 550 U.S. at 163. Yet,
the Plaintiffs “do not want to receive the training
needed to give the injections, even though the evidence
at trial was that injections are not difficult to
administer, training to perform the procedure is
available, and such injections are within the reasonable
medical scope of care.” Op. at 39 (Bush, J., dissenting).
The panel nevertheless concluded that the Supreme
Court has “found that [abortion] providers have
standing even when their interests are arguably in
potential conflict with patients . . . .” Id. at 8 n.2. A
plurality in Singleton v. Wulff, 428 U.S. 106 (1976), did
find that it “generally is appropriate to allow a
physician to assert the rights of women patients as
against governmental interference with the abortion
decision.” Id. at 118. But “we should not read Wulff so
broadly to confer third-party standing virtually any
time an abortion provider seeks to invalidate an
abortion regulation.” Op. at 36 (Bush, J., dissenting);
see also In re Gee, 941 F.3d 153, 165 (5th Cir. 2019)
(per curiam) (similar). Wulff “as a case in which the
interests of the plaintiffs and the rights-holders were
parallel, because both providers and patients had an
interest in removing state funding limits on abortion.”
Op. at 36 (Bush, J., dissenting).

3

A Planned Parenthood clinic in Kentucky recently received an
abortion license. Op. at 41 n.7 (Bush, J., dissenting). “It is entirely
possible that physicians at Planned Parenthood in Kentucky, like
their counterparts in southwestern Ohio, will have the expertise
to perform fetal demise.” Id. (internal citation omitted).

JA 220
The panel also relied on a trio of Supreme Court
decisions to find third-party standing. Op. at 8 n.2. But
those decisions don’t do the work that the panel claims.
Doe v. Bolton, 410 U.S. 179 (1973), did not directly
concern third-party standing. This would have been
unnecessary, given that a woman who was denied an
abortion was one of the plaintiffs. Id. at 186, 188.
Moreover, in Bolton, “the Supreme Court did not
analyze the closeness and hindrance requirements as
Kowalski requires.”Op. at 42 (Bush, J., dissenting). The
same is true of Planned Parenthood of Central Missouri
v. Danforth, 428 U.S. 52 (1976), another of the panel’s
favored cases. Op. at 42 (Bush, J., dissenting). The
Court’s decision in City of Akron v. Akron Center for
Reproductive Health, Inc., 462 U.S. 416 (1983), likewise
fails to establish third-party standing here because “the
interests of the ‘minor patients’ and abortion providers
were largely parallel, as both wanted t[he] abortions to
proceed without involving parents in the decision.” Op.
at 42 (Bush, J., dissenting).
The panel also relied on the criminal provisions in
H.B. 454, reasoning that “physician plaintiffs
‘unquestionably have standing to sue on their own
behalf’ when a law threatens them with criminal
prosecution.” Id. at 8 n.2 (citation omitted). But the
potential for criminal penalties isn’t a substitute for the
closeness requirement of third-party standing. “Just
because one may have an injury-in-fact—such that she
has standing to assert her own rights—does not mean
that she has third-party standing to assert the rights
of others.” Id. at 42 (Bush, J., dissenting). The presence
of criminal penalties “says nothing about the plaintiffs’
third-party standing to assert the patients’ rights.” Id.

JA 221
In any event, the Plaintiffs lack a constitutional right
to perform abortions. See Planned Parenthood of
Greater Ohio v. Hodges, 917 F.3d 908, 912 (6th Cir.
2019) (en banc). The Plaintiffs’ claims therefore are
“based solely on the rights of their patients.” Op. at 33
(Bush, J., dissenting).
Regardless, the fact remains that the Supreme
Court might soon tell us whether abortion providers
have third-party standing. If June Medical clarifies
this issue, the Court should grant rehearing en banc to
ensure consistency with June Medical.
II.

The panel’s decision is irreconcilable with
Gonzales.

The Supreme Court spoke unequivocally in
Gonzales when it held that “the government has a
legitimate and substantial interest in preserving and
promoting fetal life.” Gonzales, 550 U.S. at 145. The
panel’s decision is irreconcilable with this principle.
A. In Gonzales, the Supreme Court held that the
government “may use its regulatory power to bar
certain procedures and substitute others” to “promote
respect for life, including life of the unborn.” Id. at 158.
Gonzales arose after Congress passed a law banning
partial-birth abortions. A partial-birth abortion differs
from a D&E abortion in that an unborn child is
removed “intact or largely intact” before it dies. Id. at
136–39.
Like here, the plaintiffs in Gonzales argued that
this gruesome procedure “as safer for women with
certain medical conditions,” and might even be “the
safest method of abortion” during the relevant time

JA 222
period. Id. at 161. The government disputed these
claims, but did not justify the law as providing medical
benefits for women. Nor did it need to. As the Supreme
Court explained, “[t]he government may use its voice
and regulatory authority to show its profound respect
for the life within the woman.” Id. at 157. And that
regulatory authority includes the power to require that
physicians “use reasonable alternative procedures” in
place of those that are particularly inhumane. See id.
at 163.
B. The panel’s decision turns this analysis on its
head. The panel declared that altering the D&E
procedure to require fetal death beforehand is
“inherently suspect.” Op. at 12–13. That’s because, the
majority reasoned, fetal-death procedures do not
provide “any medical benefit to the patient.” Id. In
other words, the panel super-imposed heightened
scrutiny onto any alteration to an abortion method if
there is no medical benefit to the patient.
There is no way to reconcile this holding with
Gonzales, and it restricts the ability of states to
regulate abortion methods for reasons other than to
provide medical benefits to women. If states have a
legitimate interest in “bar[ring] certain procedures and
substitut[ing] others” to promote the dignity of unborn
life, Gonzales, 550 U.S. at 158, how can a court label
any change in an abortion procedure as “inherently
suspect” based on the lack of a medical benefit? The
panel’s decision to apply a presumption against
alternative procedures that do not provide a medical
benefit is simply a roundabout way to hollow out
Gonzales’s holding. And, moreover, even assuming that

JA 223
Hellerstedt’s balancing test requires courts to
(somehow) balance intangible, sovereign interests like
promoting respect for life, Op. at 9–10, the panel’s
“inherently suspect” holding tilts the balance against
the state whenever it regulates an abortion method for
a reason other than providing a medical benefit to
women.
Equally problematic is how dismissively the panel
treated the Commonwealth’s interest “in
demonstrating respect for the dignity of human life.”
Op. at 25. Because the district court found that it was
“very unlikely” that an unborn child can feel pain
before 24 weeks, the panel merely “assum[ed]” that
H.B. 454 only “provides some limited benefit” from the
perspective of respecting life. Op. at 24–25. But
Gonzales did not tie the state’s interest in respecting
unborn life to the presence of fetal pain. The dignity of
life is not so limited. That’s why the Supreme Court
has recognized that the state’s profound interest begins
“from the inception of the pregnancy,” Gonzales, 550
U.S. at 158—not when an unborn child feels pain.
The panel’s failure to recognize the significance of
the Commonwealth’s interest is no passing matter. It
declared the statute unconstitutional, in part, because
of the “minimal benefits that H.B. 454 provides with
respect to the Commonwealth’s asserted interests.” Op.
at 26. Going forward, this holding will tie the hands of
states who seek to regulate abortion to promote respect
for unborn life without a showing of the presence of
fetal pain.

JA 224
III.

The panel’s decision creates or deepens
two circuit splits on consequential issues.

The panel majority created or deepened two circuit
splits over significant questions of constitutional law.
A. Facing conflicting evidence about the safety risks
of the partial-birth abortion ban, the Supreme Court
explained in Gonzales that “state and federal
legislatures [have] wide discretion to pass legislation in
areas where there is medical and scientific
uncertainty.” Gonzales, 550 U.S. at 163. “Medical
uncertainty,” the Court held, “does not foreclose the
exercise of legislative power in the abortion context any
more than it does in other contexts.” Id. at 164.
This should have driven the outcome here, as thenSecretary Meier presented significant evidence
disputing the Plaintiffs’ arguments that the fetal-death
procedures are not reasonable alternatives. Yet, the
panel declared this part of Gonzales no longer binding.
Op. at 10–11. Instead, the panel held that Hellerstedt
overruled—or, more precisely, “clarified”—this aspect
of Gonzales. See id. This conclusion, however, is in
substantial tension with Hellerstedt itself, which
emphasized that the district court below “did not
simply substitute its own judgment for that of the
legislature.” Hellerstedt, 136 S. Ct. at 2310. The panel
nevertheless green-lighted such judicial secondguessing. Moreover, even if Hellerstedt “clarified”
Gonzales, Hellerstedt did not hold, as the panel
concluded, that medical uncertainty about the viability
of an alternative procedure is altogether irrelevant. Id.
(citing Gonzales’s statement that “we must review
legislative ‘factfinding under a deferential standard’”

JA 225
and stating that only “[u]ncritical deference” is
inappropriate (citation omitted)).
The panel’s casting aside of Gonzales conflicts with
the Eighth Circuit’s opinion in Jegley, which concerned
the constitutionality of a law requiring abortion
providers to enter into a contract with doctors who
have hospital admitting privileges. Jegley, 864 F.3d at
955. In vacating a preliminary injunction, the Eighth
Circuit unambiguously reaffirmed the medicaluncertainty doctrine: “[B]ecause Hellerstedt expressly
relied on Gonzales v. Carhart, the Court preserved its
command that ‘state and federal legislatures [have]
wide discretion to pass legislation in areas where there
is medical and scientific uncertainty.’” Id. at 958
(quoting Gonzales, 550 U.S. at 163) (internal citation
omitted).
The panel’s decision is at odds with Jegley. This
Court should grant rehearing en banc to resolve this
exceptionally important issue.
B. The panel’s decision also created a circuit split
over Hellerstedt’s causation requirement. See
Hellerstedt, 135 S. Ct. at 2313 (requiring a plaintiff to
“present evidence of causation”).
The Plaintiffs never tried to comply with H.B. 454
by hiring new staff who can perform fetal-death
procedures or by training the current staff to do so.
[Franklin, R.107, PageID#4666, 4717, 4733–34; Bergin
Trial Ex. 420 at 114, 123]. The Plaintiffs therefore
failed to prove that H.B. 454, rather than their own
intransigence, caused any undue burden. The panel
rejected this line of thinking, finding that “Supreme

JA 226
Court precedent does not support [] a requirement”
that a plaintiff “specifically and affirmatively show
good-faith efforts to comply with a challenged law.” Op.
at 21–22. This holding not only waters down
Hellerstedt’s causation requirement, but it also
contradicts Gonzales’s holding that the law “need not
give abortion doctors unfettered choice in the course of
their medical practice.” Gonzales, 550 U.S. at 163.
The panel acknowledged that its decision on this
point contradicted the Fifth Circuit’s decision in the
pending June Medical matter, Op. at 21–22, which
requires a plaintiff to prove “causal connection between
the regulation and its burden,” June Medical Servs.,
905 F.3d at 807. “Were we not to require such
causation,” the Fifth Circuit reasoned, “the
independent choice of a single physician could
determine the constitutionality of a law.” Id.
The Court should grant rehearing en banc to
reaffirm Gonzales’s holding that abortion doctors lack
“unfettered discretion” and to avoid creating a circuit
split with the Fifth Circuit (if June Medical does not
resolve this issue). If June Medical addresses
causation, the full Court should rehear this case to
resolve this issue.
CONCLUSION
The Court should rehear this case en banc.

JA 227
Respectfully submitted,
s/ Barry L. Dunn
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Kentucky
Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
[*** Certificates omitted ***]

JA 228
NOT RECOMMENDED FOR PUBLICATION
No. 19-5516
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: June 24, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER,
)
P.S.C., on behalf of itself, its staff, and its
)
patients; ASHLEE BERGIN, M.D., M.P.H., )
on behalf of herself and her patients;
)
TANYA FRANKLIN, M.D., M.S.P.H.,
)
on behalf of herself and her patients,
)
)
Plaintiffs - Appellees,
)
)
v.
)
)
ERIC FRIEDLANDER, in his official
)
capacity as Acting Secretary of Kentucky’s )
Cabinet for Health and Family Services,
)
)
Defendant-Appellant,
)
)
THOMAS B. WINE, et al.,
)
)
Defendants.
)
__________________________________________)
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF KENTUCKY
ORDER

JA 229
Before: MERRITT, CLAY, and BUSH, Circuit
Judges.
Daniel Cameron, the Attorney General of Kentucky,
moves to intervene as a defendant in this case
regarding the constitutionality of Kentucky House Bill
454, which prohibits physicians from administering a
dilation and evacuation abortion prior to fetal demise.
Defendant-Appellant Eric Friedlander, Acting
Secretary of Kentucky’s Cabinet for Health and Family
Services, has not responded to the motion.
Plaintiffs-Appellees EMW Women’s Surgical Center,
Dr. Ashlee Bergin, and Dr. Tanya Franklin oppose
intervention, and Cameron replies. For the reasons set
forth below, we DENY Cameron’s motion to intervene.
Plaintiffs first brought suit against a number of
Kentucky officials in their official capacities, including
then-Attorney General Andrew Beshear, just after H.B.
454 was signed into effect in April 2018. All but two of
the original defendants, including Attorney General
Beshear, were dismissed prior to trial. Attorney
General Beshear stipulated to his dismissal in May
2018, reserving all rights and claims on appeal. After
a five-day bench trial in November 2018, the district
court in May 2019 entered judgment for Plaintiffs and
an order permanently enjoining the enforcement of
H.B. 454. EMW Women’s Surgical Ctr., P.S.C. v. Meier,
373 F. Supp. 3d 807 (W.D. Ky. 2019). Then-Secretary
of the Cabinet of Health and Family Services, Adam
Meier, appealed, and throughout fall 2019, the parties
submitted briefing to this Court. In January 2020,
upon a change in gubernatorial administrations,
now-Acting Secretary of the Cabinet of Health and

JA 230
Family Services Eric Friedlander was substituted for
Meier as Defendant. Friedlander continued to press the
appeal in defense of H.B. 454, now represented by
lawyers from the office of newly elected Attorney
General Daniel Cameron, the current proposed
intervenor. The parties presented argument in this
case on January 29, 2020. On June 2, 2020, this Court
issued its opinion affirming the district court’s
judgment. EMW Women’s Surgical Ctr., P.S.C. v.
Friedlander, No. 19-5516, 2020 WL 2845687 (6th Cir.
June 2, 2020).
On June 11, 2020, the Attorney General moved to
intervene as of right or, in the alternative,
permissively, explaining that the Secretary had chosen
not to pursue rehearing en banc or petition for a writ of
certiorari and seeking to intervene as a defendant in
order to do so.1 The Attorney General tendered a brief
in support of rehearing en banc on June 16, 2020.
This Court reviews four factors in deciding whether
to grant a motion for intervention as of right. To
succeed on such a motion, the movant must
demonstrate that: “1) the [motion] was timely filed;
2) the [movant] possesses a substantial legal interest in
the case; 3) the [movant’s] ability to protect its interest
will be impaired without intervention; and 4) the
existing parties will not adequately represent the
1

The dissent says that the Secretary is no longer actively litigating
this case. But the Secretary remains a party, and while he has not
filed a timely petition for rehearing en banc, there is and would be
nothing to prevent him from changing course and pursuing
certiorari, regardless of whether the Attorney General’s motion to
intervene was granted.

JA 231
[movant’s] interest.” Blount-Hill v. Zelman, 636 F.3d
278, 283 (6th Cir. 2011); see also Fed. R. Civ. P.
24(a)(2). “Each of these elements is mandatory, and
therefore failure to satisfy any one of the elements will
defeat intervention under the Rule.” Id. While
ordinarily we construe the elements broadly in favor of
potential intervenors, see Coal. to Defend Affirmative
Action v. Granholm, 501 F.3d 775, 779 (6th Cir. 2007),
“a motion to intervene filed during the final stages of a
proceeding is not favorably viewed.” United States v.
BASF-Inmont Corp., 52 F.3d 326 (6th Cir. 1995)
(table); accord, e.g., Amalgamated Transit Union Int’l,
AFL-CIO v. Donovan, 771 F.2d 1551, 1552 (D.C. Cir.
1985).
Given the stage at which the Attorney General
moved to intervene, we are particularly mindful of the
requirement of timeliness. In assessing the timeliness
of a motion to intervene, we consider five factors:
1) the point to which the suit has progressed;
2) the purpose for which intervention is sought;
3) the length of time preceding the [motion]
during which the proposed intervenors knew or
should have known of their interest in the case;
4) the prejudice to the original parties due to
the proposed intervenors’ failure to promptly
intervene after they knew or reasonably should
have known of their interest in the case; and
5) the existence of unusual circumstances
militating against or in favor of intervention.
Blount-Hill, 636 F.3d at 284 (quoting Jansen v. City of
Cincinnati, 904 F.2d 336, 340 (6th Cir. 1990)).

JA 232
Considering the first factor, the Attorney General’s
motion to intervene in this case comes years into its
progress, after both the district court’s decision
and—more critically—this Court’s decision. We rarely
grant motions to intervene filed on appeal, and we
agree with the D.C. Circuit that “[w]here . . . the
motion for leave to intervene comes after the court of
appeals has decided a case, it is clear that intervention
should be even more disfavored.” Amalgamated Transit
Union Int’l, 771 F.2d at 1552; see also id. at 1553 n.5
(collecting cases “uniformly” finding such motions to be
untimely); accord 7C Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 1916 (3d ed.
2020) (“There is even more reason to deny an
application made . . . after the judgment has been
affirmed on appeal.”). Otherwise, we provide potential
intervenors every incentive to sit out litigation until we
issue a decision contrary to their preferences,
whereupon they can spring to action. Perhaps this is
also why the Attorney General is unable to identify any
case in which this Court has granted a motion to
intervene following issuance of its decision and can
identify only two doing so across the whole of federal
jurisprudence. See Peruta v. City of San Diego, 824
F.3d 919 (9th Cir. 2016) (en banc); Day v. Apoliona, 505
F.3d 963 (9th Cir. 2007). Our own review of the case
law yields no more. This factor, then, points decisively
against intervention.
Turning to the second factor, the Attorney General
seeks intervention for the purpose of filing a petition
for rehearing en banc. But this itself is “an
extraordinary procedure,” and not one that parties are
due as a matter of course, as is the case with an appeal.

JA 233
6 Cir. I.O.P. 35(a). Review on certiorari is likewise “not
a matter of right.” Sup. Ct. R. 10.2 Moreover, it is
apparent that the foremost argument that the Attorney
General seeks to advance on rehearing is a third-party
standing argument that the Secretary elected not to
present to this Court on appeal, and that he did not
flesh out before the district court. At present, Supreme
Court precedent suggests this argument should be
denied. See Friedlander, 2020 WL 2845687, at *4 n.2
(collecting cases).
Regarding the third factor, the Attorney General
had ample notice of his interest in this case. Indeed,
when Plaintiffs filed their complaint, they named the
Attorney General as a defendant. And even accounting
for the fact that Attorney General Cameron himself
took office only after the initiation of this suit and the
stipulated dismissal of the Attorney General as a
defendant, Cameron was put on notice of his interest
when he swore his oath of office in December 2019,
before this Court heard oral argument in the case and
seven months before its decision. Against these facts,
Attorney General Cameron contends that he could not
have been aware of his interest because, until recently,
the Secretary vigorously defended H.B. 454, with
2

Contrary to the dissent’s assertions, our denial of the Attorney
General’s motion to intervene does not prevent further review of
our decision on the merits. The parties and even the Attorney
General have had ample opportunity to seek further review. The
Secretary could have chosen to petition for rehearing en banc and
could still choose to petition for certiorari. The Attorney General
could have sought to intervene at an earlier date in order to
independently access that review. If the parties are now unable to
secure further review, it is only due to their own decisions.

JA 234
lawyers from the Attorney General’s office defending
him. But there was every reason for the Attorney
General’s office to inquire into and prepare for the
Secretary’s intended course in the event of an adverse
decision prior to undertaking his representation of the
Secretary.3
The time for which the Attorney General has been
aware of his interest distinguishes this case from the
leading case in which a court of appeals has granted a
motion to intervene following issuance of its decision.
In Peruta v. County of San Diego, 824 F.3d 919, 940
(9th Cir. 2016), the Ninth Circuit allowed the State of
California to intervene even after issuing its decision
upon concluding that “California had no strong
incentive to seek intervention . . . at an earlier stage,
for it had little reason to anticipate either the breadth
of the panel’s holding or the decision of [the defendant]
not to seek panel rehearing or rehearing en banc.” In
this case, by contrast, there was every reason for the
Attorney General to anticipate our holding, as it not
only hewed close to the issues briefed by the parties,
but also substantially mirrored the holding of every
court to hear a challenge to a fetal-demise law to date.
As discussed, the Attorney General could also have
anticipated the Secretary’s decision regarding

3

The dissent contends that the Attorney General would have been
violating privilege had he sought to intervene earlier. But of
course, the Attorney General could have sought intervention
without disclosing his communications with the Secretary or could
have requested the Secretary’s permission to disclose those
communications, just as he has done in filing his current motion.

JA 235
petitioning for rehearing en banc and certiorari, given
that he himself represented the Secretary.
Turning then to the fourth factor, it is clear that
granting the Attorney General’s motion would
significantly prejudice Plaintiffs. As discussed,
Attorney General Cameron seeks to raise in his
petition for rehearing en banc a third-party standing
argument not raised before this Court and not argued
in any particulars before the district court. Yet the
Attorney General’s own office chose not to raise this
argument upon becoming aware that the Supreme
Court had granted certiorari in June Medical Services,
LLC v. Gee, 905 F.3d 787 (5th Cir. 2018), cert. granted,
140 S. Ct. 35 (2019). It was not addressed by the
parties at oral argument except in response to judges’
questioning, nor was it raised via a notice of
supplemental authorities filed pursuant to Federal
Rule of Appellate Procedure 28(j). This provides us
every reason to conclude that the parties and the
Attorney General himself—like the majority in this
case—thought that it presented no barrier to Plaintiffs’
claim. Now the Attorney General seeks to benefit from
this Court’s decision by asserting an argument first
raised by the dissent. This is not the purpose of a
motion to intervene, and we agree with Plaintiffs that
they “should not be required to respond to last-minute
argument-by-ambush.” (Pls. Resp. to Mot. to Intervene
at 11.)
The prejudice to Plaintiffs, too, distinguishes this
case from those in which such delayed motions to
intervene have been granted. In Peruta, the plaintiffs
did not oppose intervention and so conceded the issue

JA 236
of prejudice. 824 F.3d at 940. Here, Plaintiffs make no
such concession and, indeed, strongly oppose
intervention. In Day v. Apoliona, 505 F.3d 963 (9th Cir.
2007), the court’s decision hinged on the fact that
“granting the State of Hawaii’s Motion to Intervene
will not create delay by ‘inject[ing] new issues into the
litigation,’” as the State had already raised those issues
in prior amicus briefing, thus allowing the plaintiffs
their due opportunity to respond. Id. at 965 (alteration
in original) (quoting Alisal Water Corp., 370 F.3d 915,
921 (9th Cir. 2004)). In the case at bar, Plaintiffs have
had no opportunity to respond to the third-party
standing argument the Attorney General seeks to
raise, nor have they had any reason to anticipate it
based upon current Supreme Court precedent.
Finally, we do not think that unusual circumstances
militate in favor of intervention here—in fact, given the
unusual stage at which the Attorney General seeks to
intervene, we think just the opposite. The Attorney
General complains that the Supreme Court is soon to
issue its decision in June Medical Services, and that
decision may bolster its new third-party standing
argument. We are skeptical of the notion that the
Supreme Court will overturn decades of its own
precedent in such a manner. But even if the Attorney
General is correct, if June Medical Services contradicts
this Court’s decision, the Supreme Court’s decision will
prevail as a matter of course and this case need not be
further litigated on that basis.
Taking these factors in sum, we are convinced that
the Attorney General’s motion to intervene is untimely.
Because the Attorney General has failed to show this

JA 237
necessary element, we need not reach the remaining
elements that a proposed intervenor must show on
moving for intervention as of right.4 Likewise, because
timeliness is among our foremost considerations in
deciding whether to grant permissive intervention, the
Attorney General’s motion on that basis also fails. See
Fed. R. Civ. P. 24(b)(1) (“On timely motion, the court
may permit anyone to intervene who . . . has a claim or
defense that shares with the main action a common
question of law or fact.”) (emphasis added); see also
Blount-Hill, 636 F.3d at 287. Timeliness is likewise
required of a government party who seeks permissive
intervention, and so Federal Rule of Civil Procedure
24(b)(2) also does not require us to grant the Attorney
General’s motion here. Id. (“On timely motion, the court
may permit a . . . state governmental officer . . . to
intervene if a party’s claim or defense is based on . . . a
statute . . . administered by the officer . . . .”) (emphasis
added). We are thus left with no basis for granting the
Attorney General’s motion.
Accordingly, we DENY the Attorney General’s
motion to intervene and DISMISS his petition for
rehearing en banc.

4

The dissent suggests that our decision contravenes our precedent
regarding state attorneys general’s legal interest in defending
their state laws. But this misrepresents our holding, as we do not
reach the issue of whether Attorney General Cameron has a
substantial legal interest in the subject matter of this case. Nor do
we question whether states’ attorneys general may appropriately
intervene to defend their states’ laws in some—or indeed, even in
many—situations. We simply conclude that the Attorney General’s
intervention in this particular case would be untimely.

JA 238
JOHN K. BUSH, Circuit Judge, dissenting.
This odd case has become even odder. Plaintiffs
prevailed in a trial at which none of the people whose
constitutional rights were at stake were parties or even
witnesses. Now, after the judgment has been affirmed
on appeal, Plaintiffs want to keep away from court not
only the people they purport to represent, but also their
adversaries. Attorney General Daniel Cameron,
acting on behalf of the Commonwealth of Kentucky,
sought to intervene after Secretary Friedlander
declined to continue the appeal. Plaintiffs opposed the
intervention, and the majority sides with Plaintiffs.
This result inappropriately and prematurely cuts short
the adversarial process. What is more, it flies in the
face of our precedent allowing states’ attorneys general
to intervene on appeal in order to defend their states’
laws.
Contrary to what the majority holds, the party who
seeks to intervene, the Attorney General of Kentucky,
is no Johnny-come-lately. The Attorney General is the
same counsel who represented Secretary Friedlander in
this appeal, and Secretary Friedlander does not oppose
the substitution of the Attorney General to represent
the Commonwealth’s interests. Moreover, the Attorney
General’s arguments defending the substance of H.R.
454 are identical to those that Secretary Friedlander
made, and although the Attorney General’s challenge
to Plaintiffs’ standing is more developed than was
Secretary Friedlander’s, standing was objected to
below. In any event, the question of whether we have
jurisdiction cannot be ignored, regardless of when the
issue was raised.

JA 239
Plaintiffs’ opposition to the Attorney General’s
motion to intervene is an understandable strategy.
With the denial of this motion, there will be no one in
this case to defend the challenged state law. It is a
plaintiff’s dream case: what if every litigant who
successfully challenged the constitutionality of a state
law could bar the state attorney general from seeking
complete appellate review? With the Attorney General
denied the right to continue the appeal in defense of
the law, there is no one left to file a petition for
rehearing en banc on behalf of the Commonwealth’s
interests. Even more importantly, there is no one left
to file a petition for certiorari, since Secretary
Friedlander will not do so. As a result, regardless of
how the Supreme Court rules in its review of June
Medical Services, LLC v. Gee, 905 F.3d 787 (5th Cir.
2018), cert. granted, 140 S. Ct. 35 (2019)—a ruling that
may be issued any day now—the present case will not
be governed by the Supreme Court’s decision, even
though June Medical presents questions identical or
similar to issues in the present case. Without anyone in
court to defend H.B. 454, Plaintiffs’ challenge to that
law will succeed, even if our ruling in this case proves
to be directly contrary to the Supreme Court’s holding
in June Medical. This anomalous result would be the
outcome of the majority’s decision to deny the Attorney
General’s motion to intervene.
For these reasons and those stated below, I
respectfully dissent. The Kentucky Attorney General
should be allowed to intervene so that the
Commonwealth’s interests can be defended through the
entire appellate process.

JA 240
I.
Attorney General Cameron’s motion to intervene
comes to us in unusual circumstances. After the
Commonwealth appealed the district court’s judgment
in this case, Kentucky held elections. Andy Beshear,
who had been the Attorney General of the
Commonwealth, was elected Governor. In that same
election, Daniel Cameron was elected Attorney General
and thus is Governor Beshear’s successor in that office.
Less than a month before oral argument, Secretary
Friedlander, an appointee of Governor Beshear, was
substituted for former Secretary Meier as a defendant.
Secretary Friedlander took the same position in this
case as had his predecessor, and he retained Attorney
General Cameron to represent him at oral argument.
However, after we issued our panel decision, Secretary
Friedlander reversed course, advising Attorney General
Cameron that he would not seek rehearing or
certiorari. The Secretary’s decision meant that there
was no defendant left in the litigation that would
continue the appeal. Two days after learning that
Secretary Friedlander would no longer defend H.B.
454, Attorney General Cameron filed a motion to
intervene on behalf of the Commonwealth, seeking to
assert the Commonwealth’s interests in defending its
law.

JA 241
II.
The majority holds that the Attorney General’s
motion is too little, too late. I respectfully disagree.
Under Rule of the Federal Rules of Civil Procedure
24(a)(2), a motion to intervene of right should be
granted if the proposed intervenor establishes the
following:
(1) the motion to intervene is timely; (2) the
proposed intervenor has a substantial legal
interest in the subject matter of the case; (3) the
proposed intervenor’s ability to protect that
interest may be impaired in the absence of
intervention; and (4) the parties already before
the court may not adequately represent the
proposed intervenor’s interest.
United States v. Michigan, 424 F.3d 438, 443 (6th Cir.
2005) (citing Grutter v. Bollinger, 188 F.3d 394, 397–98
(6th Cir. 1999)). These four elements should be
“broadly construed in favor of potential intervenors.”
Coalition to Defend Affirmative Action v. Granholm,
501 F.3d 775, 779 (6th Cir. 2007) (quoting Purnell v.
City of Akron, 925 F.2d 941, 950 (6th Cir. 1991)). As
explained below, Attorney General Cameron has
established each of the four elements.
1. Timeliness
To determine the timeliness of an application for
intervention of right, we consider five factors:
1) the point to which the suit has progressed;
2) the purpose for which intervention is sought;
3) the length of time preceding the application

JA 242
during which the proposed intervenors knew or
should have known of their interest in the case;
4) the prejudice to the original parties due to the
proposed intervenors’ failure to promptly
intervene after they knew or reasonably should
have known of their interest in the case; and
5) the existence of unusual circumstances
militating against or in favor of intervention.
Blount-Hill v. Zelman, 636 F.3d 278, 284 (6th Cir.
2011) (quoting Jansen v. City of Cincinnati, 904 F.2d
336, 340 (6th Cir. 1990)). “No one factor is dispositive,
but rather the ‘determination of whether a motion to
intervene is timely should be evaluated in the context
of all relevant circumstances.’” Id. (quoting
Stupak-Thrall v. Glickman, 226 F.3d 467, 472–73 (6th
Cir. 2000). Based on these five factors, Attorney
General Cameron’s motion to intervene is timely.
Regarding the first factor, the parties cited three
cases in which a party sought to intervene after an
appellate panel rendered judgment. In two of the cases,
the Ninth Circuit granted motions to intervene, see
Peruta v. Cty. of San Diego, 824 F.3d 919, 940–41 (9th
Cir. 2016) (en banc); Day Apoliona, 505 F.3d 963, 965
(9th Cir. 2009), and in the other case, the D.C. Circuit
denied such a motion, Amalgamated Transit Union
Intern., AFL-CIO v. Donovan, 771 F.2d 1551, 1552
(D.C. Cir. 1985). This case is more like Peruta and Day
than Donovan. As here, both Peruta and Day involved
the unusual circumstance of a state finding itself with
nobody left in the suit to defend its interests after the
panel ruled. Peruta, 824 F.3d at 941; Day, 505 F.3d at
966. And in both cases, the Ninth Circuit granted

JA 243
intervention to allow the state to finish the appeal by
seeking rehearing or certiorari. Peruta, 824 F.3d at
941; Day, 505 F.3d at 966. In Donovan, by contrast, the
court denied intervention to seek rehearing or
certiorari because Secretary Donovan, a government
official and defendant in the lawsuit, was still actively
litigating the case. Moreover, the intervenor sought to
represent entirely different interests than the
government official. Donovan, 771 F.2d at 1552. That
is not the case here. Secretary Friedlander is no longer
actively litigating the case, and Attorney General
Cameron seeks to represent the same interest that
Secretary Meier and Secretary Friedlander represented
throughout the course of litigation—Kentucky’s
interest in defending its law. This factor weighs heavily
in favor of a finding of timeliness.
As to the second factor, we have previously endorsed
the very purpose for which Attorney General Cameron
seeks to intervene on behalf of the Commonwealth—to
ensure that the validity of a state law is defended to
the conclusion of the remaining appellate process. In
Associated Builders & Contractors, Saginawy Valley
Area Chapter v. Perry, 115 F.3d 386 (6th Cir. 1997),
Michigan’s Attorney General moved to intervene
following final judgment in the district court upon
learning that the state official who was a party would
not seek appellate review in a challenge to a state law.
Id. at 389. The district court denied the motion to
intervene, but we reversed and allowed the Attorney
General to intervene. Id. at 390. That should be the
outcome here as well. As did Michigan’s Attorney
General in Perry, Attorney General Cameron moved to
intervene to defend his state’s interests soon after

JA 244
learning that the state official in the lawsuit would no
longer do so. See id. at 389; see also N.E. Ohio Coal. for
Homeless & Serv. Emps. Int’l Union, Local 1199 v.
Blackwell, 467 F.3d 999, 1008 (6th Cir. 2006) (citation
omitted) (granting a motion to intervene because “the
interests of the Secretary and the State of Ohio
potentially diverge”). Attorney General Cameron’s
motion is essentially to allow his state to substitute its
party representative to defend the constitutionality of
its law, which is precisely what we allowed Michigan’s
Attorney General to do in Perry.
The third factor also points in Attorney General
Cameron’s favor. Attorney General Cameron was very
prompt in intervening after he became aware of his
need to do so. See Sierra Club v. Espy, 18 F.3d 1202,
1206 (5th Cir. 1994) (citation omitted) (holding that the
proper “gauge of promptness is the speed with which
the would-be intervenor acted when it became aware
that its interests would no longer be protected by the
original parties”). Secretary Friedlander communicated
that he would no longer defend H.B. 454 on June 9.
Two days later, Attorney General Cameron filed his
motion to intervene on behalf of the Commonwealth.
He obviously responded in a timely manner to
Secretary Friedlander’s decision. See id. (holding that
a motion to intervene was timely when it was filed 15
days after the would-be intervenor became aware of its
need to intervene); Stallworth v. Monsanto Co., 558
F.2d 257, 267 (5th Cir. 1977) (holding that where
would-be intervenors filed their motion less than one
month after learning of their interest in the case, they
discharged their duty to act quickly).

JA 245
The majority seems to think that Attorney General
Cameron should have anticipated his need to intervene
months ago when he swore his oath of office, because
“there was every reason for the Attorney General’s
office to inquire into and prepare for the Secretary’s
intended course.” But there is no evidence that, prior to
June 9, the Secretary expressed any intention to
Attorney General Cameron not to defend H.B. 454
through the entire appellate process. Quite to the
contrary, Secretary Friedlander retained the Attorney
General’s office to represent him at oral argument in
this case. If the Secretary had privately expressed his
intentions earlier, it would have been strange
indeed—and arguably malpractice—for the Attorney
General to move to intervene based on their privileged
communication regarding the Secretary’s future plans
in this case.
All the more confusing, the majority expects
Attorney General Cameron to have intervened in a case
in which he was already the attorney of record
for a party, representing the interests of the
Commonwealth—the exact same interests that he
seeks to represent now. To top it off,
Secretary Friedlander does not oppose Attorney
General Cameron’s continued representation of the
Commonwealth’s interests. Given these circumstances,
we cannot expect that Attorney General Cameron
should have intervened earlier. See Blount-Hill v.
Zelman, 636 F.3d 278, 287 (6th Cir. 2011) (holding that
“actual or constructive knowledge of their interest in
th[e] litigation” is necessary to trigger awareness of the
need to seek intervention); Midwest Realty Mgmt. Co.
v. City of Beavercreek, 93 F. App’x 782, 788 (6th Cir.

JA 246
2004) (holding that mere “suspicions” are not enough);
Linton by Arnold v. Comm’r of Health and Env’t, State
of Tenn., 973 F.2d 1311, 1318 (6th Cir. 1992)
(recognizing that “the movants had no reason to
intervene in the instant action so long as they believed
that the [Defendant-State] would protect their
interests”). And even if Attorney General Cameron
could have anticipated the need to file a motion to
intervene a few months ago, that does not mean that
we should deny his motion now. Day, 505 F.3d at 965
(“[T]he fact that the State of Hawaii is filing its Motion
now, rather than earlier in the proceedings, does not
cause prejudice to Day and the other plaintiffs, since
the practical result of its intervention—the filing of a
petition for rehearing—would have occurred whenever
the state joined the proceedings.” (citation omitted)).
The fourth factor also weighs in favor of a finding of
timeliness. Plaintiffs will not be prejudiced by Attorney
General Cameron’s intervention on behalf of the
Commonwealth. Secretary Friedlander has not opposed
the Attorney General’s motion, and he seems to have
no problem passing the baton to the Attorney General
to allow him to take control of the litigation. And
although the Attorney General’s intervention on behalf
of the Commonwealth will mean that this litigation will
continue, that does not unfairly prejudice Plaintiffs.
When one brings a constitutional challenge to a state
law, it is reasonable to expect the state to defend that
law through the full appellate process. Furthermore,
Attorney General Cameron is not injecting new issues
into the litigation; he merely seeks a rehearing or
certiorari on the very issues that were decided by our
panel on the merits. The Attorney General is thus

JA 247
simply picking up where Secretary Friedlander left off
(actually, to be more precise, Attorney General
Cameron is picking up where he left off, since he has
always been the attorney of record in this case). See
Peruta, 824 F.3d at 941 (holding that there was no
prejudice in granting the motion to intervene because
doing so “will not create delay by injecting new issues
into the litigation, but instead will ensure that our
determination of an already existing issue is not
insulated from review simply due to the posture of the
parties” (citation omitted)).
The majority asserts that Attorney General
Cameron is seeking to intervene to introduce a “new
third-party standing argument,” and that prejudices
Plaintiffs because they “have had no opportunity to
respond” to that argument. But the third-party
standing argument is hardly a new issue. Defendants
challenged Plaintiffs’ standing at the district court
level, (R. 108 at PageID 104–105), and the dissent from
the panel’s decision was devoted almost entirely to that
issue. Even if the third-party standing issue were
somehow new, granting Attorney General Cameron’s
motion to intervene would only prejudice Plaintiffs if it
could “be said that [he] ignored the litigation or held
back from participation to gain tactical advantage.”
Day, 508 F.3d at 966. There is no evidence of such bad
faith from Attorney General Cameron here. Instead, he
is intervening only because Secretary Friedlander
indicated he would not continue the appeal. If
Secretary Friedlander had fully exercised his rights on
appeal, Plaintiffs would have had to respond to the
third-party standing argument anyway at the en banc
or certiorari stage. See League of Woman Voters of

JA 248
Mich. v. Johnson, 902 F.3d 572, 578 (6th Cir. 2018)
(finding no prejudice and reversing a district court
decision denying a motion to intervene because “the
new issues that would have arisen had the [motion to
intervene been granted] would likely have arisen
anyway during the natural course of litigation”).
Finally, we have an independent obligation to ensure
that we have jurisdiction, so even if Plaintiffs’ standing
were a new issue, it should not be ignored. See Cmty.
First Bank v. Nat’l Credit Union Admin., 41 F.3d 1050,
1053 (6th Cir. 1994) (holding that there is “no authority
for the plaintiffs’ argument that prudential standing
requirements may be [forfeited] by the parties” and
declining to “recogniz[e] a distinction between
prudential and constitutional standing requirements in
this context”).
As to the fourth factor, the highly unusual
circumstances present in this case militate in favor of
intervention. These circumstances include the recent
election of Governor Beshear, the posture of this appeal
at the time that Attorney General Cameron assumed
office, Attorney General Cameron’s role as Secretary
Friedlander’s attorney during the appellate process,
and Attorney General Cameron’s recent discovery that
Secretary Friedlander would no longer defend H.B.
454.
Because each of the five factors weighs in Attorney
General Cameron’s favor, his motion to intervene is
timely.

JA 249
2. The Commonwealth’s Legal Interest in the
Subject Matter of This Case
As to the second element governing intervention of
right, the Commonwealth through Attorney General
Cameron has a substantial legal interest in the subject
matter of this case. “[T]his Circuit ‘has opted for a
rather expansive notion of the interest sufficient to
invoke intervention of right.’” Granholm, 501 F.3d at
780 (quoting Michigan State AFL-CIO v. Miller, 103
F.3d 1240, 1245 (6th Cir. 1997)). We have determined
that the term “‘interest’ is to be construed liberally.”
Bradley v. Milliken, 828 F.2d 1186, 1992 (6th Cir. 1987)
(citing Hatton v. County Bd. of Educ. of Maury County,
Tenn., 422 F.2d 457, 461 (6th Cir. 1970)).
As we recently explained, “[a] state may designate
an agent to represent its interests in court. This is most
commonly the state’s Attorney General.” State by &
through Tenn. Gen. Assembly v. U.S. Dep’t of State, 931
F.3d 499, 515 (6th Cir. 2019). So it is in Kentucky. As
a matter of state law, Attorney General Cameron is the
Commonwealth’s “chief law officer.” KRS 15.020. He
must “enter his appearance in all cases, hearings, and
proceedings . . . and attend to all litigation and legal
business in or out of the state required of him by law,
or in which the Commonwealth has an interest.” Id.
(emphasis added). As the Supreme Court of Kentucky
has recognized, it is a “bedrock principle[]” of Kentucky
law that the Attorney General possesses “broad powers
to initiate and defend actions on behalf of the people of
the Commonwealth.” Commw. ex rel. Conway v.
Thompson, 300 S.W.3d 152, 173 (Ky. 2009). “There is
no question,” Kentucky’s highest court has emphasized,

JA 250
“as to the right of the Attorney General to appear and
be heard in a suit brought by someone else in which the
constitutionality of a statute is involved.” Commw. ex
rel. Hancock v. Paxton, 516 S.W.2d 865, 868 (Ky. 1974).
Attorney General Cameron, on behalf of the
Commonwealth, clearly satisfies the second element to
intervene of right.
The majority’s decision to the contrary contravenes
our precedent. We have held, on multiple occasions,
that states’ attorneys general have the authority to
intervene to defend their states’ laws, even at the
appellate stage. See Perry, 115 F.3d at 390 (noting that
the Michigan Attorney General “has statutory and
common law authority to act on behalf of the people of
the State of Michigan in any cause or matter, such
authority being liberally construed” (citations
omitted)); Blackwell, 467 F.3d at 1009 (noting that the
Ohio State Attorney General could intervene because
he is “the State’s chief legal officer and a representative
of the people and the public interest” (citation
omitted)).
3. The Attorney General’s Ability to Protect the
Commonwealth’s Interests
As to the third and fourth elements, the
Commonwealth’s interests in defending H.B. 454
undoubtedly will be impaired by this litigation and will
not be adequately represented absent intervention.
Indeed, those interests will not be represented at all.
Without intervention, the Commonwealth will be
denied the opportunity to continue defending H.B. 454
in court. The Commonwealth’s only option now is to
seek en banc or certiorari of the denial of the Attorney

JA 251
General’s motion to intervene. Unless the Attorney
General on behalf of the Commonwealth becomes a
party, Secretary Friedlander’s decision not to continue
his appeal will not just “hinder,” but will perhaps be
fatal to “the State’s ability to litigate the validity of the
[Kentucky] law.” Blackwell, 467 F.3d at 1008–09
(citations omitted).
III.
Rule 24 of the Federal Rules of Civil Procedure
instructs that we “must permit anyone to intervene”
who establishes the four elements discussed above.
Fed. R. Civ. P. 24(a) (emphasis added). Each of those
elements weighs decidedly in favor of granting the
motion to intervene. Intervention is particularly
warranted because, without adding the Attorney
General as a party, there will be no one left in the case
to defend H.B. 454.
Finally, our views as to the merits of Plaintiffs’
constitutional challenge and whether they have
standing to sue should not affect our ruling on the
motion to intervene. Regardless of whether the
majority is correct as to resolution of the issues
presented in the case, Plaintiffs are not entitled to a
pass as to an opponent. In our federal system, legal
arguments are to be tested through the fire of
adversarial argument, which includes the full appellate
process. I therefore respectfully dissent.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

JA 252
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5516
[Filed July 7, 2020]
_____________________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C., on
)
behalf of itself, its staff, and its patients;
)
ASHLEE BERGIN, M.D., M.P.H. and TANYA
)
FRANKLIN, M.D, M.S.P.H., on behalf of
)
themselves and their patients
)
)
Plaintiffs – Appellees
)
v.
)
)
)
ERIC FRIEDLANDER, in his official capacity
as Acting Secretary of Kentucky’s Cabinet
)
for Health and Family Services
)
)
Defendant – Appellant
)
_____________________________________________)
Appeal from the United States District Court for the
Western District of Kentucky at Louisville
Honorable Joseph H. McKinley, Jr.
PETITION FOR REHEARING EN BANC OF
ORDER DENYING INTERVENTION BY
ATTORNEY GENERAL DANIEL CAMERON,
ON BEHALF OF THE COMMONWEALTH OF
KENTUCKY

JA 253
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
[*** Tables omitted ***]
RULE 35 STATEMENT & INTRODUCTION
This lawsuit began as a challenge to an abortion
statute, but it is now a dispute about a state’s
sovereign ability to ensure that its laws are fully
defended through this Court and the Supreme Court.
In its merits decision, the panel, by a 2-1 vote,
affirmed a permanent injunction against a Kentucky
law that regulates an abortion method. Up to that
point in the litigation, Kentucky’s top healthcare
official had defended the law. However, after the
Court’s decision, that official reversed course. Within
two days, Kentucky’s Attorney General stepped up to
continue the Commonwealth’s defense of its law. He
moved to intervene on behalf of the Commonwealth so
that he could file a petition for rehearing en banc and,
if necessary, a petition for certiorari. The panel, again
divided 2-1, refused to allow the Commonwealth’s
“chief law officer” even this modest relief.

JA 254
The en banc Court should rehear this decision. The
panel’s conclusion that the Attorney General’s
intervention motion is untimely is profoundly wrong.
For starters, it creates a circuit split with the Ninth
Circuit, which has twice allowed a state to intervene
through its attorney general after a panel decision. See
Fed. R. App. P. 35(b)(1)(B). Still worse, the panel’s
decision directly conflicts with circuit precedent about
state attorneys general. See 6th Cir. IOP 35(a). As
Judge Bush put it, the decision “flies in the face of our
precedent allowing states’ attorneys general to
intervene on appeal in order to defend their states’
laws.” June 24, 2020 Order (“Order”), at 9 (Bush, J.,
dissenting) (citing, e.g., Associated Builders &
Contractors, Saginaw Valley Area Chapter v. Perry, 115
F.3d 386 (6th Cir. 1997)).
But even that is not all. The panel’s decision came
days before the Supreme Court issued June Medical
Services LLC v. Russo, --- S. Ct. ---, 2020 WL 3492640
(June 29, 2020). The controlling opinion in June
Medical undermines the heart of the panel’s merits
decision—namely, its application of a balancing test
and its refusal to fully apply Gonzales v. Carhart, 550
U.S. 124 (2007). And in the wake of June Medical, the
Supreme Court has granted certiorari, vacated the
judgment, and remanded two cases for further
consideration. Importantly, the panel here relied upon
both of these now-vacated decisions. This Court has
repeatedly told litigants that unusual circumstances
matter when deciding whether to allow intervention.
Surely this is such an unusual circumstance.

JA 255
The panel’s refusal to allow the Attorney General to
continue defending Kentucky law is outcome
determinative for the Commonwealth and its citizens.
See 6th Cir. IOP 35(g); see also Bhd. of R.R. Trainmen
v. Baltimore & O.R. Co., 331 U.S. 519, 524 (1947).
“With the denial of [the Attorney General’s] motion,
there will be no one in this case to defend the
challenged state law. It is a plaintiff’s dream case: what
if every litigant who successfully challenged the
constitutionality of a state law could bar the state
attorney general from seeking complete appellate
review?” Order, at 9–10 (Bush, J., dissenting).
BACKGROUND
This lawsuit concerns the constitutionality of
Kentucky’s House Bill 454. This statute requires
abortion providers to ensure that an unborn child has
died before performing a dilation-and-evacuation
(“D&E”) abortion, which involves ripping the unborn
child apart with forceps. By requiring an unborn child
to die before this procedure, HB 454 essentially is a
compassion measure. It reflects the fact that “[n]o one
would dispute that, for many, D & E is a procedure
itself laden with the power to devalue human life.”
Gonzales, 550 U.S. at 158.
Two abortion doctors and an abortion clinic
nevertheless sued to invalidate HB 454. The
Commonwealth, acting through Secretary Adam Meier,
defended HB 454 during a five-day bench trial. The
district court, however, invalidated HB 454 on its face.
EMW Women’s Surgical Center, P.S.C. v. Meier, 373 F.
Supp. 3d 807, 826 (W.D. Ky. 2019). As relevant here,
the district court concluded that the law failed the

JA 256
purported balancing test from Whole Woman’s Health
v. Hellerstedt, 136 S. Ct. 2292 (2016). Meier, 373 F.
Supp. 3d at 822–23.
Secretary Meier appealed. After the parties
completed briefing but before oral argument, Kentucky
held its general elections for statewide offices.
Kentuckians elected the then-current Attorney
General, Andy Beshear, to be Governor and Daniel
Cameron to be Attorney General. As a result, Secretary
Eric Friedlander, who is Governor Beshear’s top
healthcare appointee, replaced Secretary Meier as the
party in this case. [App. R. 43]. Secretary Friedlander
soldiered on in this appeal—at least initially. He
retained attorneys in Attorney General Cameron’s
office to handle oral argument, which they did. [App. R.
41–42, 45–48].
The panel affirmed the district court’s judgment.
EMW Women’s Surgical Center, P.S.C. v. Friedlander,
960 F.3d 785, 790 (6th Cir. 2020). As relevant here, the
panel rejected Secretary Friedlander’s argument that
a balancing test does not apply here. The panel found
this argument “unpersuasive,” reasoning that, under
Hellerstedt, it must “consider the burdens a law
imposes on abortion access together with the benefits
those laws confer.” Id. at 796 (citation omitted). The
panel also concluded that Hellerstedt “clarified” the
holding from Gonzales v. Carhart that legislatures
have “wide discretion to pass legislation in areas where
there is scientific and medical uncertainty.” Id. The
panel therefore refused to defer to the Kentucky
General Assembly. See id. at 797.

JA 257
Judge Bush dissented on standing grounds. Id. at
812–13 (Bush, J., dissenting). He also chided the panel
for issuing its opinion without waiting for June
Medical. Id. at 819–20.
Upon receiving the panel’s decision, Secretary
Friedlander decided to stop defending HB 454. Shortly
thereafter, Attorney General Cameron moved to
intervene on behalf of the Commonwealth to pick up
where Secretary Friedlander left off. [App. R. 56].
Notably, Secretary Friedlander did not oppose the
Attorney General’s intervention. EMW and its abortion
doctors, however, did—realizing they could score a
windfall by a gubernatorial administration change. In
the meantime, Attorney General Cameron timely
tendered a petition for rehearing en banc. [App. R. 60].
Secretary Friedlander did not file a petition for
rehearing.
The panel, again over Judge Bush’s dissent, denied
Attorney General Cameron’s motion to intervene.
ARGUMENT
The panel’s order denying intervention is
unprecedented. It says “too bad” to a sovereign state
that merely wants to exhaust its appellate remedies in
defense of a law that passed Kentucky’s General
Assembly by lopsided margins. In so doing, the panel
unmistakably split with two Ninth Circuit decisions,
both of which allowed a state to intervene through its
attorney general after a panel opinion. The panel was
no kinder to this Court’s precedent. The panel’s
decision “flies in the face of [Sixth Circuit] precedent
allowing states’ attorneys general to intervene on

JA 258
appeal in order to defend their states’ laws.” Order, at
9 (Bush, J., dissenting). Importantly, the panel did all
of this days before the Supreme Court’s June Medical
decision. June Medical has now come, and it directly
undercuts the panel’s reasoning. Yet, Attorney General
Cameron is now sidelined.
For any or all of these reasons, en banc rehearing is
warranted.
I. The panel’s decision creates a circuit split.
The panel concluded that Attorney General
Cameron’s motion to intervene was untimely primarily
because the Attorney General did not file it until after
the panel issued its decision. Yet, the Ninth Circuit has
twice “granted a motion to intervene following issuance
of its decision.” See Order, at 4. Those two opinions
cannot be reconciled with the panel’s decision.
Start with Peruta v. County of San Diego, 824 F.3d
919 (9th Cir. 2016) (en banc). There, the state of
California moved to intervene after the panel decision
and once the losing party declined to petition for
rehearing en banc. Id. at 940. As here, the panel
refused to allow the state to intervene through its
attorney general. Id. However, the en banc court
disagreed. It reasoned that California has a “significant
interest” in the case because the panel’s decision
implicated California law. Id. The Court acknowledged
that “California sought to intervene at a relatively late
stage in the proceeding,” but nevertheless allowed
intervention because there was no prejudice and
because “California had no strong incentive to seek
intervention . . . at an earlier stage.” Id. The bottom

JA 259
line for the en banc court was: “If we do not permit
California to intervene as a party . . . there is no party
in that case that can fully represent its interests.” Id.
at 491.
In so holding, the Ninth Circuit built on its earlier
decision in Day v. Apoliona, 505 F.3d 963 (9th Cir.
2007) (order). There, Hawaii participated as an amicus
curiae during the panel stage. However, the panel
rejected Hawaii’s argument and the losing party
declined to seek rehearing. Id. at 964–65. The Ninth
Circuit allowed Hawaii, through its attorney general,
to intervene to “ensure that our determination of an
already existing issue is not insulated from review
simply due to the posture of the parties.” Id. at 965.
Even though the panel found Hawaii’‘s “explanation for
why it did not intervene earlier less than entirely
persuasive,” the court allowed the state to intervene
because “[u]nless the State of Hawaii is made a party
to these proceedings, no petition for rehearing can be
filed in this Court, and there will be no opportunity for
the Supreme Court to consider whether to grant
certiorari.” Id. at 966. The panel, in short, refused to
“foreclose further consideration of an important issue
because of the positions of the original parties, despite
the long term impact on the State of Hawaii.” Id.
The panel distinguished Peruta and Day on two
bases, both unconvincing. First, the panel noted that,
in Peruta, the state lacked a “strong incentive” to
intervene earlier in the litigation because “it had little
reason to anticipate either the breadth of the panel’s
holding or of the decision of [the losing party] not to
seek panel rehearing or rehearing en banc.” Order, at

JA 260
6 (quoting Peruta, 824 F.3d at 940). But the same is
true here. As Judge Bush noted, “Secretary Friedlander
retained the Attorney General’ office to represent him
at oral argument in this case,” thus giving every
impression that Secretary Friedlander intended to keep
defending HB 454. Id. at 14 (Bush, J., dissenting). It is
“confusing”to “expect[] Attorney General Cameron to
have intervened in a case in which he was already the
attorney of record for a party, representing the
interests of the Commonwealth—the exact same
interests that he seeks to represent now.” Id.
The panel also distinguished Peruta and Day on the
basis that Attorney General Cameron’s tendered
petition for rehearing en banc argues that EMW and its
abortion doctors lack standing, which the panel deemed
a new issue. Id. at 6–7. New or not, the panel resolved
that issue. See Friedlander, 960 F.3d at 794 n.2.
Regardless, the panel missed the point. As explained
below, June Medical hollows out the panel’s decision on
the merits—namely, its interpretation of Hellerstedt
and its refusal to fully apply Gonzales based upon
Hellerstedt. Importantly, Attorney General Cameron’s
petition vigorously disputed the panel’s merits decision
because of its misguided reliance on Hellerstedt. [App.
R. 60 at 15–0]. Thus, in light of June Medical, the
panel’s focus on third-party standing as a reason to
deny intervention is a sleight of hand that overlooks
the Attorney General’s merits arguments. Judge Bush
correctly recognized that “Attorney General Cameron
is not injecting new issues into the litigation; he merely
seeks a rehearing or certiorari on the very issues that
were decided by our panel on the merits.” Order, at 15
(Bush, J., dissenting).

JA 261
Nor can the panel’s decision be justified on the
theory that the Attorney General’s intervention
prejudices EMW and its abortion doctors. It is not
prejudicial to require them to litigate the
constitutionality of HB 454 to finality. See Day, 505
F.3d at 965 (finding no prejudice “since the practical
result of [the state’s] intervention—the filing of a
petition for rehearing—would have occurred whenever
the state joined the proceedings”). “When one brings a
constitutional challenge to a state law, it is reasonable
to expect the state to defend that law through the full
appellate process.” Order, at 15 (Bush, J., dissenting).
In splitting with Peruta and Day, the panel took
refuge in Amalgamated Transit Union International,
AFL-CIO v. Donovan, 771 F.2d 1551 (D.C. Cir. 1985)
(per curiam). True, the court there denied a post-panel
decision motion to intervene. Id. at 1554. But that’s
where the similarities end. Donovan did not concern a
state attorney general trying to defend a state’s law
through the full appellate process. Also, unlike here,
the losing party in Donovan (a government official)
“was still actively litigating the case” when
intervention was sought. Order, at 12 (Bush, J.,
dissenting). In addition, the proposed intervenor in
Donovan “sought to represent entirely different
interests than the government official.” Id. Donovan, in
sum, could not be more different.

JA 262
II.

The panel’s decision directly conflicts with
Sixth Circuit precedent.

Creating a circuit split is just the beginning. The
panel’s decision also “flies in the face of [Sixth Circuit]
precedent allowing states’ attorneys general to
intervene on appeal in order to defend their states’
laws.” Id. at 9.
Take Associated Builders & Contractors, Saginaw
Valley Area Chapter v. Perry—a decision the panel
failed to cite. There, Michigan’s Attorney General
moved to intervene after the district court found that
federal law preempted a state law and after the
then-existing state party “decided not to appeal the
adverse judgment.” 115 F.3d at 389. The district court
denied intervention, but this Court reversed. Id. at 391.
As Judge Bush summarized, “Attorney General
Cameron’s motion is essentially to allow his state to
substitute its party representative to defend the
constitutionality of its law, which is precisely what we
allowed Michigan’s Attorney General to do in Perry.”
Order, at 13 (Bush, J., dissenting). Viewed this way,
Attorney General Cameron’s intervention motion is not
so much a motion to add a new party as it is a motion
for the Commonwealth, through its “chief law officer,”
Ky. Rev. Stat. 15.020, simply to continue its defense of
HB 454. “The Attorney General is the same counsel who
represented Secretary Friedlander in this appeal, and
Secretary Friedlander does not oppose the substitution
of the Attorney General to represent the
Commonwealth’s interests.” Order, at 9 (Bush, J.,
dissenting). The panel’s single-minded focus on the
stage of the proceedings overlooks this simple fact,

JA 263
especially given that Attorney General Cameron has
timely tendered a petition for rehearing.
This Court’s willingness to allow state attorneys
general to defend their laws—until now, that is—is
rooted in the fact that “[a] state may designate an
agent to represent its interests in court. This is most
commonly the state’s Attorney General.” State by &
through Tenn. Gen. Assembly v. U.S. Dep’t of State, 931
F.3d 499, 515 (6th Cir. 2019), pet’n for certiorari
docketed, 19-1137 (2020). “So it is in Kentucky.” Order,
at 17–18 (Bush, J., dissenting) (summarizing state
law). Thus, by denying Attorney General Cameron the
ability to defend HB 454, the panel did not just deny
intervention to a state official, but it cut off a sovereign
state’s ability to defend its duly enacted laws. It’s one
thing to invalidate a state law; it’s another to tell a
state it can’t even exhaust its appellate remedies in
defense of that law.
This Court’s en banc opinion in City of Pontiac
Retired Employees Association v. Schimmel, 751 F.3d
427 (6th Cir. 2014) (per curiam) (“Schimmel”), brings
this point home. There, Michigan’s Attorney General
moved to intervene at the panel stage after oral
argument based on an order the panel entered just
prior to oral argument. The panel, however, denied the
motion and issued its opinion. City of Pontiac Retired
Emps. Ass’n v. Schimmel, 726 F.3d 767, 773 (6th Cir.
2013). Judge Griffin dissented, noting that the panel
denied intervention “despite the Attorney General’s
statutorily protected right to intervene in any matter
in which the people of Michigan may be interested.” Id.
at 783–84 (Griffin, J., dissenting). The Court then

JA 264
granted rehearing en banc and “allow[ed] the Michigan
Attorney General to intervene on behalf of the State of
Michigan.” Schimmel, 751 F.3d at 430.
III.

June Medical and the subsequent GVRs
provide a powerful reason to grant
intervention.

As the panel recognized, this Court’s intervention
standard takes account of “unusual circumstances
militating . . . in favor of intervention.” Order, at 3
(citation omitted). June Medical is the definition of an
unusual circumstance.
Now that June Medical has been decided, the
panel’s decision, especially its interpretation of
Hellerstedt, rests on unsound footing, as described
below. Moreover, following June Medical, the Supreme
Court has granted certiorari, vacated the judgment,
and remanded (“GVR”) two cases to the Seventh Circuit
for further consideration. In both cases, the Seventh
Circuit applied the purported balancing test from
Hellerstedt, as the panel did here. Planned Parenthood
of Ind. & Ky., Inc. v. Comm’r of Ind. State Dep’t of
Health, 896 F.3d 809, 817–18 (7th Cir. 2018), cert.
granted, judgment vacated, & remanded, --- S. Ct. ---,
2020 WL 3578669 (July 2, 2020); Planned Parenthood
of Ind. & Ky., Inc. v. Adams, 937 F.3d 973, 983-85 (7th
Cir. 2019), cert. granted, judgment vacated, &
remanded, --- S. Ct. ---, 2020 WL 3578672 (July 2,
2020). This shows that but for the panel’s decision
denying intervention, this case would not be over. If the
en banc Court merely allows Attorney General
Cameron to intervene, the Supreme Court almost
certainly would follow with a GVR. The panel’s express

JA 265
reliance on both of the now-vacated Seventh Circuit
decisions makes this result even more likely.
Friedlander, 960 F.3d at 796. Perhaps more than
anything else, this justifies allowing Attorney General
Cameron to continue litigating the constitutionality of
HB 454.
The panel nevertheless concluded that June
Medical could never amount to an unusual
circumstance warranting intervention. The panel
reasoned: “[I]f June Medical Services contradicts this
Court’s decision, the Supreme Court’s decision will
prevail as a matter of course and this case need not be
further litigated on that basis.” Order, at 7. This
assurance is small comfort to the Commonwealth,
which remains under the permanent injunction against
its law that the panel upheld in reasoning that can no
longer be justified mere days after it was issued. As
Judge Bush recognized, “[w]ithout anyone in court to
defend H.B. 454, Plaintiffs’ challenge to that law will
succeed, even if our ruling in this case proves to be
directly contrary to the Supreme Court’s holding in
June Medical.” Id. at 10 (Bush, J., dissenting).
The panel’s merits decision is in fact “directly
contrary” to June Medical. Although June Medical has
six different opinions, the reasoning of Chief Justice
Roberts’s opinion governs because it has the only
rationale on which the five justices who voted for
reversal agreed. See Marks v. United States, 430 U.S.
188, 193 (1977). As the Chief Justice reasoned, “Casey’s
requirement of finding a substantial obstacle before
invalidating an abortion regulation” is a “sufficient
basis” for the Court’s decision in Hellerstedt. June

JA 266
Medical, 2020 WL 3492640, at *26 (Roberts, C.J.,
concurring in judgment). The plurality’s opinion, by
contrast, swept more broadly, concluding that courts
must weigh the benefits of the law against its burdens.
See id. at *10 (plurality). As Justice Kavanaugh
pointed out: “Today, five Members of the Court reject
the Whole Woman’s Health cost-benefit standard.” Id.
at *63 (Kavanaugh, J., dissenting).
In his concurrence, Chief Justice Roberts explained
that Hellerstedt does not invite a “grand ‘balancing test
in which unweighted factors mysteriously are
weighed.’” See id. at *23 (Roberts, C.J., concurring in
judgment) (citation omitted). This is so, the Chief
Justice continued, because “[t]here is no plausible
sense in which anyone, let alone this Court, could
objectively assign weight to such imponderable values
and no meaningful way to compare them if there were.”
Id. As a result, under Casey, “benefits [are] not placed
on a scale opposite the law’s burdens.” See id, at *25.
The panel’s decision is irreconcilable with the Chief
Justice’s opinion. Whereas the Chief Justice rejected a
balancing test, the panel embraced such a test. It
“answer[ed] th[e] question” whether an undue burden
exists by “weighing ‘the burdens a law imposes on
abortion access together with the benefits those laws
confer.’” Friedlander, 960 F.3d at 795 (quoting
Hellerstedt, 136 S. Ct. at 2309). This reasoning
pervades the opinion: Part I.A of the opinion is labeled
“Burdens,” Part I.B is “Benefits,”and Part I.C is
“Balancing.” Id. at 797–08.
The panel also rejected the Secretary’s argument
that “the Commonwealth’s interests behind H.B. 454

JA 267
are purportedly more ‘intangible’” and that “it is the
legislature’s place—and not the courts’—to assess
whether the Commonwealth’s interest justifies
regulating abortion.” Id. at 796. But Chief Justice
Roberts adopted that very argument in June Medical:
“Pretending that we could pull [such a balancing test]
off would require us to act as legislators, not
judges . . . .” June Medical, 2020 WL 3492640, at *23
(Roberts, C.J., concurring in judgment).
The panel’s decision is contrary to June Medical in
still another respect.1 The panel rejected the
Secretary’s argument that the Court should apply the
rule from Gonzales that “state and federal legislatures
[have] wide discretion to pass legislation in areas
where there is medical and scientific uncertainty.”
Gonzales, 550 U.S. at 163. Gonzales held that a law
“can survive [a] facial attack” even when “medical
uncertainty persists.” See id. This holding is especially
important here—indeed, it is dispositive—in light of
the mountain of expert testimony that the Secretary
offered during trial. The panel, however, concluded
that Hellerstedt “clarified” this holding and thus
refused to defer to the Kentucky General Assembly. See
Friedlander, 960 F.3d at 796–97. The Chief Justice’s
concurrence, however, rejected this court-centric
approach. Quoting Gonzales, the Chief Justice reasoned
that the “traditional rule,” which is “consistent with
Casey,” is that “state and federal legislatures [have]
wide discretion to pass legislation in areas where there
1

This aspect of June Medical undercuts the panel’s purported
alternative holding to applying a balancing test. See Friedlander,
960 F.3d at 797 n.3.

JA 268
is medical and scientific uncertainty.” June Medical,
2020 WL 3492640, at *24 (Roberts, C.J., concurring in
judgment). Thus, the Chief Justice applied the very
holding from Gonzales that the panel rejected.
These are but a sampling of the ways that the
panel’s decision is incompatible with June Medical.
Unless the en banc Court grants intervention or the
Supreme Court reverses, EMW and its doctors will get
a win without going the distance, and the above
arguments about June Medical, which go to the heart
of the panel’s decision, will not be aired now. EMW and
its abortion doctors are “not entitled to a pass as to an
opponent. In our federal system, legal arguments are to
be tested through the fire of adversarial argument,
which includes the full appellate process.” Order, at 19
(Bush J., dissenting). This is perhaps no truer than in
a case challenging the constitutionality of a sovereign
state’s law. See Abbott v. Perez, 138 S. Ct. 2305, 2324 &
n.17 (2018) (holding that enjoining a constitutional
state law “would seriously and irreparably harm the
State”).
CONCLUSION
The Court should grant rehearing en banc.

JA 269
Respectfully submitted,
s/ Barry L. Dunn
Barry L. Dunn
Chief Deputy Attorney General
Victor B. Maddox
Assistant Deputy Attorney General
Carmine G. Iaccarino
Assistant Attorney General
Office of the Kentucky
Attorney General
700 Capital Avenue, Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
Barry.Dunn@ky.gov
[*** Certificates omitted ***]

JA 270
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5516
[Filed: July 16, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER,
)
P.S.C., ON BEHALF OF ITSELF, ITS
)
STAFF, AND ITS PATIENTS;
)
ASHLEE BERGIN, M.D., M.P.H., ON
)
BEHALF OF HERSELF AND HER
)
PATIENTS; TANYA FRANKLIN, M.D.,
)
M.S.P.H., ON BEHALF OF HERSELF
)
AND HER PATIENTS,
)
)
Plaintiffs-Appellees,
)
)
v.
)
)
ERIC FRIEDLANDER, IN HIS OFFICIAL )
CAPACITY AS ACTING SECRETARY
)
OF KENTUCKY’S CABINET FOR
)
HEALTH AND FAMILY SERVICES,
)
)
Defendant-Appellant,
)
)
THOMAS B. WINE, ET AL.,
)
)
Defendants.
)
__________________________________________)
ORDER
BEFORE: MERRITT, CLAY, and BUSH, Circuit
Judges.

JA 271
Upon consideration of the petition for rehearing en
banc tendered by the Proposed Intervenor Daniel J.
Cameron,
It is ORDERED that the petition is rejected for
filing.
JOHN K. BUSH, Circuit Judge, dissenting. I
would accept the Attorney General’s tendered petition
for rehearing en banc for the reasons stated in my
dissent from the denial of the Attorney General’s
motion to intervene. I also note that, notwithstanding
the Panel’s rejection of his petition today, the Attorney
General may have further recourse in this case should
he decide to pursue it. It appears that he has
independent authority under Kentucky law to file a
petition for certiorari as Secretary Friedlander’s
counsel, despite Governor Beshear’s objections. Cf.
Perdue v. Baker, 586 S.E.2d 606, 610-16 (Ga. 2003)
(holding that the Georgia Attorney General had
independent authority under Georgia law to represent
the State before the U.S. Supreme Court despite the
Governor’s objections). As I noted in my earlier dissent,
Attorney General Cameron has broad, independent
authority under Kentucky state law to defend the
Commonwealth’s statutes. He must “enter his
appearance in all cases, hearings, and proceedings . . .
and attend to all litigation and legal business in or out
of the state required of him by law, or in which the
Commonwealth has an interest.” KRS 15.020. The
Supreme Court of Kentucky has recognized that it is a
“bedrock principle[]” of Kentucky law that the Attorney
General possesses “broad powers to initiate and defend
actions on behalf of the people of the Commonwealth.”

JA 272
Commw. ex rel. Conway v. Thompson, 300 S.W.3d 152,
173 (Ky. 2009). “There is no question,” Kentucky’s
highest court has emphasized, “as to the right of the
Attorney General to appear and be heard in a suit
brought by someone else in which the constitutionality
of a statute is involved.” Commw. ex rel. Hancock v.
Paxton, 516 S.W.2d 865, 868 (Ky. 1974). Because
Attorney General Cameron appears to have
independent authority under Kentucky law to file a
petition for certiorari as Secretary Friedlander’s
counsel, this case need not be over quite yet.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

JA 273
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No: 19-5516
[Filed: August 03, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER,
)
P.S.C., on behalf of itself, its staff, and its
)
patients; ASHLEE BERGIN, M.D., M.P.H. )
and TANYA FRANKLIN, MD, M.S.P.H., on )
behalf of themselves and their patients
)
)
Plaintiffs - Appellees
)
)
v.
)
)
ERIC FRIEDLANDER, in his official
)
capacity as Acting Secretary of Kentucky’s )
Cabinet for Health and Family Services
)
)
Defendant - Appellant
)
and
)
)
THOMAS B. WINE, et al
)
)
Defendants
)
__________________________________________)
MANDATE
Pursuant to the court’s disposition that was filed
06/02/2020 the mandate for this case hereby issues
today.
COSTS: None

